Capital Case
Case No.19-1106

In the Supreme Court of the United States
TOMMY SHARP, Interim Warden
Oklahoma State Penitentiary,
Petitioner,
v.
RODERICK L. SMITH
Respondent.
________________________________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
BRIEF IN OPPOSITION
TO
PETITION FOR WRIT OF CERTIORARI

EMMA V. ROLLS, OBA # 18820 *
THOMAS D. HIRD, OBA # 13580
Assistant Federal Public Defenders
Western District of Oklahoma
215 Dean A. McGee Ave., Suite 707
Oklahoma City, Oklahoma 73102
(405) 609-5975 telephone
(405) 609-5976 facsimile
emma_rolls@fd.org
tom_hird@fd.org

COUNSEL FOR RESPONDENT,
RODERICK L. SMITH

* Counsel of Record

Dated this 26th day of May, 2020

CAPITAL CASE
No. 19-1106
QUESTIONS PRESENTED
1.

Did the Tenth Circuit err in concluding Moore I and Moore II were mere applications of
Atkins that could be retroactively applied on collateral review, unrestrained by AEDPA,
when this Court’s post-Atkins jurisprudence has expressly confirmed that its reliance on the
clinical standards endorsed in Atkins constitutes a mere application of that case?

2.

Did the Tenth Circuit err in finding the OCCA did not adjudicate on the merits the adaptivefunctioning prong when the OCCA reached no conclusions regarding this prong and instead
discussed the “persuasive evidence” exclusively as it related to the factors necessary to
establish the intellectual-functioning prong?

3.

Did the Tenth Circuit err in finding Mr. Smith demonstrated a reasonable jury would have
concluded he proved significant deficits in his adaptive functioning where Petitioner
conceded Mr. Smith suffers from adaptive functioning deficits in the area of academics;
where Dr. Hopewell, the only expert to formally assess Mr. Smith’s adaptive functioning
capacities, concluded he suffers from profound deficits in at least five of the nine areas;
where other witnesses testified to his illiteracy as a child and as an adult; and where the State
neither conducted nor presented a standardized assessment of his adaptive functioning
capacities?

i

TABLE OF CONTENTS
QUESTIONS PRESENTED .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
I.
II.
III.

Procedural History . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
The Crime . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Mr. Smith’s Atkins Trial . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
A.
B.
C.

The Experts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Mr. Smith’s Teachers for the Educable Mentally Handicapped . . . . . . . . . . 14
The Lay Witnesses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

REASONS FOR DENYING THE WRIT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
I.

The Tenth Circuit’s Holding That Moore I and Moore II May Be Applied
Retroactively on Collateral Review Is Not Contrary to Shoop v. Hill, and No
Significant Circuit Split Exists as a Result of the Tenth Circuit’s Decision . . . . . 22
A.

The Tenth Circuit’s Conclusion that Moore I and Moore II May Be
Applied Retroactively on Collateral Review, Unrestrained by AEDPA,
Is Not Contrary to Hill. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

B.

No Real Circuit Split Exists as a Result of the Tenth Circuit’s Decision,
and the Cases Cited by Petitioner Are Distinguishable from Mr. Smith’s
Case . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

II.

The Tenth Circuit Properly Applied De Novo Review to its Analysis of the
Adaptive-Functioning Prong Because the OCCA Did Not Adjudicate this
Prong on the Merits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

III.

Even If this Court Were to Find Moore I and Moore II Barred, Mr. Smith
Still Would Be Entitled to Habeas Relief . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

ii

CONCLUSION .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

TABLE OF CONTENTS OF APPENDIX TO RESPONDENT’S
BRIEF IN OPPOSITON . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

Smith v. Sharp, 935 F.3d 1064 (10th Cir. 2019) . . . . . . . . . . . . . . Resp. App. 1- 29
Smith v. State, Case No. O-2006-683, Accelerated Docket Order
(Okla. Crim. App. Jan. 29, 2007) (Atkins Slip Op.) .. . . . . . . . . . . Resp. App. 30-54
1998 Report of Dr. Clifford Hopewell, Ph.D. . . . . . . . . . . . . . . . . Resp. App. 55-66
2003 Report of Dr. Clifford Hopewell, Ph.D. . . . . . . . . . . . . . . . . Resp. App. 67-74

iii

TABLE OF AUTHORITIES
SUPREME COURT CASES
Atkins v. Virginia, 536 U.S. 304 (2002).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 2, 25
Brumfield v. Cain, 135 S. Ct. 2269 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
Chaidez v. United States, 568 U.S. 342 (2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24, 25
Coleman v. Thompson, 501 U.S. 722 (1991) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Cullen v. Pinholster, 563 U.S. 170 (2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Hall v. Florida, 572 U.S. 701 (2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 6, 25, 26
Harrington v. Richter, 562 U.S. 86 (2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Jackson v. Virginia, 443 U.S. 307 (1979) .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
Johnson v. Williams 568 U.S. 289 (2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Miller-El v. Cockrell, 537 U.S. 322 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
Moore I v. Texas, 137 S. Ct. 1039 (2017) .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 22, 26
Moore II v. Texas, 139 S. Ct. 666 (2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 18, 22, 26
Rompilla v. Beard, 545 U.S. 374 (2005) .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Saffle v. Parks, 494 U.S. 484 (1990) .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Shoop v. Hill, 139 S. Ct. 504 (2019) .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22, 23, 25
Strickland v. Washington, 466 U.S. 668 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Teague v. Lane, 489 U.S. 288 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Wilson v. Sellers, 138 S. Ct. 1188 (2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Wright v. West, 505 U.S. 277 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
iv

CIRCUIT COURT CASES
Amado v. Gonzalez, 758 F.3d 1119 (9th Cir. 2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
Brown v. Smith, 551 F.3d 424 (6th Cir. 2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Eze v. Senkowski, 321 F.3d 110 (2d Cir. 2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Gardner v. Galetka, 568 F.3d 862 (10th Cir. 2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Gibson v. Sec’y Pennsylvania Dep’t of Corr., 718 F. App’x 126 (3d Cir. 2017) .. . . . . . 31
Hill v. Anderson, 2020 WL 2551881 (6th Cir. May 20, 2020) .. . . . . . . . . . . . . . 23, 26, 27
Hill v. Humphrey, 662 F.3d 1335 (11th Cir. 2011) .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
In re Payne, 722 F. App’x 534 (6th Cir. 2018) .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27, 28
Mann v. Ryan, 828 F.3d 1143 (9th Cir. 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Pruitt v. Neal, 788 F.3d 248 (7th Cir. 2015) .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Sierra Club v. U.S. Dep’t of Interior, 899 F.3d 260 (4th Cir. 2018) . . . . . . . . . . . . . . . . 31
Smith v. Comm’r, Alabama Dep’t of Corr., 924 F.3d 1330 (11th Cir. 2019) .. . . . . . . . . 27
Smith v. Mullin, 379 F.3d 919 (10th Cir. 2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 3
Smith v. Sharp, 935 F.3d 1064 (10th Cir. 2019) . . . . . . . . 1, 5, 6, 11, 22-26, 30, 31, 32, 33
Torres v. Lytle, 461 F.3d 1303 (10th Cir. 2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
United States v. Venable, 943 F.3d 187 (4th Cir. 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Worth v. Tyer, 276 F.3d 249 (7th Cir. 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Ybarra v. Filson, 869 F.3d 1016 (9th Cir. 2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

v

FEDERAL STATUES
28 U.S.C. § 2254(d)(1). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22, 23, 24

STATE COURT CASES AND ORDERS

Fuston v. State, __ P.3d __ No. D-2017-773, 2020 WL 1074845
(Okla. Crim. App. Mar. 5, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Lambert v. State, 126 P.3d 646 (Okla. Crim. App. 2005) . . . . . . . . . . . . . . . . . . . . . . . . 14
Murphy v. State, 54 P.3d 556 (Okla. Crim. App. 2002) . . . . . . . . . . . . . . . . . . . 1, 4, 26, 29
Salazar v. State, 126 P.3d 625 (Okla. Crim. App. 2005) . . . . . . . . . . . . . . . . . . . . . . . . . 14
Smith v. State, No. O-2006-683, Accelerated Docket Order . . . . . . . . . . . . . . . 1, 4, 29, 30
(Okla. Crim. App. Jan. 29, 2007) (referenced Atkins Slip Op.)
Smith v. State, 306 P.3d 557 (Okla. Crim. App. 2013) .. . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Smith v. State, 932 P.2d 521 (Okla. Crim. App. 1996) .. . . . . . . . . . . . . . . . . . . . . . . . . . 7

OTHER AUTHORITIES
The Death Penalty and Intellectual Disability (Edward A. Polloway ed., 2015) .. . . 11, 13

vi

INTRODUCTION
Respondent, Roderick Lynn Smith, respectfully urges this Court to deny the petition for writ
of certiorari to review the unanimous Order and Judgment of the United States Court of Appeals for
the Tenth Circuit entered August 26, 2019. See Smith v. Sharp, 935 F.3d 1064 (10th Cir. 2019).
STATEMENT OF THE CASE
I.

Procedural History.
Petitioner complains Mr. Smith has received “decades of process on various iterations of his

intellectual disability or borderline intellectual disability claims.” Petition at 5. But the many years
of litigation surrounding Mr. Smith’s intellectual disability reflect Oklahoma’s resistence to this
Court’s command that the Eighth Amendment prohibits the execution of the intellectually disabled.
Atkins v. Virginia, 536 U.S. 304 (2002). Former Judge Charles Chapel of the Oklahoma Court of
Criminal Appeals (“OCCA”) expressed his disgust with the OCCA’s hostile approach to assessing
intellectual disability. In Murphy v. State, 54 P.3d 556 (Okla. Crim. App. 2002), overruled in part
on other grounds by Blonner v. State, 127 P.3d 1135, 1139 (Okla. Crim. App. 2006), the case that
first set forth the standard for assessing a capital litigant’s Atkins eligibility, he stated:
[T]he majority is not concerned with preventing the execution of the mentally
retarded. Instead, the majority sets forth procedures in pending and future cases
which, taken together, allow the continued execution of mentally retarded defendants.
I regret to say that I believe the majority opinion is primarily concerned with limiting
the determination of mental retardation, thus limiting those who fit within [Atkins’s]
holding.
Id. at 577 & n.22 (Chapel, J., concurring).1 The OCCA has been especially resistant to the clinical

1

Of note, Judge Chapel dissented to the opinion affirming Mr. Smith’s jury verdict finding him “not
mentally retarded.” Smith v. State, No. O-2006-683 (Okla. Crim. App. Jan. 29, 2007) (Chapel, J.,
dissenting at 1-3) (“Atkins Slip Op.”). Resp. App. 52-54.
1

underpinnings of Atkins, and sadly, it remains so to this day. See, e.g., Fuston v. State, __ P.3d __
No. D-2017-773, 2020 WL 1074845, at *3 n.2 (Okla. Crim. App. Mar. 5, 2020) (drawing a
distinction between “mental retardation” and “intellectual disability,” without citing a clinical or
legal source to support such distinction and despite this Court’s holding in Hall v. Florida, 572 U.S.
701, 704-05 (2014) that both terms refer to the “identical phenomenon”). This is the context in which
Mr. Smith’s procedure progressed.
On June 30, 1993, Mr. Smith was charged in Oklahoma County District Court, Case No. CF1993-3968, with five counts of Murder in the First Degree for killing his wife and her four children.
O.R. 1-4. Mr. Smith was originally convicted and sentenced to five death sentences in a 1994 trial.
His convictions and sentences were affirmed and he was denied collateral relief by the OCCA in
1996.
In 2002, while Mr. Smith was seeking federal habeas corpus relief (CIV-98-601), this Court
held the imposition of the death penalty against the intellectually disabled violates the Eighth
Amendment’s ban on cruel and unusual punishment. Atkins, 536 U.S. at 321. Shortly thereafter, Mr.
Smith filed a successor application for post-conviction relief based on Atkins in the OCCA. (PCD2002-973), and in August, 2003, the OCCA remanded the case to the Oklahoma County District
Court for a jury trial to determine Mr. Smith’s Atkins claim. O.R. 706-11. A jury trial was held
March 8-15, 2004, and the jury found Mr. Smith was “not mentally retarded.” O.R. 1115. Mr. Smith
was not afforded a direct appeal from the jury verdict of “not mentally retarded” at that time.
In 2004, the Tenth Circuit ruled on Mr. Smith’s still-pending federal habeas action, affirming
his convictions but reversing his death sentences based on a violation of Mr. Smith’s Sixth
Amendment right to effective assistance of counsel at the sentencing stage. Smith v. Mullin, 379 F.3d

2

919 (10th Cir. 2004). Specifically, the Tenth Circuit held trial counsel’s failure to present any
mitigating evidence of Mr. Smith’s “mental retardation” and brain damage fell far below
constitutional standards. Id. at 940-44.2 The circuit court remanded Mr. Smith’s case to the state trial
court for a new capital sentencing proceeding. Id. at 944.
Thus, Mr. Smith was back at the Oklahoma County District Court in a resentencing posture.
On January 3, 2005, Mr. Smith requested his resentencing jury determine his Atkins eligibility since
he had been given no appellate review of the 2004 jury determination. O.R. 1167-1171.The trial
judge ruled Mr. Smith’s resentencing jury should determine the issue of his Atkins eligibility since
he had not been afforded appellate review. 3/2/05 M. Tr. at 9.
On November 10, 2005, trial counsel for Mr. Smith announced instead of litigating his
intellectual disability before the resentencing jury, he was going to present it at a bench trial prior
to his resentencing. 11/10/05 M. Tr. 4-6. On May 8, 2006, more than 14 months after first indicating
it would file a writ, the State sought emergency intervention from the OCCA in case No. PR-2006509, State ex rel. Lane v. Bass. Within three weeks, the OCCA granted the State’s emergency writ
and reinstated a fast-track, abbreviated appeal of the 2004 jury determination that Mr. Smith was not
mentally retarded. O.R. 1542-46.
On January 29, 2007, the OCCA, in Case No. O-2006-683, upon an accelerated docket,
affirmed the jury’s finding Mr. Smith was “not mentally retarded” in an unpublished opinion.

2

In its 2004 opinion, the Tenth Circuit noted strong evidence of Mr. Smith’s intellectual disability
in its discussion of omitted mitigating evidence: “Smith is completely illiterate. . . . Even the State’s
experts and prison doctors determined . . . Smith’s IQ to be in the mentally retarded or borderline
mentally retarded range. . . . ‘His understanding and his emotional development and his ability to
relate all seem to be fairly similar to what we would perceive to be a 12-year-old child.’” Id. at 941
(internal citations and quotations omitted).
3

(“Atkins Slip Op.”). Resp. App. 30-54. In relevant part, the OCCA found that Mr. Smith failed to
meet the first prong of the Oklahoma state-law standard articulated in Murphy v. State, 54 P.3d 556
(Okla. Crim. App. 2002). Resp. App. 40. In Murphy, the OCCA provided the following definition:
A person is “mentally retarded”: (1) If he or she functions at a significantly subaverage intellectual level that substantially limits his or her ability to understand and
process information, to communicate, to learn from experience or mistakes, to
engage in logical reasoning, to control impulses, and to understand the reactions of
others; (2) The mental retardation manifested itself before the age of eighteen (18);
and (3) The mental retardation is accompanied by significant limitations in adaptive
functioning in at least two of the following skill areas: communication; self-care;
social/interpersonal skills; home living; self-direction; academics; health and safety;
use of community resources; and work. . . .
[N]o person shall be eligible to be considered mentally retarded unless he or she has
an intelligence quotient of seventy or below, as reflected by at least one scientifically
recognized, scientifically approved, and contemporary intelligent quotient test.
Id. at 567-68. Specifically, the OCCA found “Smith failed to meet even the first prong of the Murphy
definition of mental retardation” because “[t]he evidence, viewed in the light most favorable to the
State, portrayed Smith as a person who is able to understand and process information, to
communicate, to understand the reaction of others, to learn from experience or mistakes, and to
engage in logical reasoning.” Atkins Slip Op. at 11 (referencing all of the relevant factors for the first
Murphy prong). Resp. App. 40.
In October 2007, Mr. Smith filed an Application for Determination of Competency. A
competency jury trial was held November 16-24, 2009, and the jury found Mr. Smith competent to
undergo further criminal proceedings. Comp. Tr. VII 85. In February and March of 2010, a
resentencing jury trial was held, and Mr. Smith received the death penalty on two counts and
received life without parole on three counts. 2010 Tr. X 1-6.
Mr. Smith appealed the judgments and sentences resulting from his competency trial and
4

resentencing in OCCA Case No. D-2010-357. On August 7, 2013, the OCCA affirmed the jury’s
decision in Smith v. State, 306 P.3d 557 (Okla. Crim. App. 2013). Mr. Smith pursued a state postconviction action under PCD-2010-660 and was denied relief in an unpublished opinion on February
13, 2014.
Mr. Smith filed his Petition for Writ of Habeas Corpus in 2015, CIV-14-579 (Doc. 18), and
raised a sufficiency-of-the-evidence claim with respect to the “not mentally retarded” verdict from
his Atkins trial. On July 13, 2017, the district court denied habeas relief but granted a certificate of
appealability on Mr. Smith’s Atkins claim. Docs. 47-49. After appealing the district court’s denial
of relief to the Tenth Circuit, on August 26, 2019, Case No. 17-6184, a unanimous panel held Mr.
Smith was entitled to relief as to his death sentences because “Smith is intellectually disabled as a
matter of law.” Smith, 935 F.3d at 1088. Resp. App. 25. This is the decision from which Petitioner
is seeking certiorari.
With respect to the first Murphy/Atkins prong, significant sub-average intellectual
functioning, the Tenth Circuit found “the OCCA’s determination Smith did not satisfy the first prong
of the Murphy definition constitutes either an unreasonable determination of the facts, or amounts
to an unreasonable application of Atkins because such determination requires the OCCA to have
disregarded the clinical definitions Atkins mandated states adopt.” Id. at 1083. Resp. App. 20. The
circuit court highlighted Mr. Smith’s “consistent scoring in the intellectually disabled range3 and the
Supreme Court’s clear statements regarding the significant role of IQ assessments under the

3

As will be discussed in greater detail, the defense expert’s and the State’s expert’s IQ testing of Mr.
Smith resulted in full-scale scores of 55. A Department of Corrections psychologist also tested Mr.
Smith using an outdated instrument, and that test resulted in a full-scale score of 65. See infra at 913-14.
5

intellectual functioning prong of Atkins.” Id. at 1078. Resp. App. 15.
With respect to the second Murphy/Atkins prong, manifestation of symptoms of intellectual
disability prior to age 18, Petitioner conceded at oral argument that there exists insufficient evidence
for a reasonable juror to conclude Mr. Smith’s symptoms did not manifest before the age of 18, and
the circuit court agreed. Id. at 1083. Resp. App. 20. In support of this conclusion, the Tenth Circuit
pointed to the fact that Mr. Smith was placed in classes for the educable mentally handicapped
throughout his schooling, and placement in these courses required Mr. Smith “submit to a
psychometrist-administered test and score a full scale IQ in the intellectually disabled range.” Id.
With respect to the third Murphy/Atkins prong, significant deficits in adaptive functioning,
the Tenth Circuit first found the OCCA failed to adjudicate this prong on the merits. Id. After
applying de novo review, the circuit court concluded “no reasonable jury could conclude Smith
failed to establish by a preponderance of [the] evidence that he suffered deficits in at least two areas
of adaptive functioning.”4 Id. at 1085. Resp. App. 22. In support of this conclusion, the court noted
the following: The State conceded at oral argument that Mr. Smith demonstrated significant
limitations of adaptive functioning in academics. Id. And defense expert Dr. Clifford Hopewell, the
only expert to conduct a formal assessment of Mr. Smith’s adaptive functioning, concluded Mr.
Smith suffers from “profound deficits in at least five of the nine adaptive functioning areas.” Id.

4

After determining the analysis of Mr. Smith’s adaptive functioning was not constrained by AEDPA,
the Tenth Circuit held “the Supreme Court’s post-Atkins jurisprudence has expressly confirmed that
its reliance on the clinical standards endorsed in Atkins constitutes a mere application of that case.”
Smith, 935 F.3d at 1084. Resp. App. 21 Hence, the court considered “on de novo review the Supreme
Court’s application of Atkins in Hall [v. Florida, 572 U.S. 701 (2014)], Moore I [v. Texas, 137 S.
Ct. 1039 (2017)] and Moore II [v. Texas, 139 S. Ct. 666 (2019)], which directly address the adaptive
functioning component of the clinical definitions that Atkins mandated.” Id. at 1085. Resp. App. 22.
6

II.

The Crime.
On the morning of June 28, 1993, police officers arrived at the home of Roderick and

Jennifer Smith in Oklahoma City. The couple shared the home with Jennifer’s four children from
another relationship, G.C., L.C, S.C., and K.C. The officers’ visit was prompted by a phone call from
Jennifer’s mother, who was concerned because she had not heard from her daughter in several days.
2010 Tr. III 144-45. Officers found Jennifer’s body in a closet and a child’s body in another closet.
Id. at 150. Once homicide detectives arrived, they found the bodies of three more children, two in
closets and a third under a bed. Id. at 158.
At 12:30 p.m. that same day, Mr. Smith walked into the Oklahoma County Sheriff’s Office
and said “I need to check in.” When staff asked Mr. Smith why he needed to check in, he replied “I
don’t know[;] they told me to come and check in.” 2001 Fed. Evid. Hrg. Ex. 22. Sheriff deputies
transported him to the Oklahoma County Crisis Intervention Center for a mental health evaluation.
Noted on his intake form was a description of Mr. Smith as “psychotic/out of touch.” 2001 Fed.
Evid. Hrg. Pet. Ex. 12.
Around 2:30 that afternoon, Mr. Smith was detained as a suspect in the murders of his wife
and her four children. Within two hours of being determined to be in need of a mental health
evaluation, Mr. Smith confessed to the killings. During his interrogation, he admitted to stabbing his
wife and her two sons. Although he remembered he “got” the girls, he could not remember any
details. Smith v. State, 932 P.2d 521, 526 (Okla. Crim. App. 1996).
Mr. Smith stands sentenced to death for the murders of S.C. and K.C. and life without the
possibility of parole for the murders of Jennifer Smith, G.C., and L.C. His intellectual disability and
severe mental illness have been cornerstones to his defense since the beginning of his case.

7

III.

Mr. Smith’s Atkins Trial.
A.

The Experts.

Not one expert, including the State’s expert, who testified at Mr. Smith’s Atkins trial
concluded he was “not mentally retarded.” In fact, all of the experts who testified came up with
similar IQ test results on the Wechsler Adult Intelligence Scale (WAIS), all of which place Mr.
Smith well below an IQ of 70. And although the State’s expert testified he did not think the defense
expert’s results were “accurate reflections of [Mr. Smith’s] best performance” because he believed
Mr. Smith was malingering, Atkins Tr.5 VI 39, he refused to conclude Mr. Smith is “not mentally
retarded.” Id. at 67.
Defense expert Dr. Clifford Hopewell, a clinical psychologist, possesses in-depth clinical
experience assessing intellectually disabled individuals. Atkins Tr. II 37-38. Dr. Hopewell
administered the WAIS-III in January of 2003 to Mr. Smith. Doc. 18, Att. 4 (Report of Dr.
Hopewell); Appendix 2 of Successor Application for Post Conviction Relief, PCD-2002-973. Resp.
App. 67-74. Mr. Smith scored 55 on the verbal component and 64 on the performance component;
he received a full-scale IQ score of 55, a score worse than 99% of potential test-takers. Atkins Tr.
II 56, 136-37; Doc. 18, Att. 4 at 3-5. Resp. App. 69-71. According to Dr. Hopewell, based on these
WAIS-III results, Mr. Smith’s IQ range is estimated between 52 and 60 at a 95% confidence level.
Doc. 18, Att. 4 at 4-5. Resp. App. 70-71. Dr. Hopewell opined Mr. Smith’s full-scale score of 55
substantially limits Mr. Smith’s ability to communicate, learn from experience, engage in logical
reasoning, understand the reactions of others, and control his impulses. Atkins Tr. II 57.

5

Throughout Petitioner’s petition, he refers by citation to Mr. Smith’s Atkins trial as “2009 Tr. __.”
See Petition at 7 for example. In fact, Mr. Smith’s Atkins trial occurred in 2004.
8

In addition to conducting IQ testing on Mr. Smith, Dr. Hopewell detected the damage to Mr.
Smith’s brain caused by a near-drowning incident when Mr. Smith was 12 years old.6Atkins Tr. II
105; Doc. 18, Att. 10 (Medical Records from Johnston Memorial Hospital). This hypoxic injury to
Mr. Smith’s brain resulted in damage to his temporal lobes and hippocampus as confirmed by Dr.
Hopewell’s testing: “Formal testing of memory indicated defective storage of new information, to
include both visual and verbal material.” Doc. 18, Att. 12 at 5 (11/20/1998 Report of Dr. Hopewell).
Resp. App. 59. Mr. Smith’s “learning and storage of new information was so poor as to result in a[]
very poor memory profile, with memory functioning being below the tenth percentile.” Id. Dr.
Hopewell had “no doubt” Mr. Smith suffers from documented and measurable brain dysfunction.
Id. at 1. Resp. App. 55. Such dysfunction is “without a doubt” likely to affect Mr. Smith’s “memory,
information processing, and emotional behaviors and action, especially under periods of stress.” Id.
Dr. Hopewell had “no doubt” that Mr. Smith suffers from brain damage as a result of his near
drowning, in addition to having been “developmentally disabled probably from birth.” Atkins Tr. II
105.
Dr. Hopewell was also the only expert presented at the Atkins trial to have formally assessed
Mr. Smith’s adaptive behavior functioning. Atkins Tr. II 130. After administering The Vineland, a
standardized test for assessing adaptive functioning, Dr. Hopewell concluded Mr. Smith suffers
from significant deficits in numerous areas of adaptive behavior, including profound deficits in
communication skills. Id. at 62-65. Although Mr. Smith is able to carry on conversations about basic

6

After slipping on a rock and falling into water at a boy scout camp, Atkins Tr. II 111, Mr. Smith
was pulled from the water “unconscious and apn[e]ic.” Doc. 18, Att. 10 at 5. At the emergency
room, he presented “with dyspnea, tachycardia, and hypothermia.” Id.
9

information, Dr. Hopewell found he suffers from “impoverished” communication. Atkins Tr. II 62.
Noting many people in Mr. Smith’s past describe him as a “loner” or “noncommunicative,” Dr.
Hopewell found what these people are really describing is simply “abulia,” a technical term meaning
the inability to be spontaneous and produce ideas. Id. at 63. “[M]ost of the time,” according to Dr.
Hopewell, Mr. Smith “simply can’t come up with much of anything.” Id. Finding Mr. Smith has
“[e]xtremely poor verbal skills” and “low abilities . . . in terms of language development,” Dr.
Hopewell concluded Mr. Smith’s functional communication skills are at approximately the same
level as an almost-five-year-old child. Doc. 18, Att. 4 at 3, 6. Resp. App. 69, 72.
During Dr. Hopewell’s assessment of Mr. Smith’s functional academics, Dr. Hopewell
administered the Wide Range Achievement Test III (“WRAT-III”) in addition to The Vineland. Doc.
18, Att. 4 at 1. Resp. App. 67. The WRAT-III is a basic test measuring one’s ability in reading,
writing, and arithmetic. Atkins Tr. II 65. On the reading and spelling components of the WRAT-III,
Mr. Smith scored at the kindergarten level, and on the arithmetic component, he scored at the firstgrade level. Doc. 18, Att. 4 at 2. Resp. App. 68.
So too does Mr. Smith suffer from significant deficits in the social skills domain as
confirmed by formal adaptive behavior assessments. Dr. Hopewell found Mr. Smith operates in the
lower 2% of the population in this domain; he estimated Mr. Smith’s socialization skills are
equivalent to an almost-six-year-old child. Doc. 18, Att. 4 at 3, 6. Resp. App. 69, 72.
Further, Mr. Smith has significant deficits in daily living. The Vineland Test measured what
was at that time known as “daily living,” which included such skills as cooking and house
maintenance. Atkins Tr. II 58. For the daily living portion of The Vineland, Dr. Hopewell estimated
Mr. Smith functioned at the level of an almost-six-year-old child. Doc. 18, Att. 4 at 8. Resp. App.

10

74. Ultimately, Dr. Hopewell concluded that Mr. Smith’s results on The Vineland were “consistent
with mental retardation, and range from four years and nine months to a high of eight years and nine
months.” Id. at 5. Resp. App. 71.
Dr. Fred Smith, a psychologist with the Oklahoma Department of Corrections, administered
the WAIS-R to Mr. Smith in 1997, five years prior to this Court’s decision in Atkins. Atkins Tr. III
160. Mr. Smith scored a 64 on the verbal component and 70 on the performance component,
resulting in a full-scale IQ score of 65. Id. at 161.7 Dr. Smith concluded Mr. Smith’s results on the
WAIS-R test “indicate[] mental retardation.” Atkins Tr. III 161. In addition to the WAIS-R, Dr.
Smith also administered the Raven’s Standard Progressive Matrices to Mr. Smith. Atkins Tr. III 161.
Instead of resulting in specific scores, the Raven’s results in “a very general rough IQ range.” Id. Mr.
Smith scored in the range of 69-78. Id. at 162. The WAIS more accurately depicted Mr. Smith’s true
intellectual functioning because “[t]he Wechsler Scale is the premier instrument.” Id. The Raven’s
is not recognized as one of the few tests that serve as an appropriate assessment of the general factor
of intelligence. The Death Penalty and Intellectual Disability 129-30 (Edward A. Polloway ed.,
2015).
Further, Dr. Smith found Mr. Smith suffered from diffuse brain damage consistent with his
near drowning. Atkins Tr. III 165-66. Because of the “developmental problems [Smith had] from the
beginning,” the near drowning from which he suffered “could have been a significant incident” that
contributed to his limited intellectual functioning. Atkins Tr. II 77. Medical tests and experts
confirmed what Mr. Smith’s mother knew all along: Mr. Smith’s being “slow” was not “caused from

7

When Dr. Smith administered the WAIS-R to Mr. Smith, the WAIS-III was available, making the
WAIS-R outdated and subject to inflated scores. Atkins Tr. II 139-40. Mr. Smith’s 1997 results on
the WAIS-R more accurately reflect a full-scale IQ score of 62. Smith, 935 F.3d at 1080 n.9. Resp.
App. 17.
11

a drowning. It got worser [sic] after he almost got drowned.” Atkins Tr. IV 17.
State’s expert Dr. John Call, a forensic psychologist with a limited clinical practice that does
not include the treatment of any intellectually disabled patients, Atkins Tr. VI 40-41, administered
the WAIS-III to Mr. Smith in September of 2003. Id. at 44. Mr. Smith received 57 on the verbal
component and 62 on the performance component, resulting in a full-scale score of 55. Doc. 18, Att.
9 at 6; Atkins Tr. VI 38. Based on the results of this WAIS-III, Mr. Smith’s IQ range is between 5260 at a 95% confidence level. Id. at 59-60. Although Dr. Call suspected Mr. Smith did not put forth
his best effort on the test, Call was unable to conclude Mr. Smith is “not mentally retarded,” his
raison d’etre in the case. Atkins Tr. VI 39, 67 (emphasis added).8
Dr. Call’s opinion that Mr. Smith failed to put forth his best efforts is completely at odds with
the opinion of Dr. Hopewell. According to Dr. Hopewell, he “never saw any indication that [Mr.
Smith] was faking, either when [Mr. Smith] was working with [Dr. Hopewell] or in the other tests
that [Mr. Smith] had done with other people.” Atkins Tr. II 73. Dr. Hopewell’s unique experience
makes him especially astute at detecting malingering. Not only does he possess in-depth clinical
experience assessing individuals with intellectual disability, id. at 37-38, he also has experience
screening benefit applicants, which involved “frequently find[ing] people that would like to get
benefits,” so they exaggerated symptoms, id. at 39. Additionally, Dr. Hopewell served as an Army
psychologist, and in that role, he “had much more experience with malingering and faking because
we saw so much of that happening in the military. . . . [W]e saw literally hundreds of patients where

8

Despite criticizing Dr. Hopewell’s method of assessing Mr. Smith’s adaptive functioning, Dr. Call
conducted no formal adaptive-behavior assessment of his own. Atkins Tr. II 58-61; Atkins Tr. III 164;
Atkins Tr. VI 45-46.

12

that was a consideration.” Id.
Dr. Smith also contradicted any allegations of Mr. Smith’s alleged malingering. Although
Dr. Smith was initially skeptical Mr. Smith’s 1997 full-scale score of 65 on the outdated WAIS-R
was based on Mr. Smith’s best effort, Atkins Tr. III 165-68, since that time Dr. Smith “took a closer
look” and “was very much struck” by the consistency in the results of his WAIS-R testing and the
results of other psychological testing. Id. at 167-68. The consistency amongst all the testing results
“was quite remarkable and it shows a consistent pattern rather than faking.” Id. at 168. Dr. Smith’s
initial gut feeling was eventually replaced by a clinical determination that the 65 on the outdated
WAIS-R was accurate based on “objective test results.” Id. at 166.
Dr. Call’s malingering opinion was countered with overwhelming evidence to the contrary.
As previously mentioned, the majority of Dr. Call’s practice is forensic rather than clinical, and of
the few patients he treats, none are intellectually disabled. Atkins Tr. VI 40-41. Particularly for those
practitioners who have little to no clinical experience with the intellectually disabled, like Dr. Call,
malingering may be suspected as a result of confusion related to a combination of psychiatric
symptoms, neurological symptoms, and cognitive deficits. Polloway at 270. What is more, Dr. Call’s
opinion that Mr. Smith was not putting forth his best effort was based in part on Mr. Smith’s results
on the Test of Memory and Malingering (“TOMM”), Atkins Tr. VI 13-18, a test with a
standardization sampling that did not include the intellectually disabled. Polloway at 270-71. A
review of this test had indicated its reliability and validity are highly suspect when administered to
the intellectually disabled population. Id. See also Atkins Tr. II 74-75 (Dr. Hopewell testifying to
same).
Dr. Call also testified to the 1994 IQ test results of Dr. Phillip Murphy to support his

13

malingering accusation. According to Dr. Call, Dr. Murphy testified in Mr. Smith’s original 1994
trial that Mr. Smith scored a full-scale score of 73 on an IQ test. Atkins Tr. VI 34-37. But nowhere
in Dr. Call’s testimony at Mr. Smith’s Atkins trial, nor in Dr. Murphy’s 1994 testimony for that
matter, is it mentioned what specific intelligence test Dr. Murphy gave to Mr. Smith. Atkins Tr. VI
35-36; 1994 Tr. VIII at 89-159. Interestingly, Dr. Call failed to inform the jury that Dr. Murphy’s
ultimate conclusion was that Mr. Smith is “in the mentally retarded range.” Id. at 124.
Finally, even before Mr. Smith’s Atkins trial, Dr. Call was always quick to undermine
reported IQ scores placing capital defendants in the intellectually disabled range based on allegations
of malingering. The OCCA was on notice of such, and in an opinion before the OCCA affirmed Mr.
Smith’s jury verdict of “not mentally retarded,” the court chastised the State’s continued use of Dr.
Call. In the years immediately after Atkins, Dr. Call, despite his admitted lack of clinical experience
with the intellectually disabled, “made a specialty of examining capital defendants for mental
retardation” purposes. Lambert v. State, 126 P.3d 646, 652 (Okla. Crim. App. 2005). In each of these
cases, Dr. Call either administered or attempted to administer several malingering tests as he did in
Mr. Smith’s case. Id. at 652 n.17. He went so far as to support his allegations of malingering with
results obtained from “The Blackwell Memory Test,” a made-up malingering test, which he created
and named after his secretary. Salazar v. State, 126 P.3d 625, 629-34 (Okla. Crim. App. 2005). Dr.
Call appears to have administered this non-standardized, self-created test during his evaluation of
Mr. Smith. O.R. V 921; Doc 18, Att. 9.
B.

Mr. Smith’s Teachers for the Educable Mentally Handicapped.

Mr. Smith spent the majority, if not all, of his schooling in classes for the educable mentally
handicapped. Mr. Smith was in such classes as early as the 1975-76 and 1976-77 school years when

14

he was eight and nine years old. Atkins Tr. Def. Exs. 1 & 2. Jesse Thompson, the principal at Mr.
Smith’s elementary school during those years, identified photographs of special education classes
in which Mr. Smith was a student. One such photo includes Mr. Smith as a student in the 1975-1976
class of Mr. Anderson. Atkins Tr. Def. Ex. 2. Another shows Mr. Smith was a student in the 1976-77
class of Mrs. White. Atkins Tr. Def. Ex. 1. Mr. Thompson identified both teachers as special
education teachers for “mentally handicapped children” with “limited abilities.”9 Atkins Tr. II 20304. Students were placed in these classes if “they couldn’t handle the regular curriculum” and needed
“remedial help so they [could] be able to have some success.” Id. at 204. Placement in these classes
required a recommendation by a teacher and testing. Id. at 205.10
Both Paul Preston and Mona Autry recalled having Mr. Smith in their classes for the
educable mentally handicapped while he was in high school. To be eligible for these classes, students
were recommended by a teacher and given IQ tests; they had to score in the 55-to-75 range for
placement. Atkins Tr. III 95. Each student had an individualized educational plan, which addressed
the student’s special needs. Id. at 96.
Ms. Autry served as Mr. Smith’s teacher for the educable mentally handicapped during his
9th through 11th grades, and she taught a variety of classes including math skills, communication

9

The 1975-76 academic year was Mr. Thompson’s first year at this elementary school. He does not
know when Mr. Smith was first placed in classes for the educable mentally handicapped because
“[h]e was already placed” before Thompson’s arrival. Atkins Tr. II 204. According to Eva Cates, Mr.
Smith’s mother, he was placed in such classes “from the time he started regular school.” Atkins Tr.
IV 8.
10

Through no fault of Mr. Smith, all of his school records have been destroyed other than a copy of
his high school transcript pursuant to policies of Oklahoma City Public Schools. Atkins Tr. III 8-9.
15

skills, and social studies skills.11 Id. at 94-95. During the three years Mr. Smith was in Ms. Autry’s
classes, she spent several hours a day with him. Id. at 95. Ms. Autry recalled that despite his best
efforts, Mr. Smith functioned at about the third-grade level in math and reading.12 Id. at 99-100. Ms.
Autry had absolutely no doubt Mr. Smith was properly placed in her classes for the educable
mentally handicapped, and of the many students she taught, she considered Mr. Smith “one of the
lower” functioning students. Id. at 104. She described Mr. Smith’s ability to learn as “very limited,”
id. at 112, and Mr. Smith as having a “[v]ery limited knowledge base.” Id. at 113.
Paul Preston, Mr. Smith’s teacher for the educable mentally handicapped in the areas of
science skills and co-op training during his 9th-12th grades, echoed much of the same sentiment
about his experience with Mr. Smith. Atkins Tr. III 23. As part of co-op training, Mr. Preston taught
Mr. Smith janitorial skills. Id. at 30-31. He recognized Mr. Smith’s reading and writing skills were
extremely limited; as a result, he filled out job applications for Mr. Smith. Id. at 30-34. Mr. Preston
recalls Mr. Smith was “very low, very limited in his abilities.” Id. at 28. He estimates that of all the
educable mentally handicapped students he taught during his 27-year career, Mr. Smith fell in the
“low-medium” range. Id. at 29. Although some students in classes for the educable mentally
handicapped were occasionally mainstreamed into regular substantive classes, Mr. Preston would
never have suggested Mr. Smith be mainstreamed because “[h]e does not have the ability. . . . [It]

11

Mr. Smith’s high school transcript shows all of his substantive classes bear the “skills” designation
and he was enrolled in “co-op training.” Atkins Tr. Def. Ex. 3. In the 1980s, “skills” classes were
special education classes. Atkins Tr. III 11. “Co-op training” classes taught basic job skills. Id.
12

In a subsequent proceeding, which is not part of the Atkins trial record, Ms. Autry testified that Mr.
Smith’s inability to learn basic concepts was not due to lack of effort on his part: “And with
Roderick . . . [i]t was difficult. It was very very difficult. He tried. He tried all the time to do a good
job, but he didn’t always catch it.” 2010 Tr. V 107.
16

wouldn’t [have been] fair to him.” Id. at 35.
C.

The Lay Witnesses.

Other than Dr. Call, the State called only lay witnesses to convince the jury that Mr. Smith
was “not mentally retarded.” Most of the State’s lay witnesses spent very limited time with Mr.
Smith, as opposed to the lay witnesses called on Mr. Smith’s behalf. As for the State’s lay witnesses,
most of their testimony rested on inaccurate stereotypes about the intellectually disabled, such as they
cannot hold jobs, have relationships, or express their needs.
The State first called Ruby Badillo, an insurance agent who had sold a policy to Mr. and Ms.
Smith over ten years before her testifying. Atkins Tr. IV 46-49. Ms. Badillo testified to two brief
interactions, totaling roughly an hour, with Mr. Smith. Id. at 52-54. Based on her brief interactions
with Mr. Smith, she described him as “sociable” and offered him a job. Id. at 51. Ms. Badillo spent
less than an hour with Mr. Smith and has no experience diagnosing intellectual disability. Id. at 5354.
Next, the State called Emma Watts, Mr. Smith’s case manager at Oklahoma State
Penitentiary for a few years. Id. at 55-56. According to Watts, Mr. Smith could communicate with
her and use “manipulative” behavior to get a more desirable cell or cell mate. Id. at 61. Ms. Watts
admitted that she is not qualified to say if one inmate is smarter than another or to say whether Mr.
Smith is “mentally retarded,” which makes sense because Ms. Watts has no clinical experience with
intellectual disability. Id. at 63.

17

Next, in an effort to exploit Mr. Smith’s job history as a “head” janitor,13 the State relied on
Mark Woodward, a former supervisor of Mr. Smith’s almost ten years earlier, who detailed Mr.
Smith’s tasks and described Mr. Smith as a “typical head janitor.” Id. at 92-93. Mr. Woodward
admitted to supervising Mr. Smith for only six to ten weeks, id. at 73, 94, and spending very little
time with him during that time, id. at 96-97. As with Ms. Watts and Badillo, the record does not
support that Mr. Woodward had any clinical experience with the intellectually disabled.
The State next called former Assistant District Attorney, Fern Smith, who prosecuted Mr.
Smith at his initial criminal trial on this matter. Id. at 102. Ms. Smith testified Mr. Smith filed and
presented several motions on his behalf and that he demonstrated abstract thinking. Id. at 106-07.
One of those motions was a request that the prosecutor’s table be moved because Mr. Smith thought
the prosecutors were making faces at him, which the prosecutor denied. Id. at 107. And evidence
indicates that a former cell mate wrote the motions.14
The State also emphasized the testimony of Laura Dich, a young woman with whom Mr.
Smith had an affair while he was married. Atkins Tr. V 10, 16. Although Ms. Dich’s testimony
reflected Mr. Smith could lie and be involved in a romantic relationship, the State made no effort
to provide any clinical justification that would render meaningful evidence of Mr. Smith’s extramarital relationship. And even the State’s own expert, Dr. Call, acknowledged that intellectually

13

The supervisory duties ascribed to Mr. Smith’s position as head janitor were nothing more than
illusory. Mr. Smith was hired by a family member and relied on his aunt to do all the paperwork.
Atkins Tr. III 73-74. Further, Mr. Smith’s assignments as head janitor were simple and routine. Id.
14

That Mr. Smith once “argued motions on his behalf” before his 1994 trial is of no import as to
whether he is intellectually disabled, especially when one scratches the surface of what really
occurred and learns such motions were drafted by a former cell mate. Doc. 18 at 44-45. See Moore
v. Texas, 139 S. Ct. 666, 671 (2019) (noting such evidence “lacks convincing strength without
determination about whether [the individual] wrote the papers on his own.”)
18

disabled persons can lie, hold a job, drive, cook, clean, use a telephone, marry, and love, Atkins Tr.
VI 62-64, all of the many stereotypes used by the State to undermine Mr. Smith’s lifelong intellectual
disability.
Finally, the State called three members of Jennifer Smith’s family: Marietta Love, Ms.
Smith’s mother; Cherie Mishion, Ms. Smith’s niece; and Dina Dean, Ms. Smith’s sister. Ms. Smith’s
family members provided limited information about Mr. Smith, but did include observations that Mr.
Smith seemed a little “slow,” Atkins Tr. V 34; that he “stayed to himself” and was “stand-offish,”
id. at 36, 49; and that he didn’t know things he should know, id. at 38.
In contrast to most of the State’s lay witnesses who spent very limited time with Mr. Smith,
Mr. Smith presented numerous lay witnesses who had or have known Mr. Smith well for many years,
if not most of his life. And the anecdotal evidence provided by these witnesses support the findings
of Dr. Hopewell with respect to Mr. Smith’s limited adaptive-functioning behavior.
Inmates who have celled with Mr. Smith and DOC staff have noticed his limited
communication skills. Norman Cleary, an inmate with whom Mr. Smith celled at Oklahoma State
Penitentiary for several years, noted “you can’t really hold a conversation with [Roderick].” Atkins
Tr. III 195-96; Def. Ex. B at 9. Further, in 1998, Dr. Wakeford, a psychologist with Oklahoma State
Penitentiary, noted Mr. Smith wanted a single cell, but he “doesn’t know how to ask.” He also
commented Mr. Smith is “probably M.R. [mentally retarded].” Doc. 18, Att. 11, DOC records
8/13/1998.
Family members detailed Mr. Smith’s limitations in his functional academics. Several family
members recognize Mr. Smith cannot read. Atkins Tr. III 70. Mr. Smith’s functional academics have
not improved. He is and has been totally dependent on cell mates for reading and writing

19

correspondence and filling out commissary slips. Recognizing Mr. Smith’s inability to read, Mr.
Cleary tried to teach Mr. Smith to read by using the Hooked on Phonics series. Atkins Tr. Def. Ex.
B at 9-10. After spending several hours a day for six months, Cleary eventually abandoned the
project because “it was absolutely hopeless.” Id. at 10. Illustrating Mr. Smith’s deficits in functional
arithmetic, Cleary also recalled “[Smith] can’t play cards . . . [N]obody likes for him to play
dominoes because he slows everything down. . . . [A]ll he really does is just match the ends, the
numbers. He doesn’t know how to – any strategy or anything like that.” Id. at 8. Mr. Smith’s deficits
in functional academics make him particularly vulnerable:
[H]e doesn’t understand values on different things. Like you can say if he’s got a bag
of potato chips that costs $1.05 and you’ve got two sodas that cost 29 cents, . . . he
thinks he’s getting a great deal, he is getting two for one if you give those two pops
for that bag of chips. And people used to really take advantage of [Roderick] like
that.
Id. at 18.
The people who knew Mr. Smith best are consistent in their description of his deficits in
social behavior. Cousins with whom Mr. Smith was raised describe him in the following way: “a
loner-type person, always to himself.” Atkins Tr. III 70. Mr. Smith’s mother, Eva Cates, also
recognized he did not respond to frustration in age-appropriate ways. Ms. Cates described Mr. Smith
as acting “just like a two-year-old” when being teased by neighborhood children. “[S]ometimes he
would go up under the . . . porch in the back and he would go up under there and I guess you would
call it hiding from them.” Atkins Tr. IV 7.
Mr. Smith’s lay witnesses also corroborated that he has significant deficits in both home
living and in health and safety. Mr. Smith has never lived independently and without support. Atkins
Tr. IV 28-29. Fearing injury to Mr. Smith, Ms. Cates did not teach him to cook. Atkins Tr. IV 9.
20

Demonstrating Mr. Smith’s deficits in health and safety, Mr. Cleary recalled more than once he
discovered Mr. Smith in their cell, “sitting in his socks and the whole toe of his socks [was] just
blood red. And I will say, Man, what did you do? He’ll say, Oh, I was trying to cut my toenails and
slipped again.” Atkins Tr. Def. Ex. B at 17. Cleary would often “do first aid on [Smith’s] toes and
put Band-Aids on him and stuff.” Id. at 18.

21

REASONS FOR DENYING THE WRIT
In an effort to secure the execution of a man whom multiple experts have found to be
intellectually disabled and not one expert has concluded otherwise, Petitioner raises numerous
procedural arguments attacking the Tenth Circuit’s finding that a reasonable jury would have been
compelled to conclude Mr. Smith satisfied that he suffers from deficits in two areas of adaptive
functioning. Smith, 935 F.3d at 1088.15 Resp. App. 25. And with Petitioner having conceded at oral
argument that Mr. Smith demonstrated significant limitations in the adaptive-functioning category
of academics, id. at 1085, Resp. App. 22, what stands between the execution of a profoundly
impaired and intellectually disabled man is the determination that a reasonable jury would have been
compelled to conclude Mr. Smith established only one other adaptive-functioning category.
I.

THE TENTH CIRCUIT’S HOLDING THAT MOORE I AND MOORE II MAY BE
APPLIED RETROACTIVELY ON COLLATERAL REVIEW IS NOT CONTRARY
TO SHOOP V. HILL,16 AND NO SIGNIFICANT CIRCUIT SPLIT EXISTS AS A
RESULT OF THE TENTH CIRCUIT’S DECISION.
A.

The Tenth Circuit’s Conclusion that Moore I and Moore II May Be Applied
Retroactively on Collateral Review, Unrestrained by AEDPA, Is Not Contrary to
Hill.

Petitioner argues the Tenth Circuit’s conclusion that Moore I and Moore II apply
retroactively on collateral review because they are mere extensions of Atkins “has essentially already
been rejected by this Court.” Petition at 20 (emphasis added). This Court has done no such thing. In
Hill, a case that turned on 28 U.S.C. § 2254(d)(1), 139 U.S. at 509, this Court found “[t]he Court of
15

Petitioner raises no challenge to the circuit court’s finding that the OCCA’s disposition of the first
prong was unreasonable under AEDPA review. And Petitioner conceded at oral argument there
exists insufficient evidence for a jury to conclude Mr. Smith’s symptoms did not manifest before the
age of 18. Smith, 935 F.3d 1083. Resp. App. 20.
16

139 S. Ct. 504 (2019) (per curiam).
22

Appeals’ reliance on Moore [I] [to address the state court’s overemphasis of adaptive strengths] was
plainly improper under § 2254(d)(1)” because “Moore [I] . . . was not handed down until long after
the state-court decisions.”17 Id. at 505. Because Hill turned on the application of § 2254(d)(1) to the
court’s analysis of the adaptive-behavior prong, the circuit court was constrained to consider only
Supreme Court precedent clearly established at the time of the state adjudication as required under
AEDPA. 28 U.S.C. § 2254(d)(1).
But contrary to Hill, in Mr. Smith’s case the Tenth Circuit was not constrained by AEDPA’s
clearly established federal law requirement of § 2254(d)(1) because the OCCA did not adjudicate
the merits of the adaptive-functioning prong of the Murphy/Atkins test. Hill, 139 S. Ct. at 506; Smith,
935 F.3d at 1083. Resp. App. 20; see infra at 29-31 (discussing the Tenth Circuit’s proper
application of de novo review to this prong). This critical distinction between Hill and Mr. Smith’s
case makes Hill inapposite.

17

The Supreme Court remanded Mr. Hill’s case back to the Sixth Circuit to determine whether the
circuit court’s conclusions could “be sustained based strictly on legal rules that were clearly
established in the decisions of this Court at the relevant time.” 139 S. Ct. at 509. Very recently, the
Sixth Circuit answered this Court’s question. In Hill v. Anderson, Nos. 99-4317/14-3718, 2020 WL
2551881, at *16 (6th Cir. May 20, 2020), the court held:
[T]he Ohio courts’ legal conclusions [regarding adaptive functioning] breach the
most basic tenets of Atkins, and . . . their factual findings cannot be sustained on this
record. Atkins, on its most basic level, forbids the execution of persons who are
intellectually disabled. . . . This is not a case where evidence of intellectual disability
comes out after conviction. Hill was diagnosed as intellectually disabled from a very
young age. He attended special education classes. . . . Even if Atkins alone (without
the assistance of Moore) poses no bar to offsetting adaptive deficiencies with
adaptive strengths, “the Ohio courts failed to grapple with the evidence in the record
indicating that Hill’s perceived strengths were actually weaknesses.” . . . There is no
getting around it – Hill is intellectually disabled. To deny the obvious is
unreasonable.
23

Although the Tenth Circuit’s analysis of the adaptive-behavior prong was not constrained
by AEDPA, it remained subject to the general rule for retroactive application of the law to
convictions under collateral attack. The retroactivity of this Court’s criminal procedure decisions
depends on whether such decisions are novel. Teague v. Lane, 489 U.S. 288, 301 (1989).18 When
the Supreme Court announces a new rule, a person whose conviction is already final many not
benefit from the decision in a habeas or similar proceeding. Chaidez v. United States, 568 U.S. 342,
347 (2013). “[A] case announces a new rule,” Teague explained, “when it breaks new ground or
imposes a new obligation” on the government.19 Id. But “Teague also made clear that a case does
not ‘announce a new rule, [when] it [is] merely an application of the principle that governed’ a prior
decision to a different set of facts.” Chaidez, 568 U.S. at 347-48 (quoting Teague, 489 U.S. at 307).
“‘Where the beginning point’” of the Court’s analysis is a rule of “‘general application, a rule
designed for the specific purpose of evaluating a myriad of factual contexts, it will be the infrequent
case that yields a result so novel that it forges a new rule, one not dictated by precedent.’” Chaidez,
568 U.S. at 348 (quoting Wright v. West, 505 U.S. 277, 309 (1992)). If the rule is not new, the
petitioner may “avail herself of the decision on collateral review.” Chaidez, 568 U.S. at 347.
Glossing over the critical distinction between Hill’s § 2254(d)(1)-constrained status and Mr.
Smith’s §2254(d)-free status, Petitioner posits the Tenth Circuit’s holding that Moore I and Moore
II may be applied retroactively on collateral review is contrary to Hill. Petition at 20-21. Specifically,
Petitioner argues this Court “expressly reject[ed]” the Sixth Circuit’s assertion that the holding in
18

As Petitioner concedes, Teague’s retroactivity was not at issue in Hill. Petition at 21.

19

Teague included two exceptions: “[W]atershed rules of criminal procedure” and rules placing
“conduct beyond the power of the [government] to proscribe” apply on collateral review, even if
novel. Chaidez, 568 U.S. at 347 n.3.
24

Moore was “merely an application of what was clearly established by Atkins.” Id. Petitioner pointed
to the following passage:
Although the Court of Appeals asserted that the holding in Moore was “merely an
application of what was clearly established by Atkins,” . . . the court did not explain
how the rule it applied can be teased out of the Atkins Court’s brief comments about
the meaning of what it termed “mental retardation.”
Hill, 139 S. Ct. at 508. Contrary to the Sixth Circuit, the Tenth Circuit explicitly “teased out” why
and how this Court’s “post-Atkins jurisprudence has expressly confirmed that its reliance on the
clinical standards endorsed in Atkins constitutes a mere application of that case.” Smith, 935 F.3d
at 1084. Resp. App. 21. Concluding the post-Atkins cases do not constitute a new rule, id., the Tenth
Circuit highlighted this Court’s explanation in Hall:
Atkins did not give the States unfettered discretion to define the full scope of the
constitutional protection. The Atkins Court twice cited definitions of intellectual
disability. . . . Atkins itself not only cited clinical definitions for intellectual disability
but also noted that the States’ standards, on which the Court based its own
conclusion, conformed to those definitions. . . . The clinical definitions of intellectual
disability, which take into account that IQ scores represent a range, not a fixed
number, were a fundamental premise of Atkins. . . If the States were to have complete
autonomy to define intellectual disability as they wished, the Court’s decision in
Atkins could become a nullity, and the Eighth Amendment’s protection of human
dignity would not become a reality. This Court thus reads Atkins to provide
substantial guidance on the definition of intellectual disability.
Smith, 935 F.3d at 1084 (quoting Hall, 572 U.S. at 719-21). Resp. App. 21.
Much like Strickland v. Washington, 466 U.S. 668 (1984), Atkins declared “a rule of general
application20 . . . designed for the specific purpose of evaluating a myriad of factual contexts.”
Chaidez, 568 U.S. at 348. And the application of this rule to Moore I, and Moore II did not “yield[]

20

Courts have recognized Atkins announced a general standard. See, e.g., Hill v. Humphrey, 662 F.3d
1335, 1379 (11th Cir. 2011) (Wilson, J., dissenting).
25

a result so novel that it forges a new rule, one not dictated by precedent,” Chaidez, 568 U.S. at 348,
especially in light of this Court’s proclamation in Hall that “Atkins . . . provide[s] substantial
guidance on the definition of intellectual disability.” Hall, 572 U.S. at 721. The Tenth Circuit’s
holding that Moore I and Moore II may be applied retroactively on collateral review is proper and
supported by this Court’s jurisprudence.21
Even if this Court were to find Moore I and Moore II were not retroactively applicable on
collateral review, the application of Atkins alone would yield the same result as it did in Hill v.
Anderson: A reasonable jury would have been compelled to conclude Mr. Smith suffers from
significant limitations in at least two of the areas of adaptive functioning listed in Murphy.22 See, e.g.,
Hill v. Anderson, 2020 WL 2551881 (6th Cir. May 20, 2020). The State’s only expert conducted no
formal adaptive-behavior assessment (and could not even conclude Mr. Smith was “not mentally
retarded”). Meanwhile, defense expert Dr. Hopewell conducted The Vineland Adaptive Behavior
Scales and concluded that Mr. Smith suffers from significant deficits in at least five of the nine areas
assessed by the test: academics, social skills, home living, and health and safety. Smith, 935 F.3d at
1085. Resp. App. 22. And while Moore I and Moore II strengthen the conclusion Mr. Smith suffers
from significant limitations in at least two areas of adaptive functioning, Atkins alone mandates that
conclusion. “Atkins, on its most basic level, forbids the execution of persons who are intellectually
21

Alternatively, should this Court find that Moore I and Moore II are not mere extensions of Atkins,
then they are new substantive decisions of constitutional law that change the class of individuals that
States may punish, or the range of punishments that States may impose. See, e.g., Saffle v. Parks, 494
U.S. 484, 494-95 (1990). See supra at n.19 (discussing Teague exceptions).
22

Those areas include communication; self-care; social/interpersonal skills; home living; selfdirection; academics; health and safety; use of community resources; and work. Murphy, 54 P.3d at
567-68. Petitioner made the burden even easier after conceding at oral argument that Mr. Smith
proved significant limitations in the academics category. Smith, 935 F.3d at 1085. Resp. App. 22.
26

disabled.” Hill, 2020 WL 2551881, at *16. And based on the evidence, Mr. Smith suffers from the
lifelong condition of intellectual disability.
B.

No Real Circuit Split Exists as a Result of the Tenth Circuit’s Decision, and the
Cases Cited by Petitioner Are Distinguishable from Mr. Smith’s Case.

A review of the cases cited by Petitioner shows the Tenth Circuit’s opinion did not create a
circuit split. Petitioner first cites Smith v. Comm’r, Alabama Dep’t of Corr., 924 F.3d 1330 (11th Cir.
2019) for the proposition the Eleventh Circuit held Moore I announced a new rule that cannot be
applied retroactively because such rule did not meet either of Teague’s two exceptions. Petition at
22. But Petitioner fails to explain the petitioner in Smith conceded Moore I announced a new rule
of constitutional law. Id. at 1337-38. There, the petitioner argued the rule was substantive and met
Teague’s first exception and therefore was retroactive. Because the petitioner conceded the rule was
new, the question left for the court was whether such new rule was procedural or substantive for the
purpose of meeting a Teague exception. Id. Ultimately, the court found the conceded new rule was
procedural rather than substantive and did not meet Teague’s second exception; hence, the new rule
was not retroactively applicable. Id. at 1339-40. In contrast to the petitioner in Smith, in the instant
case, Mr. Smith never conceded Moore I or II announced a new rule. Instead, the argument here is
that Moore I and Moore II did not announce a new rule; rather, they were merely applications of
Atkins. Because the Eleventh Circuit was not asked to decide whether Moore I announced a new rule,
there is no real split between the two circuits on the relevant threshold issue.
Petitioner next relies on In re Payne, 722 F. App’x 534, 538 (6th Cir. 2018) (unpublished)
for the proposition that Hall and Moore I “merely created new procedural requirements that do not
amount to watershed rules of criminal procedure.” Petition at 22. But again, Petitioner omits

27

important details from Payne that would ameliorate any perceived “split.” In Payne, the petitioner
sought authorization to file a successive § 2254 petition, and as a result, he had to show Hall and
Moore I announced new rules of constitutional law that the Supreme Court had made retroactive to
cases on collateral review. 722 F. App’x at 536. The Sixth Circuit made clear it was not deciding
whether Moore announced a new rule. Instead it found “[e]ven if we assume, without deciding, that
Hall and Moore announce new rules of constitutional law, Payne has not shown that these decisions
apply retroactively.” Id. at 538. The Sixth Circuit specifically addressed the possibility that these
cases did not announce new rules: “The Supreme Court, for instance, could hold in a new case that
Hall and Moore merely clarify Atkins rather than establish separate rules, or that Hall and Moore
prescribe procedural rather than substantive requirements for the application of Atkins.” Id. at 539.
Payne makes clear the Sixth Circuit did not decide whether Moore announced a new rule.
Finally, Petitioner relies on Ybarra v. Filson, 869 F.3d 1016, 1025 n.9 (9th Cir. 2017),
ostensibly to show a deeper circuit split.23 Petition at 23. Petitioner plucks the following statement,
located in a footnote, from Ybarra: “Moore [I ]. . . changed the course of the Supreme Court’s
intellectual disability jurisprudence.” Petition at 23. The Ninth Circuit did not hold that Moore I was
a new rule. Ultimately, the circuit court found the district court erred in its AEDPA analysis and
remanded the case because the district court “overlooked a number of instances where [the state
court] contradicted the very clinical guidelines that it purported to apply.” Id. at 1023.
The Tenth Circuit’s opinion does not create the purported circuit split about which Petitioner
complains. Petitioner provides no reason for this Court to grant certiorari.

23

Petitioner admitted the court in Ybarra was addressing AEDPA as opposed to Teague. Petition at
23.
28

II.

THE TENTH CIRCUIT PROPERLY APPLIED DE NOVO REVIEW TO ITS
ANALYSIS OF THE ADAPTIVE-FUNCTIONING PRONG BECAUSE THE OCCA
DID NOT ADJUDICATE THIS PRONG ON THE MERITS.
In an attempt to persuade this Court the Tenth Circuit disregarded the plain language of the

OCCA’s opinion, Petitioner provides an excerpt of the OCCA’s concluding paragraph addressing
Mr. Smith’s challenge to the jury’s verdict. But such excerpt omits relevant language supporting the
Tenth Circuit’s conclusion that the OCCA did not adjudicate the adaptive-functioning prong on the
merits. Specifically, Petitioner characterized the OCCA’s dispositive paragraph as follows: “In its
concluding paragraph, the OCCA stated that ‘[t]he jury’s verdict finding that Smith is not mentally
retarded is justified,’ and summarized evidence relevant to the intellectual-functioning prong as well
as to the adaptive-functioning prong, e.g., Petitioner’s job history.” Petition at 23-24 (quoting Atkins
Slip Op. at 11). But the language Petitioner omitted is telling. The entire paragraph to which
Petitioner refers reads as follows:
The evidence presented at trial supports a finding that Smith failed to meet even the
first prong of the Murphy definition of mental retardation. The evidence, viewed in
the light most favorable to the State, portrayed Smith as a person who is able to
understand and process information, to communicate, to understand the reactions of
others, to learn from experience or mistakes, and to engage in logical reasoning.24 He
held down a job with supervisory functions, carried on an affair, argued motions on
his own behalf and manipulated those around him. The jury’s verdict finding that
Smith is not mentally retarded is justified.
Atkins Slip Op. at 11. Resp. App. 40. This language referred to the first prong of the Murphy
definition of intellectual disability, detailing each component of significantly sub-average intellectual

24

This sentence mimics verbatim the Murphy considerations for the intellectual-functioning prong.
See Murphy, 54 P.3d at 567 (stating the first prong of Murphy considers “[i]f he or she functions at
a significantly sub-average intellectual level that substantially limits his or her ability to understand
and process information, to communicate, to learn from experience or mistakes, to engage in logical
reasoning, to control impulses, and to understand the reactions of others”).
29

functioning and explaining that Mr. Smith failed to meet that prong. Smith, 935 F.3d at 1075. Resp.
App. 12. Noticeably absent from the court’s dispositive paragraph is a conclusion as to whether Mr.
Smith met the adaptive-functioning prong.
Admittedly, elsewhere in its opinion, the OCCA made the following statement about adaptive
functioning: “[T]he State presented . . . lay witnesses to refute Smith’s evidence of . . . adaptive
functioning deficits.” Atkins Slip Op. at 8. Resp. App. 37. This statement is analogous to a statement
leading the Seventh Circuit to conclude the state court made no merits adjudication on the adaptivefunctioning prong. See Pruitt v. Neal, 788 F.3d 248, 269 (7th Cir. 2015) (holding state court’s
statement that “the evidence on the adaptive behavior prong is at least conflicting” made nothing
more than a cursory reference to the evidence presented about the defendant’s adaptive behavior and
did not adjudicate the prong on the merits).
Petitioner accuses the Tenth Circuit of imposing “mandatory opinion-writing standards” on
the OCCA Petition 24. Although this Court has held “federal courts have no authority to impose
mandatory opinion-writing standards on state courts,” Johnson v. Williams 568 U.S. 289, 300 (2013),
“[i]t remains the duty of the federal courts . . . to determine the scope of the relevant state court
judgment,” Coleman v. Thompson, 501 U.S. 722, 739 (1991). Rather than requiring the OCCA to
use “particular language” as alleged by Petitioner, Petition at 24-25, the Tenth Circuit simply had
no decision on the adaptive-functioning prong to which it could defer.
Moreover, Petitioner accuses the Tenth Circuit of “improperly fail[ing] to give the OCCA’s
decision the benefit of the doubt” with respect to determining whether a claim has been adjudicated
on the merits. Response at 25 (citing Cullen v. Pinholster, 563 U.S. 170, 181 (2011)). But
Harrington v. Richter, 562 U.S. 86, 99-100 (2011) established only a rebuttable presumption that
30

the state court has adjudicated a claim on the merits. See also Wilson v. Sellers, 138 S. Ct. 1188,
1195 (2018) (internal quotation marks omitted) (“Richter . . . set[] forth a presumption, which may
be overcome when there is reason to think some other explanation for the state court’s decision is
more likely”). The Richter presumption controls if a state court summarily resolves a claim without
explanation, but the presumption is overcome as to unadjudicated prongs of a claim if a state court
provides a reasoned explanation that rests exclusively on one prong of a multi-prong analysis. See
Mann v. Ryan, 828 F.3d 1143, 1167 n.3 (9th Cir. 2016) (Thomas, C.J., concurring in part). That is
precisely what happened here. The OCCA disposed of Mr. Smith’s sufficiency/Atkins claim by
adjudicating the first prong only. Disposing of a multi-prong claim by adjudicating one prong is
proper. See Rompilla v. Beard, 545 U.S. 374, 390 (2005).
With respect to Petitioner’s complaint about the Tenth Circuit’s sua sponte application of de
novo review to the analysis of the adaptive-behavior prong, numerous circuits “have concluded that
the standard of review under AEDPA cannot be waived by the parties.” Gardner v. Galetka, 568
F.3d 862, 879 (10th Cir. 2009) (citing Brown v. Smith, 551 F.3d 424, 428 n.2 (6th Cir. 2008),
overruled on other grounds by Williams v. Lafler, 494 Fed. App’x 526 (6th Cir. 2012); Eze v.
Senkowski, 321 F.3d 110, 121 (2d Cir. 2003); Worth v. Tyer, 276 F.3d 249, 262 n.4 (7th Cir. 2001)).
Since Gardner, more circuits have held similarly. In 2019, the Fourth Circuit held “‘parties cannot
waive the proper standard of review by failing to argue it’ or by consenting to an incorrect standard.”
United States v. Venable, 943 F.3d 187, 192 (4th Cir. 2019) (quoting Sierra Club v. U.S. Dep’t of
Interior, 899 F.3d 260, 286 (4th Cir. 2018)). In 2017, the Third Circuit noted, “[P]arties cannot
waive the application of AEDPA deference.” Gibson v. Sec’y Pennsylvania Dep’t of Corr., 718 F.
App’x 126, 130 n.3 (3d Cir. 2017) (unpublished). And in 2014, the Ninth Circuit explained the court
31

has “the obligation to apply the correct standard [to the habeas claim], for the issue is nonwaivable.”Amado v. Gonzalez, 758 F.3d 1119, 1133 n.9 (9th Cir. 2014).
III.

EVEN IF THIS COURT WERE TO FIND MOORE I AND MOORE II BARRED, MR.
SMITH STILL WOULD BE ENTITLED TO HABEAS RELIEF.
Moore I and Moore II are not necessary for a finding that no rational juror could find against

Mr. Smith on the adaptive-functioning prong. The clinical definitions mandated in Atkins alone
make clear no reasonable jury could conclude Mr. Smith failed to establish by a preponderance of
evidence that he suffers from deficits in at least two areas of adaptive functioning (and with the
State’s concession of the academics category, only one area must be established now).
First, Dr. Hopewell was the only expert to conduct a formal assessment (The Vineland) of
Mr. Smith’s adaptive functioning, and he concluded Mr. Smith suffers from profound deficits in at
least five areas tested. Dr. Hopewell also administered the WRAT-III, and Mr. Smith scored at the
kindergarten or first-grade level in each academic area. Dr. Hopewell found Mr. Smith is
functionally illiterate, unable to read more than a few words at a very basic level. Smith, 935 F.3d
at 1085. Resp. App. 22. And the clinical evidence Mr. Smith presented showing his many deficits
in adaptive behavior was corroborated by the testimony of Mr. Smith’s teachers for the educable
handicapped.
In contrast to the standardized assessment of Mr. Smith’s adaptive behavior presented by the
defense, the State neither conducted nor presented a single assessment of Mr. Smith’s adaptive
behavior. Id. at 1085-86. Resp. App. 22-23. The only evidence the State presented to counter the
clinical and educational evidence demonstrating Mr. Smith’s adaptive-functioning deficits was lay
stereotypes of the intellectually disabled presented through lay witnesses, many of whom spent little

32

time with Mr. Smith. For example, the State presented evidence of Mr. Smith’s marriage, his affair,
his holding a janitorial job, and his ability to lie and manipulate. Even the State’s expert, Dr. Call,
testified that intellectually disabled people can lie, be polite, hold a job, be hard workers, speak, take
showers, dress themselves, watch and use the television, drive, cook, clean, use a telephone, get
married, and love another person. Atkins Tr. VI 62-64. Petitioner has made no effort on appeal to
provide any clinical justification that would render these stereotypes meaningful evidence of Mr.
Smith’s intellectual disability.
Such evidence would support a finding that a reasonable jury would have been compelled
to conclude Mr. Smith established the adaptive-behavior prong, even with the enhanced deference
AEDPA adds to the Jackson v. Virginia, 443 U.S. 307 (1979) standard. This enhanced deference
“does not imply abandonment or abdication of judicial review.” Brumfield v. Cain, 135 S. Ct. 2269,
2277 (2015) (citing Miller-El v. Cockrell, 537 U.S. 322, 340 (2003)); nor does it impose an
“insurmountable barrier.” Smith, 935 F.3d at 1077. Resp. App. 14. See, e.g., Torres v. Lytle, 461 F.3d
1303, 1313 (10th Cir. 2006) (even while applying Jackson, the court held the evidence was not
sufficient to convict the petitioner “[e]ven under AEDPA’s exponential deference. . . . . ‘[W]hile the
jury may draw reasonable inferences from . . . evidence, an inference must be more than speculation
and conjecture to be reasonable.’”) Both the Atkins jury and the OCCA made unreasonable
inferences and engaged in conjecture and speculation about persons with intellectual disability based
on non-clinical stereotypes.

33

CONCLUSION
Petitioner has presented no compelling reason for this Court to grant certiorari review.
Although Petitioner alleges the Tenth Circuit opinion creates a circuit split, upon closer examination
of the cases cited by Petitioner, the supposed split disintegrates. The Tenth Circuit’s decision does
not conflict with Supreme Court precedent; nor does it present an important unsettled question of
federal law. Petitioner complains the Tenth Circuit’s unanimous decision “frustrates both the States’s
sovereign power to punish offenders and their good-faith attempts to honor constitutional rights,”
Petition at 29, and flies in the face of comity, finality, and federalism, id. at 30. But as much as
AEDPA and Teague seek to protect federalism, finality, and comity, they also seek to ensure
defendants are not sentenced to death in violation of the federal constitution. Mercifully, this Court
can stop the execution of an obviously intellectually disabled man by denying the Petition for
Certiorari.
Respectfully submitted,

s/ Emma V. Rolls
EMMA V. ROLLS, OBA # 18820*
THOMAS D. HIRD, OBA # 13580
Assistant Federal Public Defenders
Office of the Federal Public Defender
Western District of Oklahoma
Capital Habeas Unit
215 Dean A. McGee Ave., Suite 707
Oklahoma City, Oklahoma 73102
(405) 609-5975 - telephone
(405) 609-5976 - facsimile
Emma_Rolls@fd.org
Tom_Hird@fd.org
COUNSEL FOR RESPONDENT, RODERICK L. SMITH
Dated this 26th day of May, 2020

* Counsel of Record
34

Capital Case
Case No. 19-1106
______________________________
TOMMY SHARP, Interim Warden,
Oklahoma State Penitentiary,
Petitioner,
v.
RODERICK L. SMITH,
Respondent.
_________________________________________________
TABLE OF CONTENTS
APPENDIX TO RESPONDENT’S BRIEF IN OPPOSITON
____________________________________________________

Smith v. Sharp, 935 F.3d 1064 (10th Cir. 2019) . . . . . . . . . . . . . . . . . . . . Resp. App. 1- 29

Smith v. State, Case No. O-2006-683, Accelerated Docket Order
(Okla. Crim. App. Jan. 29, 2007) (Atkins Slip Op.) .. . . . . . . . . . . Resp. App. 30-54

1998 Report of Dr. Clifford Hopewell, Ph.D. . . . . . . . . . . . . . . . . . . . . . Resp. App. 55-66

2003 Report of Dr. Clifford Hopewell, Ph.D. . . . . . . . . . . . . . . . . . . . . . Resp. App. 67-74

35

1064

935 FEDERAL REPORTER, 3d SERIES

any question concerning whether that argument was adequately preserved.
The government now concedes that it
never presented or argued to the district
court or to us that § 3583(k)’s constitutional infirmity could be remedied by empaneling a jury. Therefore, the issue is not
preserved. Mot. to Dismiss at 2. Further,
the government states in its supplemental
briefing that ‘‘even if this Court were to
adopt the government’s remedial argument, [it] would not seek a jury trial in this
case’’ and that the district court’s February 14, 2018, resentencing ordering Haymond to a time-served term of imprisonment would ‘‘remain in effect.’’6 Gov’t
Supp. Br. at 6. As a consequence, the
government argues this case is moot because whatever remedial cure this court
may now fashion for § 3583(k), it will have
no effect in this case. Or, as stated by the
government, ‘‘whatever the Court decides,
Haymond’s time-served term of imprisonment will stand.’’ Id. at 8.
In response, Haymond agrees that the
government failed to preserve the jury
trial remedy or argue plain error on remand. Haymond agrees that ‘‘whether
couched in terms of issue preservation or
mootness, the government has abandoned’’
any jury trial remedy in Haymond’s case.
Haymond Supp. Reply Br. at 1.
As the jury remedy issue was not preserved by the government and would have
no effect on Haymond’s sentence even if
reached, we grant the government’s unopposed motion to dismiss.
6.

We decline to adopt the government’s subsequent suggestion that we ‘‘should vacate the
district court’s September 2016 judgment and
remand for the district court to re-impose its
February 2018 order reducing Mr. Haymond’s term of imprisonment to time
served.’’ Gov’t Supp. Br. at 10.

III
The appeal is dismissed.

,
Roderick L. SMITH, Petitioner Appellant,
v.
Tommy SHARP, Interim Warden,*
Oklahoma State Penitentiary,
Respondent - Appellee.
No. 17-6184
United States Court of Appeals,
Tenth Circuit.
FILED August 26, 2019
Background: Following affirmance of his
murder convictions and death sentence,
932 P.2d 521, and denial of state postconviction relief, 955 P.2d 734, state inmate
filed petition for writ of habeas corpus.
The United States District Court for the
Western District of Oklahoma denied petition, and petitioner appealed. The Court of
Appeals, 379 F.3d 919, conditionally granted petition. After jury found him competent to stand trial, state court resentenced
him to death. Following affirmance of that
sentence, 306 P.3d 557, inmate again
sought habeas relief. The United States
District Court for the Western District of
Oklahoma, No. 5:14-CV-00579-R, David L.
Russell, Senior District Judge, 2017 WL
* Pursuant to Federal Rule of Appellate Procedure 43(c)(2), Tommy Sharp, current Interim
Warden of Oklahoma State Penitentiary, is
automatically substituted for Mike Carpenter,
Warden, as Respondent in this case.

Resp. App. 1

SMITH v. SHARP
Cite as 935 F.3d 1064 (10th Cir. 2019)

2992217, denied petition, and petitioner appealed.
Holdings: The Court of Appeals, Lucero,
Circuit Judge, held that:
(1) petitioner was intellectually disabled,
and thus his execution would violate
Eighth Amendment;
(2) state court’s determination that petitioner failed to establish that he had
sub-average intellectual ability was unreasonable;
(3) clinical standards endorsed by Supreme
Court in Atkins were retroactively applicable on collateral review;
(4) lay testimony about petitioner’s perceived adaptive strengths was insufficient to overcome expert testimony
that defendant had significant limitations in adaptive functioning;
(5) determination that petitioner was not
denied effective assistance of counsel
at his competency and resentencing
trials was reasonable.
Affirmed in part, reversed in part, and
remanded.
1. Habeas Corpus O842, 846
On appeal from orders denying writ of
habeas corpus, Court of Appeals reviews
district court’s legal analysis of state court
decision de novo and its factual findings, if
any, for clear error.
2. Habeas Corpus O452
Writ of habeas corpus may be granted
only in cases where there is no possibility
fairminded jurists could disagree that state
court’s decision conflicts with Supreme
Court
precedent.
28
U.S.C.A.
§ 2254(d)(1).
3. Habeas Corpus O450.1
To obtain federal habeas relief, petitioner must show that state court’s ruling
on claim being presented in federal court
was so lacking in justification that there
was error well understood and compre-

1065

hended in existing law beyond any possibility for fairminded disagreement. 28
U.S.C.A. § 2254(d)(1).
4. Habeas Corpus O450.1, 452
Federal habeas court must ask at
threshold whether there exists clearly established federal law, focusing exclusively
on Supreme Court’s holdings at time of
state adjudication, and absence of clearly
established federal law requires denial of
relief. 28 U.S.C.A. § 2254(d)(1).
5. Habeas Corpus O452
State-court decision is ‘‘contrary to’’
clearly-established federal law, thus warranting federal habeas relief, if state applies rule different from governing law set
forth in Supreme Court cases, or if it
decides case differently than Supreme
Court has done on set of materially indistinguishable
facts.
28
U.S.C.A.
§ 2254(d)(1).
See publication Words and Phrases
for other judicial constructions and
definitions.

6. Habeas Corpus O450.1
State court decision that identifies
correct governing legal principle from Supreme Court’s decisions but unreasonably
applies that principle to facts of petitioner’s case is ‘‘unreasonable application’’ of
clearly established federal law warranting
28 U.S.C.A.
federal habeas relief.
§ 2254(d)(1).
See publication Words and Phrases
for other judicial constructions and
definitions.

7. Habeas Corpus O450.1
In order for state court’s decision to
be unreasonable application of Supreme
Court’s case law, ruling must be objectively unreasonable, not merely wrong; even
clear error will not suffice to warrant fed28
U.S.C.A.
eral
habeas
relief.
§ 2254(d)(1).

Resp. App. 2

1066

935 FEDERAL REPORTER, 3d SERIES

8. Habeas Corpus O753

14. Habeas Corpus O768

Federal habeas court may review only
record that was before state court that
adjudicated claim on merits. 28 U.S.C.A.
§ 2254.

When federal claim has been presented to state court and state court has denied relief, federal habeas court may presume that state court adjudicated claim on
merits in absence of any indication or
state-law procedural principles to contrary.
28 U.S.C.A. § 2254(d).

9. Habeas Corpus O450.1
State court’s determination of facts is
unreasonable, thus warranting federal habeas relief, if court plainly and materially
misstated record or petitioner shows that
reasonable minds could not disagree that
finding was in error.
28 U.S.C.A.
§ 2254(d)(2).

15. Habeas Corpus O766
In cases in which state court addresses only one prong of multi-prong analysis,
federal habeas courts must address other
prongs de novo. 28 U.S.C.A. § 2254.

10. Habeas Corpus O765.1

16. Sentencing and Punishment O1642

Even in context of federal habeas, deference does not imply abandonment or
abdication of judicial review. 28 U.S.C.A.
§ 2254(d).

Capital defendant was intellectually
disabled, and thus his execution would violate Eighth Amendment’s prohibition
against cruel and unusual punishment,
where defendant had sub-average intellectual ability, his symptoms manifested before age of eighteen, and he suffered deficits in at least two areas of adaptive
functioning—academics and communication. U.S. Const. Amend. 8; 28 U.S.C.A.
§ 2254(d).

11. Habeas Corpus O450.1
If petitioner shows that state courts
plainly misapprehend or misstate record in
making their findings, and misapprehension goes to material factual issue that is
central to petitioner’s claim, that misapprehension can fatally undermine fact-finding process, rendering resulting factual
finding unreasonable and warranting federal
habeas
relief.
28
U.S.C.A.
§ 2254(d)(2).
12. Habeas Corpus O842, 846
On issues not decided on merits by
state court, Court of Appeals reviews district court’s legal conclusions in habeas
proceedings de novo and its factual findings for clear error.
28 U.S.C.A.
§ 2254(d).
13. Habeas Corpus O841
In federal habeas proceeding, if district court based its factual findings related to issues that state court did not adjudicate on merits entirely on state court
record, Court of Appeals reviews that record independently. 28 U.S.C.A. § 2254.

17. Habeas Corpus O766
For purposes of federal habeas relief,
state court does not adjudicate claim on
merits without addressing claim’s factual
basis. 28 U.S.C.A. § 2254(d).
18. Sentencing and Punishment O1642,
1793
In determining whether defendant is
intellectually disabled, such that imposition
of death sentence would violate Eighth
Amendment, intellectual disability must be
assessed, at least in part, under existing
clinical definitions applied through expert
testimony. U.S. Const. Amend. 8.
19. Habeas Corpus O508
State court’s determination that petitioner failed to establish that he had
sub-average intellectual ability, and thus

Resp. App. 3

SMITH v. SHARP
Cite as 935 F.3d 1064 (10th Cir. 2019)

was eligible for death sentence, was unreasonable determination of facts or unreasonable application of clearly established federal law in Atkins, for purposes
of determining his entitlement to federal
habeas relief, despite state’s expert’s testimony that petitioner was likely malingering, and lay witnesses’ testimony
about his intellectual functioning, where
every IQ test that petitioner took—including tests given in grade school—
placed him firmly within intellectually
disabled range, petitioner’s high school
teachers testified that he was one of lower functioning students in their educable
mentally handicapped courses, two experts concluded that petitioner was intellectually disabled, and state’s expert had
no prior experience with intellectually
disabled and could not conclusively contradict ultimate diagnosis of intellectual
disability. U.S. Const. Amend. 8; 28
U.S.C.A. § 2254(d).
20. Courts O100(1)
Criminal Law O1456
To determine whether post-conviction
constitutional rule applies to case on collateral review, court must first determine
when defendant’s conviction became final,
and then must decide whether rule is actually new; if it is not new, defendant may
avail herself of decision on collateral review, but if it is new, it is not retroactively
applicable on collateral review unless it
falls within exception to nonretroactivity.

1067

rect stereotypes that they cannot have
jobs or relationships, is disfavored in evaluating defendant’s adaptive functioning, as
factor for determining whether he has intellectual disability that precludes his execution. U.S. Const. Amend. 8.
23. Sentencing and Punishment O1793
Lay testimony about defendant’s perceived adaptive strengths was insufficient
to overcome expert testimony that defendant had significant limitations in adaptive
functioning, as factor for determining
whether he had intellectual disability rendering him ineligible for death sentence,
where witnesses had no experience in diagnosing intellectual disabilities, and their
testimony rested on lay stereotypes about
intellectually disabled.
U.S. Const.
Amend. 8.
24. Criminal Law O1602
Criminal defendants’ constitutional
right to counsel encompasses post-conviction proceedings to determine whether defendant is mentally retarded and thus entitled to protection under Atkins prohibition
of execution of mentally retarded defendants. U.S. Const. Amends. 6, 8.
25. Criminal Law O1881
Defendant can establish constitutional
violation of right to counsel where counsel’s performance was deficient, and deficient performance prejudiced defense.
U.S. Const. Amend. 6.

21. Courts O100(1)
Clinical standards endorsed by Supreme Court in Atkins to provide guidance
in determining whether defendant has intellectual disability rendering him ineligible for death sentence did not announce
new rule, and thus were retroactively applicable on collateral review.

26. Criminal Law O1882
To establish deficient performance,
defendant asserting claim of ineffective assistance of counsel must show that counsel’s representation fell below objective
standard of reasonableness as assessed
from counsel’s perspective at that time.
U.S. Const. Amend. 6.

22. Sentencing and Punishment O1793
Evidence that rests on lay stereotypes
about intellectually disabled, such as incor-

27. Criminal Law O1882
In evaluating claim of ineffective assistance of counsel, court must determine

Resp. App. 4

1068

935 FEDERAL REPORTER, 3d SERIES

whether attorney’s representation amounted to incompetence under prevailing professional norms, not whether it deviated
from best practices or most common custom. U.S. Const. Amend. 6.
28. Criminal Law O1871
In evaluating claim of ineffective assistance of counsel, counsel is strongly presumed to have rendered adequate assistance and made all significant decisions in
exercise of reasonable professional judgment. U.S. Const. Amend. 6.
29. Criminal Law O1883
To establish prejudice, defendant asserting claim of ineffective assistance of
counsel must show that, but for counsel’s
deficient performance, there is reasonable
probability result of proceeding would
have been different. U.S. Const. Amend.
6.
30. Criminal Law O1886
In capital-sentencing context, if defendant demonstrates that there is reasonable
probability that at least one juror would
have refused to impose death penalty, defendant has successfully shown prejudice
under Strickland. U.S. Const. Amend. 6.
31. Habeas Corpus O486(2)
To assess whether inadequate investigation prejudiced habeas petitioner, for
purposes of evaluating claim of ineffective
assistance of counsel, court must reweigh
evidence on both sides, this time accounting for petitioner’s proposed additions, and
for how state would have responded to
omitted evidence. U.S. Const. Amend. 6;
28 U.S.C.A. § 2254.
32. Habeas Corpus O486(5)
State court’s determination that petitioner was not denied effective assistance
of counsel at his competency and resentencing trials in capital murder proceeding
1.

The Supreme Court formerly employed the

as result of counsel’s decision not to call
mental health worker at jail to testify and
sponsor video recording of interview with
him that allegedly would have shown his
humanity and intellectual disability was
not contrary to, or unreasonable application of, clearly established federal law under Strickland, and thus did not warrant
federal habeas relief, even though counsel
could not recall why she did not call witness to testify, and state court did not
identify any strategic justification for failure to present her testimony and video,
where counsel was aware of video, and its
value was debatable. U.S. Const. Amend.
6; 28 U.S.C.A. § 2254(d).
Appeal from the United States District Court for the Western District of
Oklahoma (D.C. No. 5:14-CV-00579-R)
Emma V. Rolls, Assistant Federal Public Defender (Thomas D. Hird, Assistant
Federal Public Defender, with her on the
briefs), Oklahoma City, Oklahoma, for Petitioner - Appellant.
Jennifer J. Dickson, Assistant Attorney
General (Mike Hunter, Attorney General
of Oklahoma, with her on the brief), Oklahoma City, Oklahoma, for Respondent Appellee.
Before LUCERO, MATHESON, and
PHILLIPS, Circuit Judges.
LUCERO, Circuit Judge.
Roderick Smith was sentenced to death
by an Oklahoma state jury for the 1993
murders of his wife and four stepchildren.
Before the resolution of Smith’s collateral
attacks on his convictions and sentence,
the Supreme Court issued its decision in
Atkins v. Virginia, 536 U.S. 304, 122 S.Ct.
2242, 153 L.Ed.2d 335 (2002), prohibiting
the execution of the intellectually disabled.1 Smith filed a successor application
phrase ‘‘mentally retarded,’’ but now ‘‘uses

Resp. App. 5

1069

SMITH v. SHARP
Cite as 935 F.3d 1064 (10th Cir. 2019)

in state court for post-conviction relief pursuant to Atkins, and the Oklahoma Court
of Criminal Appeals (‘‘OCCA’’) remanded
the case to the Oklahoma County District
Court for a jury trial to determine whether
Smith was intellectually disabled. At the
subsequent jury trial in 2004 (the ‘‘Atkins
trial’’), the jury found Smith was not intellectually disabled and allowed his execution to move forward. But our circuit then
granted relief on Smith’s previously filed
habeas corpus petition in Smith v. Mullin,
379 F.3d 919 (10th Cir. 2004), entitling him
to resentencing. A jury found Smith competent to stand trial in 2009, and he was
resentenced to death in 2010.
Smith again sought federal habeas relief. The district court denied relief in an
unpublished opinion. Smith v. Royal, No.
CIV-14-579-R, 2017 WL 2992217 (W.D.
Okla. July 13, 2017) (unpublished). Before
us, Smith alleges that the state prosecution in his Atkins, competency, and resentencing trials violated several of his constitutional rights, including his Eighth
Amendment right against cruel and unusual punishment and his Sixth Amendment
right to counsel. Specifically, Smith contends: (1) the Eighth and Fourteenth
Amendments prohibit his execution because he is intellectually disabled; (2) the
jury instruction requiring a finding that
his intellectual disability was ‘‘present and
known’’ before the age of eighteen violated
Atkins; (3) counsel’s failure to call an expert witness to testify about the employment capabilities of the intellectually disabled and prepare an additional adaptive
functioning measurement denied him effective assistance of counsel during his Atkins
the term ‘intellectual disability’ to describe
the identical phenomenon,’’ noting ‘‘[t]his
change in terminology is approved and used
in the latest edition of the Diagnostic and
Statistic Manual of Mental Disorders.’’ Hall v.
Florida, 572 U.S. 701, 704, 134 S.Ct. 1986,
188 L.Ed.2d 1007 (2014). Recently enacted
federal legislation known as Rosa’s Law, Pub.

trial; (4) counsel’s failure to introduce video footage of Smith into the record denied
him effective assistance of trial and appellate counsel in his competency and resentencing trials; and (5) cumulative error
violated his rights under the Sixth, Eighth,
and Fourteenth Amendments.
Exercising jurisdiction under 28 U.S.C.
§§ 1291 and 2253, we reverse the district
court’s denial of habeas relief on Smith’s
Atkins challenge to the constitutionality of
his execution. Because we grant relief on
Smith’s Atkins challenge, we need not address Smith’s remaining claims concerning
his Atkins proceeding. We otherwise affirm the district court’s denial of Smith’s
§ 2254 petition for a writ of habeas corpus.
We remand with instructions to grant a
conditional writ vacating Smith’s death
sentence and remanding to the State for a
new penalty-phase proceeding.
I
A
Smith was convicted of the murder of
his wife, Jennifer Smith, and her four children from a prior relationship. The following facts concerning the underlying offense
are undisputed and taken from the opinion
of the OCCA affirming Smith’s convictions
and sentences on direct appeal. Smith v.
State, 932 P.2d 521, 526 (Okla. Crim. App.
1996).
On the morning of June 28, 1993, Jennifer Smith’s mother called the police and
asked them to check on her daughter, who
had not been seen or heard from for ten
days. When the responding officer arrived
L. No. 111-256, 124 Stat. 2643 (2010), mandates the use of the term ‘‘intellectual disability’’ in place of ‘‘mental retardation’’ in all
federal enactments and regulations. We accordingly use the term intellectual disability
throughout this opinion, although many of the
sources cited employ the old terminology.

Resp. App. 6

1070

935 FEDERAL REPORTER, 3d SERIES

at the residence where Smith and Jennifer
lived with her four children, he smelled
decaying flesh and observed many flies
around the windows. The responding officer contacted his supervisor, and the officers entered the house together. They discovered the body of a woman in one closet,
and the body of a child in another. The
officers requested assistance from the
homicide division of the police department,
and the bodies of three more children were
found. The bodies were identified as those
of Jennifer and her four children, and were
determined to have been dead for at least
two days and up to two weeks.
Later that day, Smith walked into the
Oklahoma County Sheriff’s Office. He was
then arrested by the Oklahoma City Police. Smith was interrogated and admitted
that he had stabbed Jennifer and the two
male children. Smith also admitted that he
‘‘got’’ the female children, but could not
remember any details. He told the police
where he had placed each of the bodies.
B
As summarized in Smith’s first habeas
case, Smith was tried and convicted before
an Oklahoma County jury of five counts of
first-degree murder. Smith v. Mullin, 379
F.3d at 924. The jury recommended sentences of death on each count, and the
Oklahoma court agreed. Smith filed an unsuccessful direct appeal with the OCCA,
Smith v. State, 932 P.2d at 539, and the
Supreme Court denied his petition for writ
of certiorari. Smith v. Oklahoma, 521 U.S.
1124, 117 S.Ct. 2522, 138 L.Ed.2d 1023
(1997). He subsequently filed an unsuccessful application for post-conviction relief
in the Oklahoma courts. Smith v. State,
955 P.2d 734 (Okla. Crim. App. 1998).
Smith did not seek Supreme Court review
of the OCCA’s denial of post-conviction
relief.
Smith then filed his first habeas corpus
action, and the district court denied relief.

Smith v. Gibson, No. CIV-98-601-R (W.D.
Okla. Jan. 10, 2002) (unpublished). Smith
appealed to this court. Pending the resolution of that appeal, the Supreme Court
held the Eighth Amendment prohibits the
execution of the intellectually disabled. Atkins, 504 U.S. at 321, 112 S.Ct. 1904. The
state provided Smith a jury trial to prove
that he is intellectually disabled, bifurcating the further adjudication of Smith’s
challenges into an Atkins trial (and subsequent appeals) and the federal habeas
claims that developed out of his initial
conviction and sentencing.
Smith’s first Atkins trial ended in a mistrial, but a state jury eventually concluded
that he was not intellectually disabled.
Smith appealed to the OCCA, which affirmed the jury’s verdict. Smith v. State,
No. O-2006-683 (Okla. Crim. App. Jan. 29,
2007) (unpublished) (‘‘OCCA’s Atkins
Op.’’).
Shortly after Smith’s Atkins trial, however, this court granted in part Smith’s
habeas petition, entitling Smith to resentencing due to ineffective assistance of
counsel. Smith v. Mullin, 379 F.3d 919. We
specifically held counsel’s failure to introduce any mitigation evidence regarding
Smith’s intellectual disability, brain damage, and troubled background denied
Smith effective assistance of counsel during his sentencing proceedings. Id. at 94044. Prior to the resentencing proceedings,
Smith received a jury trial to determine
his competence. The jury found Smith
competent, and he was resentenced in
2010. At the resentencing, the jury imposed two death sentences and three sentences of life without the possibility of the
parole. Following those jury trials, Smith
appealed the resentencing and competency
determinations, and the effectiveness of
counsel in those proceedings. The OCCA
affirmed. Smith v. State, 306 P.3d 557
(Okla. Crim. App. 2013), cert. denied, 572

Resp. App. 7

SMITH v. SHARP
Cite as 935 F.3d 1064 (10th Cir. 2019)

U.S. 1137, 134 S. Ct. 2662, 189 L.Ed.2d 213
(2014). Smith applied for but failed to obtain post-conviction relief in state court.
Smith v. State, No. PCD-2010-660 (Okla.
Crim. App. Feb. 13, 2014) (unpublished)
(‘‘OCCA’s Resentencing and Competency
Op.’’).
Smith then filed a second habeas petition in federal court, bringing claims related to: (1) sufficiency of evidence supporting the jury’s determination that he was
not intellectually disabled; (2) purported
irregularities in his Atkins trial; and (3)
ineffective assistance of counsel during his
Atkins, competency, and resentencing trials. The district court denied relief on all
counts. We granted certificates of appealability as to: (1) sufficiency of evidence as to
the jury’s determination that Smith was
not intellectually disabled at his Atkins
trial; (2) his Atkins challenge to language
in the jury instructions at that trial; and
(3) various effectiveness of counsel claims
during his Atkins, competency, and resentencing trials.
II
[1] On appeal from orders denying a
writ of habeas corpus, ‘‘we review the district court’s legal analysis of the state
court decision de novo and its factual findings, if any, for clear error.’’ Michael Smith
v. Duckworth, 824 F.3d 1233, 1241-42 (10th
Cir. 2016) (quotation omitted). But ‘‘[t]he
Antiterrorism and Effective Death Penalty
Act of 1996 (‘‘AEDPA’’) circumscribes our
review of federal habeas claims that were
adjudicated on the merits in state-court
proceedings.’’ Grant v. Royal, 886 F.3d
874, 888 (10th Cir. 2018) (quotation omitted), cert. denied sub nom. Grant v. Carpenter, ––– U.S. ––––, 139 S. Ct. 925, 202
L.Ed.2d 659 (2019). Under AEDPA, a petitioner may obtain federal habeas relief on
a claim only if the state court’s adjudication of the claim on the merits: (1) ‘‘resulted in a decision that was contrary to, or
involved an unreasonable application of,

1071

clearly established Federal law’’; or (2)
‘‘resulted in a decision that was based on
an unreasonable determination of the facts
in light of the evidence presented in the
State court proceeding.’’ § 2254(d)(1), (2).
[2, 3] The Supreme Court has explained that ‘‘[a] state court’s determination that a claim lacks merit precludes
federal habeas relief so long as fairminded
jurists could disagree on the correctness of
the state court’s decision.’’ Harrington v.
Richter, 562 U.S. 86, 101, 131 S.Ct. 770,
178 L.Ed.2d 624 (2011) (quotation omitted). That is, the writ may be granted only
‘‘in cases where there is no possibility fairminded jurists could disagree that the
state court’s decision conflicts with’’ Supreme Court precedent, id. at 102, 131
S.Ct. 770, and petitioner ‘‘must show that
the state court’s ruling on the claim being
presented in federal court was so lacking
in justification that there was an error well
understood and comprehended in existing
law beyond any possibility for fairminded
disagreement,’’ id. at 103, 131 S.Ct. 770.
[4] Applying § 2254(d)(1)’s legal inquiry, ‘‘we ask at the threshold whether there
exists clearly established federal law, an
inquiry that focuses exclusively on holdings of the Supreme Court.’’ Grant, 886
F.3d at 888 (quotation omitted). ‘‘The absence of clearly established federal law is
dispositive’’ and requires the denial of relief. Id. at 889 (quotation omitted). And
that Supreme Court precedent must have
been ‘‘clearly established at the time of the
[state] adjudication.’’ Shoop v. Hill, –––
U.S. ––––, 139 S. Ct. 504, 506, 202 L.Ed.2d
461 (2019) (per curiam) (quotation omitted).
[5–8] ‘‘If clearly established federal
law exists, a state-court decision is contrary to it if the state applies a rule different from the governing law set forth in
[Supreme Court] cases, or if it decides a

Resp. App. 8

1072

935 FEDERAL REPORTER, 3d SERIES

case differently than [the Supreme Court
has] done on a set of materially indistinguishable facts.’’ Hooks v. Workman, 689
F.3d 1148, 1163 (10th Cir. 2012) (quotation
omitted). A state court decision that ‘‘identifies the correct governing legal principle
from th[e Supreme] Court’s decisions but
unreasonably applies that principle to the
facts of petitioner’s case’’ is an ‘‘unreasonable application’’ of clearly established federal law. Wiggins v. Smith, 539 U.S. 510,
520, 123 S.Ct. 2527, 156 L.Ed.2d 471 (2003)
(quotation omitted). ‘‘In order for a state
court’s decision to be an unreasonable application of th[e Supreme] Court’s case
law, the ruling must be objectively unreasonable, not merely wrong; even clear error will not suffice.’’ Virginia v. LeBlanc,
––– U.S. ––––, 137 S. Ct. 1726, 1728, 198
L.Ed.2d 186 (2017) (quotation omitted).
Under § 2254(d)(1), we review only the
record that was before the state court that
adjudicated the claim on the merits. Cullen
v. Pinholster, 563 U.S. 170, 180, 131 S.Ct.
1388, 179 L.Ed.2d 557 (2011).
[9–11] Applying § 2254(d)(2)’s factual
inquiry, we ‘‘conclude that a state court’s
determination of the facts is unreasonable’’
if ‘‘the court plainly and materially misstated the record or the petitioner shows
that reasonable minds could not disagree
that the finding was in error.’’ Michael
Smith, 824 F.3d at 1250. But ‘‘[e]ven in the
context of federal habeas, deference does
not imply abandonment or abdication of
judicial review.’’ Brumfield v. Cain, –––
U.S. ––––, 135 S. Ct. 2269, 2277, 192
L.Ed.2d 356 (2015). And if the petitioner
shows ‘‘the state courts plainly misapprehend or misstate the record in making
their findings, and the misapprehension
goes to a material factual issue that is
central to petitioner’s claim, that misapprehension can fatally undermine the factfinding process, rendering the resulting
factual finding unreasonable.’’ Byrd v.
Workman, 645 F.3d 1159, 1171-72 (10th
Cir. 2011).

[12, 13] ‘‘The § 2254 standard does not
apply to issues not decided on the merits
by the state court.’’ Welch v. Workman,
639 F.3d 980, 992 (10th Cir. 2011). On
those unadjudicated issues, ‘‘we review the
district court’s legal conclusions de novo
and its factual findings for clear error.’’ Id.
‘‘[I]f the district court based its factual
findings’’ related to issues that the state
court did not adjudicate on the merits
‘‘entirely on the state court record, we
review that record independently.’’ Id.
[14, 15] ‘‘When a federal claim has
been presented to a state court and the
state court has denied relief, it may be
presumed that the state court adjudicated
the claim on the merits in the absence of
any indication or state-law procedural
principles to the contrary.’’ Richter, 562
U.S. 86 at 99, 131 S.Ct. 770. But the petitioner may rebut the presumption that the
state court adjudicated the petitioner’s
claim on the merits. As discussed in more
detail below, in cases in which a state court
addresses only one prong of a multi-prong
analysis, the Supreme Court requires that
federal habeas courts address the other
prongs de novo. See Porter v. McCollum,
558 U.S. 30, 39, 130 S.Ct. 447, 175 L.Ed.2d
398 (2009) (per curiam) (‘‘Because the state
court did not decide whether [petitioner’s]
counsel was deficient, we review this element of [petitioner’s] Strickland claim de
novo.’’); Rompilla v. Beard, 545 U.S. 374,
390, 125 S.Ct. 2456, 162 L.Ed.2d 360 (2005)
(‘‘Because the state courts found the representation adequate, they never reached
the issue of prejudice, and so we examine
this element of the Strickland claim de
novo.’’ (citation omitted)); Wiggins, 539
U.S. at 534, 123 S.Ct. 2527 (same); see also
Grant, 886 F.3d at 910 (‘‘Because the
OCCA did not—by the plain terms of its
ruling—reach the prejudice question, we
resolve this overarching question de
novo.’’); Hooks, 689 F.3d at 1188 (‘‘[I]n
those instances where the OCCA did not

Resp. App. 9

1073

SMITH v. SHARP
Cite as 935 F.3d 1064 (10th Cir. 2019)

address the performance prong of Strickland and we elect to do so, our review is de
novo.’’).2
And as with un-adjudicated prongs of
Strickland’s two-part analysis, we review
un-adjudicated prongs of Atkins’ threepart analysis de novo. As the Supreme
Court explained in Brumfield, if the relevant state ‘‘court never made any finding
that [petitioner] failed to produce evidence
suggesting he could meet’’ one of the Atkins prongs, federal habeas courts review
that prong of the Atkins analysis de novo
because ‘‘[t]here is thus no determination
on that point to which a federal court must
defer in assessing whether [petitioner] satisfied § 2254(d).’’ 135 S. Ct. at 2282; see
also Pruitt v. Neal, 788 F.3d 248, 269 (7th
Cir. 2015) (‘‘While the [state] court noted
that ‘the evidence on the adaptive behavior
prong is at least conflicting,’ it did not
actually conclude that [petitioner] failed to
establish substantial impairment of
2.

As we have previously observed, there is
‘‘some possible tension between’’ the language in Richter requiring federal habeas
courts to grant AEDPA deference to the adjudication of claims, not arguments, and ‘‘the
approach of Wiggins and its progeny where’’
we deny AEDPA deference to the ‘‘portion of
a Strickland claim TTT not reached by a state
court.’’ Grant, 886 F.3d at 910 (quotation
omitted) (citing McBride v. Superintendent,
SCI Houtzdale, 687 F.3d 92, 100 n.10 (3d Cir.
2012)). But even after Richter, this court has
denied AEDPA deference to the unadjudicated
prejudice prongs of a broader Strickland habeas claim. See id. And so, too, has the Supreme Court denied AEDPA deference to the
unadjudicated prong of a broader Atkins habeas claim. See Brumfield, 135 S. Ct. at 2282.
Moreover, Richter establishes only a rebuttable presumption that the state court has
adjudicated a claim, or portions of that claim.
See Wilson v. Sellers, ––– U.S. ––––, 138 S.
Ct. 1188, 1195, 200 L.Ed.2d 530 (2018)
(‘‘Richter TTT set[ ] forth a presumption,
which may be overcome when there is reason
to think some other explanation for the state
court’s decision is more likely.’’ (quotation
omitted)). Supreme Court precedent indicates

adaptive behavior. Thus, we review this
prong de novo.’’ (citation omitted)).
III
[16] Smith appeals the district court’s
denial of habeas relief on five grounds.
With respect to his Atkins trial, Smith
asserts: (1) he is intellectually disabled and
his execution would violate Atkins; (2)
flawed jury instructions rendered his Atkins trial fundamentally unfair; and (3)
ineffective assistance for his counsel’s failures to investigate and call an expert specializing in the employment capabilities of
the intellectually disabled, and to refute
the State’s impeachment of Smith’s
adaptive functioning measurement. Because we grant habeas relief on Smith’s
claim that his execution would violate Atkins, we need not address the remaining
claims concerning his Atkins trial.
With respect to his competency and resentencing trials, Smith asserts he was
the presumption of adjudication of an entire
claim on the merits outlined in Richter is
overcome as to components of that claim if,
as in Wiggins, a state court decision explicitly
rests its analysis on a particular prong of a
claim without deciding the claim’s other
prongs. Porter, 558 U.S. at 39, 130 S.Ct. 447
(2009). In other words, the Richter presumption controls if a state court summarily resolves a claim without explanation, but the
presumption is overcome as to unadjudicated
prongs of a claim if a state court provides a
reasoned explanation that rests exclusively on
one prong of a multi-prong analysis. See
Mann v. Ryan, 828 F.3d 1143, 1168 (9th Cir.
2016) (‘‘This distinction between AEDPA review of summary denials and partial adjudications is apparent in post-Richter Supreme
Court caselaw, which applies de novo review
to unanalyzed portions of multi-prong tests.’’);
Grueninger v. Dir., Vir. Dep’t of Corr., 813
F.3d 517, 526 (4th Cir. 2016) (‘‘[T]he Richter
rule requiring deference to hypothetical reasons a state court might have given for rejecting a federal claim is limited to cases in
which no state court has issued an opinion
giving reasons for the denial of relief.’’ (quotation and alteration omitted)).

Resp. App. 10

1074

935 FEDERAL REPORTER, 3d SERIES

denied effective assistance of trial and appellate counsel for counsel’s failure to call
Anna Wright, a mental health worker at
the Oklahoma County jail, to testify and
sponsor the introduction of a video recording of Smith speaking. Smith also asserts
cumulative error.
A
Smith first argues he cannot legally be
executed pursuant to Atkins because he is
intellectually disabled. At the time of
Smith’s Atkins trial, the OCCA implemented Atkins’ prohibition on the execution of
the intellectually disabled through its decision in Murphy v. State, 54 P.3d 556 (Okla.
Crim. App. 2002), overruled in part on
other grounds by Blonner v. State, 127
P.3d 1135, 1139 (Okla. Crim. App. 2006). In
that case, the OCCA articulated the following definition of intellectual disability:
A person is ‘‘mentally retarded’’: (1) If
he or she functions at a significantly
sub-average intellectual level that substantially limits his or her ability to understand and process information, to
communicate, to learn from experience
or mistakes, to engage in logical reasoning, to control impulses, and to understand the reactions of others; (2) The
mental retardation manifested itself before the age of eighteen (18); and (3)
The mental retardation is accompanied
by significant limitations in adaptive
functioning in at least two of the following skill areas: communication; self-care;
social/interpersonal skills; home living;
self-direction; academics; health and
safety; use of community resources; and
work. It is the defendant’s burden to
prove he or she is mentally retarded by
a preponderance of the evidence at trial.
Intelligence quotients are one of the
3.

Because the law of our circuit clearly states
that a sufficiency of evidence challenge necessarily ‘‘presents a mixed question of law and
fact,’’ Hooks, 689 F.3d at 1165, and Smith

many factors that may be considered,
but are not alone determinative. However, no person shall be eligible to be
considered mentally retarded unless he
or she has an intelligence quotient of
seventy or below, as reflected by at least
one scientifically recognized, scientifically approved, and contemporary intelligent quotient test.
Id. at 567-68. Smith contends that based
on the evidence presented, a reasonable
jury would be compelled to find he was
intellectually disabled.
1
Smith argued insufficiency of evidence
to the OCCA in his direct appeal from the
jury verdict following his Atkins trial.
OCCA Atkins Op. at 6. The OCCA concluded that ‘‘Smith failed to meet even the
first prong of the Murphy definition of
mental retardation’’ because ‘‘[t]he evidence, viewed in the light most favorable
to the State, portrayed Smith as a person
who is able to understand and process
information, to communicate, to understand the reactions of others, to learn from
experience or mistakes, and to engage in
logical reasoning.’’ Id. at 11. Accordingly,
to prevail on this sufficiency of evidence
challenge, Smith must demonstrate the
OCCA’s decision that he failed to establish
significantly sub-average intellectual functioning was contrary to, or an unreasonable application of, Atkins, or an unreasonable determination of the facts. Hooks, 689
F.3d at 1165 (‘‘A sufficiency-of-the-evidence challenge in a habeas petition presents a mixed question of fact and law TTTT
which is why we apply both 28 U.S.C.
§ 2254(d)(1) and (d)(2) when reviewing sufficiency of the evidence on habeas.’’ (quotasee
also Brown
tion omitted)); - --- - - -v.- Sirmons,
----515 F.3d 1072, 1089 (10th Cir. 2008).3
presented a sufficiency of evidence challenge
before the district court, we reject the State’s
contention that Smith forfeited § 2254(d)(2)

Resp. App. 11

SMITH v. SHARP
Cite as 935 F.3d 1064 (10th Cir. 2019)

But the OCCA did not adjudicate on the
merits Smith’s challenge to the sufficiency
of evidence on either the age-of-onset or
the deficits in adaptive functioning prongs
of Murphy, meaning there exists no state
court decision to which we must defer
under AEDPA. Grant, 886 F.3d at 888
(‘‘[AEDPA] circumscribes our review of
federal habeas claims that were adjudicated on the merits in state-court proceedings.’’ (quotation omitted)). Specifically,
the OCCA made no mention of the age-ofonset requirement beyond including it in
the general definition of intellectual disability in the section of its opinion addressing Smith’s sufficiency of evidence
challenge. OCCA Atkins Op. at 6-11. And
although the OCCA noted ‘‘the State presented persuasive evidence from lay witnesses to refute Smith’s evidence of TTT
adaptive functioning deficits,’’ id. at 8, it
reached no conclusions regarding the
adaptive functioning prong.
[17] Instead, the OCCA’s dispositive
language rejecting Smith’s sufficiency of
evidence claim referred only to the first
prong of the Murphy definition of intellectual disability, detailing each component of
significantly sub-average intellectual functioning and explaining that Smith failed to
meet that prong. Id. at 11. The OCCA
neither addressed how a rational jury
could have viewed the adaptive functioning
evidence, nor concluded that the ‘‘evidence
presented at trial support[ed]’’ a finding of
deficits in adaptive functioning, as it stated
for the intellectual functioning prong. Id.
And a state court does not adjudicate a
claim on the merits without addressing the
claim’s factual basis. See Fairchild v.
Workman, 579 F.3d 1134, 1149 (10th Cir.
2009) (‘‘A claim is more than a mere theory
on which a court could grant relief; a claim
must have a factual basis, and an adjudication of that claim requires an evaluation of
that factual basis.’’ (citation omitted)).
arguments by failing to raise them expressly

1075

Moreover, the OCCA couches the entirety of its discussion regarding the ‘‘persuasive evidence’’ in terms relevant to the
intellectual functioning prong of Murphy,
stating the evidence ‘‘portrayed Smith as a
person who is able to understand and process information, to communicate, to understand the reactions of others, to learn
from experiences or mistakes, and to engage in logical reasoning.’’ OCCA Atkins
Op. at 11. These are Murphy’s intellectual
functioning categories. Although they may
overlap with the adaptive functioning
skills, the psychological terms are different. And even if evidence supporting these
intellectual functioning findings could be
relevant to the adaptive functioning prong,
we cannot ignore the fact that the OCCA
addresses this evidence exclusively in the
context of Murphy’s definition of the intellectual functioning prong. Compare id.
with Murphy, 54 P.3d at 567-68 (defining
the intellectual functioning prong as ‘‘[i]f
he or she functions at a significantly subaverage intellectual level that substantially
limits his or her ability to understand and
process information, to communicate, to
learn from experience or mistakes, to engage in logical reasoning, to control impulses, and to understand the reactions of
others’’). The OCCA made no attempt to
connect the evidence it considered relevant
to the intellectual functioning prong to
Murphy’s adaptive functioning categories.
After acknowledging the adaptive functioning categories in a footnote at the beginning of its opinion, see OCCA Atkins Op.
at 6 n.8, the OCCA did not mention them
at all.
The OCCA’s statement that comes closest to adjudicating on the merits the third
Murphy prong closely resembles the relevant state court statement in Pruitt. Compare 788 F.3d at 269 (‘‘the evidence on the
adaptive behavior prong is at least conflictbelow.

Resp. App. 12

1076

935 FEDERAL REPORTER, 3d SERIES

ing’’) with OCCA Atkins Op. at 8 (‘‘the
State presented persuasive evidence from
lay witnesses to refute Smith’s evidence of
subaverage intellectual function and of
adaptive functioning deficits’’). As the Seventh Circuit similarly concluded, such a
cursory reference to the evidence presented absent any conclusion does not constitute an adjudication on the merits. Pruitt,
788 F.3d at 269. We determine the OCCA
resolved the intellectual disability issue on
the intellectual functioning prong and did
not address the other two prongs of the
Murphy test.
As explained above, if the state court
explicitly relies on one element of a multielement test to the exclusion of others, we
review challenges to the remaining elements de novo. See Brumfield, 135 S. Ct.
at 2282 (holding when relevant state ‘‘court
never made any finding that [petitioner]
failed to produce evidence suggesting he
could meet’’ one of the Atkins prongs,
federal habeas courts review that prong de
novo because ‘‘[t]here is thus no determination on that point to which a federal
court must defer in assessing whether [petitioner] satisfied § 2254(d)’’); Pruitt, 788
F.3d at 269. Accordingly, although we
grant AEDPA deference to the OCCA’s
determination on the first Murphy prong,
we review de novo Smith’s sufficiency of
evidence challenge to the age-of-onset and
deficits in adaptive functioning prongs.4
The proper standard as to the latter two
prongs are thus set forth in Jackson v.
Virginia, 443 U.S. 307, 99 S.Ct. 2781, 61
L.Ed.2d 560 (1979), as explicated in Hooks:
‘‘whether, viewing the evidence in the light
4.

In Grant, the majority concluded we may
not sua sponte deny AEDPA deference when
the OCCA purportedly ‘‘misunderstood’’ petitioner’s argument. 886 F.3d at 909. That rule
is inapplicable to our denial of AEDPA deference on a claim the OCCA plainly failed to
reach. Id. at 932 n.20. In Grant, the dissent
did not deny that the OCCA issued a decision
on a particular claim for relief, and instead

most favorable to the prevailing party (the
State), any rational trier of fact could have
found [Smith] not mentally retarded by a
preponderance of the evidence.’’ Hooks,
689 F.3d at 1166 (emphasis in original).
And because the district court ‘‘based its
factual findings’’ in rejecting Smith’s
claims ‘‘entirely on the state court record,
we review that record independently.’’
Welch, 639 F.3d at 992 (quotation omitted).
2
In addressing the Murphy prongs, we
first conclude Smith has demonstrated the
OCCA either unreasonably applied Atkins
or unreasonably construed the facts in deciding the evidence justified the jury’s verdict regarding the intellectual functioning
prong of Murphy. Next, as the State conceded at oral argument, Smith met the
age-of-onset Murphy prong, and that
prong thus does not provide a viable justification for upholding the jury’s determination that Smith was not intellectually
disabled. Finally, we conclude Smith has
successfully demonstrated that based on
the evidence presented, a reasonable jury
would have been compelled to find that he
suffers from deficiencies in at least two of
the nine listed skill areas of adaptive functioning. We thus reverse the district
court’s denial of this claim.
a
The first Murphy prong requires Smith
prove by a preponderance of evidence that
he ‘‘functions at a significantly sub-average
intellectual level that substantially limits
asserted the OCCA misunderstood petitioner’s
arguments on that question. See 886 F.3d at
968 (Moritz, dissenting) (explaining ‘‘[t]he
OCCA misunderstood this argument’’ and
then ‘‘rejected [it]’’). Unlike in Grant, there is
no OCCA determination on the adaptive functioning prong of the Murphy analysis to
which we may defer.

Resp. App. 13

SMITH v. SHARP
Cite as 935 F.3d 1064 (10th Cir. 2019)

his [ ] ability to understand and process
information, to communicate, to learn from
experience or mistakes, to engage in logical reasoning, to control impulses, and to
understand the reactions of others.’’ 54
P.3d at 567-68. Because the OCCA adjudicated the first Murphy prong on the merits, AEDPA constrains our review of its
finding Smith failed to meet ‘‘the first
prong of the Murphy definition,’’ OCCA
Atkins Op. at 11.
But this is not an insurmountable barrier. Even under AEDPA’s deferential review, at least four of our sibling circuits
have held unreasonable a state court’s determination that an individual was not intellectually disabled, or that an individual
failed to meet a particular prong of the
relevant definition of intellectual disability.
Pruitt, 788 F.3d at 269 (‘‘The [state court]
made an unreasonable determination of
fact in concluding TTT that [petitioner]
failed to establish significantly subaverage
intellectual functioning.’’); Van Tran v. Colson, 764 F.3d 594, 612 (6th Cir. 2014) (‘‘In
light of the methods and analyses employed by the expert witnesses, the [state
court] unreasonably determined that Van
Tran was not intellectually disabled.’’);
Burgess v. Comm’r, Ala. Dep’t of Corr.,
723 F.3d 1308, 1315-16 (11th Cir. 2013)
(‘‘[T]he ruling of [the state court] that
Burgess is not mentally retarded was an
unreasonable determination of the facts in
this case.’’ (quotation omitted)); Rivera v.
Quarterman, 505 F.3d 349, 357 (5th Cir.
2007) (‘‘[I]t was unreasonable TTT to reject
Rivera’s Atkins claim as failing to even
establish a prima facie case—especially
when viewed through the prism of Atkins’
command that the Constitution places a
substantive restriction on the State’s pow5.

Atkins is thus consistent with other areas of
the law concerning medical diagnoses, which
place similar emphasis on expert testimony.
For example, the Supreme Court has recog-

1077

er to take the life of a mentally retarded
offender.’’ (quotations omitted)).
[18] Because Smith’s sufficiency of evidence challenge ‘‘presents a mixed question of fact and law,’’ we will grant relief if
the OCCA’s decision to uphold the jury
determination on the first Murphy prong
was contrary to, or an unreasonable application of, Atkins, or was an unreasonable
determination of the facts. Hooks, 689
F.3d at 1165. The Court’s decision in Atkins provides the ‘‘substantive law at this
basis of his sufficiency challenge.’’ Hooks,
689 F.3d at 1166. Atkins broadly imposed a
‘‘substantive restriction on the State’s power to take the life of a mentally retarded
offender.’’ 536 U.S. at 321, 122 S.Ct. 2242.
The Supreme Court in Atkins accepted
clinical definitions for the meaning of the
term ‘‘mentally retarded.’’ Id. at 308 n.3,
314-16, 122 S.Ct. 2242. And although Atkins left the primary task of defining intellectual disability to the states, Smith’s
‘‘sufficiency challenge inescapably requires
that we consider the kinds of evidence that
state courts may (or may not) rely upon in
adjudicating an Atkins claim.’’ Hooks, 689
F.3d at 1166. Atkins clearly establishes
that intellectual disability must be assessed, at least in part, under the existing
clinical definitions applied through expert
testimony. Atkins, 536 U.S. at 308 n.3, 122
S.Ct. 2242.5
We recognized the centrality of expert
testimony to our review of Atkins verdicts
in Hooks. In that case, the defendant’s IQ
test scores ranged from 53 to 80. The
experts testified that he fell into a ‘‘gray
area.’’ Hooks, 689 F.3d at 1168. With a
range of expert testimony, the court saw
no reason to overturn the jury’s finding of
not intellectually disabled. Id. And other
circuits similarly prioritize expert testimonized the importance of experts in diagnosing
insanity for a defense in a criminal trial. Ake
v. Oklahoma, 470 U.S. 68, 80-82, 105 S.Ct.
1087, 84 L.Ed.2d 53 (1985).

Resp. App. 14

1078

935 FEDERAL REPORTER, 3d SERIES

ny in review of Atkins challenges. In
granting habeas relief pursuant to Atkins
in Pruitt, the Seventh Circuit explained
that four ‘‘highly qualified experts with
extensive experience with the intellectually
disabled TTT all agreed that the [petitioner’s] IQ scores demonstrated significantly
subaverage intellectual functioning and
that [petitioner] is intellectually disabled.’’
788 F.3d at 267. And, as in this case, the
State’s expert in Pruitt could not claim
with certainty that the petitioner is not
intellectually disabled. Id. Applying Atkins,
both Pruitt and Hooks turned on consideration of expert opinions.
As in Hooks, id. at 1167, the OCCA
applied the correct legal standard in this
case, explaining that ‘‘[w]hen a defendant
challenges the sufficiency of evidence following a jury verdict finding him not mentally retarded, [the OCCA] reviews the
evidence in the light most favorable to the
State to determine if any rational trier of
fact could have reached the same conclusion.’’ OCCA Atkins Op. at 6. ‘‘Because the
OCCA applied the correct legal standard,
our inquiry is limited to whether its determination that the evidence was sufficient
to support the jury’s verdict was reasonable TTT [T]hat inquiry also requires us to
consider whether the OCCA TTT reasonably applied Atkins.’’ Hooks, 689 F.3d at
1167 (quotation omitted).
[19] We conclude that in holding Smith
failed to satisfy the intellectual functioning
Murphy prong, the OCCA either relied
upon an unreasonable determination of the
facts or unreasonably applied Atkins. Every IQ test Smith took placed him firmly
within the intellectually disabled range.
The sub-average intellectual ability requirement generally turns on IQ scores.
See id. at 1167-68 (‘‘[A] capital defendant’s
IQ score is TTT strong evidence of sub6.

We cite to the Tenth Edition as the current
AAMR at the time of Smith’s Atkins trial in

average intelligence.’’); American Association on Mental Retardation (‘‘AAMR’’),
Mental Retardation: Definition, Classification, and Systems of Supports at 58 (10th
ed. 2002) (‘‘In the 2002 AAMR system, the
‘intellectual functioning’ criterion for diagnosis of mental retardation is approximately two standard deviations below the mean,
considering the [standard error of measurement] for the specific assessment instruments used and the instruments’
strengths and limitations.’’).6 As the Supreme Court explained in Atkins, ‘‘[i]t is
estimated that between 1 and 3 percent of
the population has an IQ between 70 and
75 or lower, which is typically considered
the cutoff IQ score for the intellectual
function prong of the mental retardation
definition.’’ 536 U.S. at 309 n.5, 122 S.Ct.
2242; see also Michael Smith, 824 F.3d at
1243 (explaining that ‘‘a clinical diagnosis
of intellectual disability generally requires
an IQ score that is approximately two
standard deviations below the mean TTTT
The mean score for a standardized IQ test
is 100, and the standard deviation is approximately 15.’’).
In light of Smith’s consistent scoring in
the intellectually disabled range and the
Supreme Court’s clear statements regarding the significant role of IQ assessments
under the intellectual functioning prong of
Atkins, for the OCCA’s decision to withstand review there must be evidence that
either: (1) all of the IQ assessments administered to Smith significantly underestimate his intellectual functioning; or (2)
contrary to the clinical definitions of the
intellectual functioning prong at the time
of Smith’s Atkins trial, expert assessments
relying upon standardized metrics are not
dispositive. The State cannot prevail on
either basis. The former requires an unreasonable construction of the facts; the
2004.

Resp. App. 15

SMITH v. SHARP
Cite as 935 F.3d 1064 (10th Cir. 2019)

latter an unreasonable application of Atkins.
Three experts testified at Smith’s Atkins
trial: Dr. Clifford Allen Hopewell, a clinical
neuropsychologist retained by Smith; Dr.
Frederick H. Smith, a psychologist with
the Oklahoma Department of Corrections
initially retained by the State for Smith’s
first habeas petition but called to testify as
an expert for Smith at his Atkins trial; and
Dr. John A. Call, a forensic psychologist
retained by the State. The doctors’ opinions largely track the clinical and legal
definitions of intellectual disability set
forth in Murphy. Both Dr. Hopewell and
Dr. Smith concluded Smith was intellectually disabled. And Dr. Hopewell testified
that Smith’s ‘‘case is pretty obvious.’’ Dr.
Call suggested Smith was malingering but
admitted he could not ‘‘say that [Smith] is
not mentally retarded.’’ In other words,
although Dr. Call challenged the accuracy
of some of Smith’s tests, even Dr. Call
could not conclusively contradict the ultimate diagnosis of intellectual disability.
And Smith’s IQ scores, all of which place
him in the intellectually disabled range,
strongly compel a finding of significant
deficits in intellectual functioning. Unlike
in previous cases in which we denied relief
on the intellectual functioning prong, not
even one of Smith’s IQ scores falls outside
the intellectually disabled range ‘‘between
70 and 75 or lower,’’ Atkins, 536 U.S. at
309 n.5, 122 S.Ct. 2242; see Hooks, 689
F.3d at 1168 n.7 (noting petitioners IQ
scores of: 80, 70, 61, 57, 61, 80, 72, 76, and
7.

Smith also attempts to present scores of 55
(WAIS-III) and 55 (WAIS-IV) obtained by
Drs. Hall and Ruwe in 2005 and 2010, respectively. But these scores were obtained
after Smith’s Atkins trial, and were thus not
presented to the OCCA. Under AEDPA, our
‘‘review is limited to the record that was
before the state court,’’ Pinholster, 563 U.S. at
180, 131 S.Ct. 1388, and we may not consider
either score.

1079

53, determining the 72 and 76 to be most
reliable); Michael Smith, 824 F.3d at 1244
(noting petitioner’s IQ scores of 76, 79, and
71). In this case, the IQ scores addressed
by the OCCA in its opinion were: 65 on the
Wechsler Adult Intelligence Scale-Revised
(WAIS-R); 55 on the Wechsler Adult Intelligence Scale-III (WAIS-III); 55 (WAISIII); 69-78 on the Raven’s Standard Progressive Matrices, which provide a range
rather than fixed score; and 73. OCCA
Atkins Op. at 7-8.7
Of the scores presented at Smith’s Atkins trial and to the OCCA, the 55 scores
were obtained by Dr. Hopewell, one of
Smith’s experts, and Dr. Call, the State’s
expert, roughly nine months apart. Dr.
Hopewell administered the WAIS-III to
Smith in January 2003, and obtained a
Verbal IQ interval of 51-61, a Performance
IQ interval of 59-73, and a full scale interval of 52-60. Dr. Call’s administration of
the same assessment nine months later
produced not only an identical full scale
score of 55, but also similar intervals. Dr.
Call obtained a Verbal IQ interval of 53-63,
a Performance IQ interval of 58-71, and a
full scale interval of 52-60. Dr. Call’s administration of the assessment produced
age-adjusted scales either identical to or
within one point of Dr. Hopewell’s administration in nine of the eleven areas the
WAIS-III measures.
Dr. Smith administered the WAIS-R
and the Raven’s Standard Progressive
Matrices to Smith in 1997, five years prior
to the Supreme Court’s decision in Atkins.8
8.

And experts on both sides believed Smith to
be intellectually disabled before Atkins was
decided. Although our opinion on Smith’s
first habeas petition concerned mitigation evidence rather than Smith’s intellectual disability, we noted the strong evidence of his
intellectual disability: ‘‘Smith is completely illiterate. Even the State’s experts and prison
doctors determined TTT Smith’s IQ to be in
the mentally retarded or borderline mentally
retarded range. His understanding and his

Resp. App. 16

1080

935 FEDERAL REPORTER, 3d SERIES

On the WAIS-R assessment, Smith’s Verbal IQ score was 64, his Performance IQ
was 70, and full scale IQ was 65. Dr. Smith
testified that the score indicated Smith
was intellectually disabled.9 With regard to
the Raven’s Standard Progress Matrices,
Dr. Smith testified that assessment provides a range, rather than a fixed score
like the WAIS assessments, and Smith
obtained a range of 69 to 78. When asked
to compare the assessments’ accuracy, Dr.
Smith unequivocally stated the WAIS ‘‘is
the premier instrument used throughout
the world for IQ measurement.’’
Finally, the 73 results from a test administered in preparation for Smith’s original criminal trial in 1994. Smith notes that
the type of test administered to obtain the
73 is unclear. Dr. Call’s testimony provides
the only source for the score in the Atkins
trial record, noting that Dr. Murphy administered the test in 1994. The transcript
from Smith’s original criminal trial includes testimony from Dr. Murphy that
Smith’s full scale IQ is 73, and ‘‘in the
mentally retarded range of intellectual
functioning.’’ At no point in his testimony
did Dr. Murphy state what type of test
was administered, and he did not testify at
Smith’s Atkins trial. Accordingly, although
emotional development and his ability to relate all seem to be fairly similar to what we
would perceive to be a 12-year-old-child.’’
Smith v. Mullin, 379 F.3d at 941 (citations
and quotation omitted).
9.

Dr. Hopewell addressed the discrepancy between the scores of 55 that Dr. Call and Dr.
Hopewell obtained and the 65 Dr. Smith obtained, testifying that the scores are consistent
because Dr. Smith administered the older version of the WAIS assessment that would have
inflated Smith’s score pursuant to the Flynn
effect. As we explained in Hooks, under the
Flynn effect, ‘‘if an individual’s test score is
measured against a mean of a population
sample from prior years, then his score will
be inflated in varying degrees (depending on
how long ago the sample was first employed)
and will not provide an accurate picture of

we note the score obtained by Dr. Murphy
for its consistent placement of Smith in the
intellectually disabled range, we do not
consider a score on an unknown test and
only introduced into the Atkins trial record
indirectly to be of particular significance to
our review.10
In view of the evidence showing Smith’s
consistent low IQ scores and Atkins’ statement that a score of 75 or lower will
generally satisfy the intellectual functioning prong of an intellectual disability diagnosis, the State must provide some basis
for a reasonable juror to believe that every
single one of Smith’s IQ assessments was
inaccurate, and that his actual IQ was
some ten to fifteen points higher than his
scores indicate. The OCCA dismissed the
relevance of these scores consistently placing Smith in the intellectually disabled
range by first emphasizing Dr. Call’s testimony that Smith was likely malingering.
OCCA Atkins Op. at 8. But to the extent
the OCCA determined Smith failed to satisfy the intellectual functioning Murphy
prong because he was malingering, we
conclude such a determination amounts to
an unreasonable factual conclusion. Byrd,
645 F.3d at 1171-72 (10th Cir. 2011) (explaining that in cases where the state
his IQ.’’ 689 F.3d at 1169. We need not rely
upon the Flynn effect to conclude a reasonably jury would have been compelled to find
that Smith met the intellectual functioning
Murphy prong because every score placed
Smith in the intellectually disabled range, but
merely acknowledge its existence to refute
any suggestion that the discrepancy between
Smith’s 1997 and 2003 scores support the
conclusion that he malingered.
10. And we consider the reliability of a particular IQ assessment when reviewing a sufficiency of evidence challenge under AEDPA.
See Hooks, 689 F.3d at 1170 (‘‘Given the
[uncontested] reliability problems associated
with many of the scores and the strong reliability of the scores of 72 and 76 from [petitioner’s] own experts, we agree that [petitioner] falls into a ‘gray area.’ ’’).

Resp. App. 17

SMITH v. SHARP
Cite as 935 F.3d 1064 (10th Cir. 2019)

courts ‘‘plainly misapprehend or misstate
the record in making their findings, and
the misapprehension goes to a material
factual issue that is central to petitioner’s
claim, that misapprehension can fatally undermine the fact-finding process, rendering the resulting factual finding unreasonable’’ (quotation omitted)).
As explained supra, Smith has consistently scored in the intellectually disabled
range on every IQ test he has taken. And
Smith almost certainly scored in that
range when he was first placed in courses
for the educable mentally handicapped
while in grade school, as special education
instructors from his school testified that
placement in such courses required IQ
testing in the intellectually disabled range.
Dr. Hopewell testified that children would
not fake an intellectual disability for placement in the educable mentally handicapped courses. Two of Smith’s high school
teachers testified that Smith was one of
the lower functioning students in their
educable mentally handicapped courses.
As all three experts expressly testified,
Smith’s consistent placement in the intellectually disabled range provides compelling evidence that he was not malingering.
Dr. Hopewell testified that Smith’s consistent scoring across a wide range of tests
and his prior experience with the intellectually disabled refuted any claims that
Smith was malingering. Dr. Smith testified
that Smith’s scores from 1997 through
2003 demonstrate a ‘‘remarkable’’ consistency difficult to reconcile with a malingering diagnosis. And Smith obtained the 65
score in 1997 on the assessment that Dr.
Smith administered, five years prior to the
Supreme Court’s decision in Atkins, calling
into question any purported motivation for
malingering. Even the State’s expert, Dr.
Call, agreed that comparing test performance on the same or similar tests over time
would provide one way of assessing whether an individual was malingering. More-

1081

over, as the Seventh Circuit explains, ‘‘a
defendant cannot readily feign the symptoms of mental retardation.’’ Newman v.
Harrington, 726 F.3d 921, 929 (7th Cir.
2013) (quotation omitted).
The State’s assertion that Smith was
malingering thus rests on Dr. Call, the
sole expert to so testify. Unlike Dr. Hopewell, who had extensive experience with
both the intellectually disabled and malingering patients, Dr. Call had no prior experience with the intellectually disabled
and practiced almost exclusively in the unrelated field of forensic psychology. See
Lambert v. State, 126 P.3d 646, 651-52
(Okla. Crim. App. 2005) (‘‘Dr. Call is a
forensic psychologist. His practice has not
primarily been in the field of mental retardation, and he has not had a mentally
retarded patient in a clinical setting for
fifteen years. However, since 2002 he has
made a specialty of examining capital defendants for mental retardation.’’). The
OCCA had previously chastised Dr. Call
because he ‘‘himself made up and administered a non-standardized test TTT not administered pursuant to accepted scientific
norms TTT to convince the jury Petitioner
was malingering.’’ Salazar v. State, 126
P.3d 625, 632 (Okla. Crim. App. 2005).
Moreover, Dr. Call could not conclude that
Smith is not intellectually disabled. Presented with the testimony of two experts
who concluded Smith was intellectually
disabled, Dr. Call could only state that the
record established that Smith had neither
an intellectual disability nor an absence
thereof. And the OCCA noted an identical
admission from Dr. Call to deemphasize
his malingering diagnosis in concluding a
defendant met the first Murphy prong in
Lambert. 126 P.3d at 651 (‘‘Dr. Call did
not testify that Lambert was not mentally
retarded. In fact, he explicitly stated he
could not say that Lambert was not mentally retarded.’’).

Resp. App. 18

1082

935 FEDERAL REPORTER, 3d SERIES

The OCCA also emphasized Dr. Call’s
testimony that the tests he and Dr. Hopewell administered to assess malingering
demonstrate ‘‘Smith did not put forth his
best efforts during his and Dr. Hopewell’s
testing and that Smith’s I.Q. test results
were unreliable.’’ OCCA Atkins Op. at 8.
Dr. Call testified that the Test of Memory
and Malingering and 15-Item Memory
Test both demonstrated Smith was malingering. Dr. Hopewell disputed this conclusion, testifying the assessments of malingering that he and Dr. Call administered
would not accurately assess the intellectually disabled.
Even if the OCCA had used the malingering assessments to disregard Smith’s
scores (both 55) on the WAIS-III assessments, Smith still averaged a 69 on the
remaining fixed score assessments. For a
reasonable jury not to be compelled to
conclude that Smith satisfied the first
Murphy prong based on the malingering
assessments, there must exist some basis
for the jurors to infer that Smith’s actual
IQ falls outside the intellectually disabled
range. But every score presented refuted
such an inference. And ‘‘[w]hile the jury
may draw reasonable inferences from direct or circumstantial evidence, an inference must be more than speculation and
conjecture to be reasonable.’’ Torres v.
Lytle, 461 F.3d 1303, 1313 (10th Cir. 2006).
The OCCA’s conclusion that Smith
‘‘failed to meet even the first prong of the
Murphy definition,’’ OCCA Atkins Op. at
11, is thus an unreasonable determination
of the facts in light of Smith’s consistent
IQ scores that demonstrate significantly
11. Because we conclude the OCCA’s holding
that Smith failed to meet the intellectual functioning prong constitutes a ‘‘decision that was
based on an unreasonable determination of
the facts,’’ § 2254(d)(2), we have necessarily
concluded that Smith has carried his Jackson
burden. A reasonable jury would have been
compelled to find that Smith satisfied the
intellectual functioning Murphy prong. See

subaverage intellectual functioning. See
Pruitt, 788 F.3d at 267 (‘‘Even when
viewed through AEDPA’s deferential lens,
the [state court’s] determination that [petitioner] failed to demonstrate significantly
subaverage intellectual functioning TTT
was objectively unreasonable TTTT The
record establishes that [petitioner’s] reliable IQ scores consistently demonstrated
significantly subaverage intellectual functioning.’’).11
The OCCA attempted to justify its disregard for Smith’s consistent IQ scores by
explaining ‘‘the State presented persuasive
evidence from lay witnesses to refute
Smith’s evidence of subaverage intellectual
functioning.’’ OCCA Atkins Op. at 8. But to
the extent that the OCCA determined
Smith failed to satisfy the intellectual functioning Murphy prong because of evidence
from lay witnesses, such a determination
constitutes an unreasonable application of
Atkins.
See
Wiggins,
--- -- - - - 539 U.S. at 520, 123
S.Ct. 2527.
Atkins demands the Eighth Amendment’s prohibition of the execution of the
mentally disabled tracks the ‘‘national consensus [that] developed against’’ the execution of ‘‘offenders possessing a known IQ
less than 70.’’ Atkins, 536 U.S. at 316 &
309 n.5, 122 S.Ct. 2242 (‘‘[A]n IQ between
70 and 75 or lower TTT is typically considered the cutoff IQ score for the intellectual
function prong of the mental retardation
definition.’’). The Diagnostic and Statistical
Manual of Mental Disorders, cited by the
Atkins court, id. at 308 n.3, 122 S.Ct. 2242,
is even more explicit: ‘‘Intellectual funcHooks, 689 F.3d at 1166 (explaining Jackson,
as applied to the Atkins context, requires assessing ‘‘whether, viewing the evidence in the
light most favorable to the prevailing party
(the State), any rational trier of fact could
have found [petitioner] not mentally retarded
by a preponderance of the evidence’’ (emphasis in original)).

Resp. App. 19

1083

SMITH v. SHARP
Cite as 935 F.3d 1064 (10th Cir. 2019)

tioning is typically measured with individually administered and psychometrically
valid, comprehensive, culturally appropriate, psychometrically sound tests of intelligence.’’ Am. Psychiatric Ass’n, Diagnostic
and Statistical Manual for Mental Disorders at 37 (4th ed.-Text Rev. 2000). And,
citing Atkins, we have similarly concluded
that ‘‘[a]n IQ score of 70 or below TTT is [ ]
strong evidence of subaverage intelligence.’’ Hooks, 689 F.3d at 1168. This
court has noted that ‘‘[t]he [Supreme]
Court in Atkins TTT base[d] its analysis on
clinical definitions of intellectual disability,
and the [Supreme] Court has since recognized that such definitions were a fundamental premise of Atkins.’’ Michael Smith,
824 F.3d at 1243.
Therefore, the OCCA’s determination
Smith did not satisfy the first prong of the
Murphy definition constitutes either an unreasonable determination of the facts, or
amounts to an unreasonable application of
Atkins because such determination requires the OCCA to have disregarded the
clinical definitions Atkins mandated states
adopt. We conclude the OCCA erred in
determining a reasonable jury would not
have been compelled to find Smith intellectually disabled.
b
The State conceded at oral argument
that there exists insufficient evidence for a
reasonable jury to conclude that Smith’s
symptoms did not manifest before the age
of eighteen. The record supports the
State’s concession: throughout his schooling, Smith was placed in educable mentally
handicapped courses, and placement in
those courses required Smith submit to a
psychometrist-administered test and score
a full scale IQ in the intellectually disabled
range. Two of Smith’s teachers from his
educable mentally handicapped courses
confirmed that his placement in those
classes was appropriate. We accordingly
conclude that Smith’s sufficiency of evi-

dence challenge prevails with regards to
the age-of-onset prong of the Murphy definition of intellectual disability.
c
Finally, Smith must demonstrate that a
rational jury would have been compelled to
find he satisfied the adaptive functioning
prong of the Murphy analysis: ‘‘that he has
significant limitations in adaptive functioning in at least two of the nine listed skill
areas.’’ OCCA Atkins Op. at 6. As explained by the OCCA, the ‘‘adaptive functioning skill areas are: communication;
self-care; social/interpersonal skills; home
living; self-direction; academics; health and
safety; use of community resources; and
work.’’ Id. at 6 n.8. Because the OCCA did
not adjudicate this prong of Murphy on
the merits, we review the evidence and
conduct the legal analysis de novo. Brumfield, 135 S. Ct. at 2282.
Under de novo review, we are not constrained to consider only Supreme Court
precedent ‘‘clearly established at the time
of the [state] adjudication,’’ as required
under AEDPA. Shoop, 139 S. Ct. at 506.
We thus apply the general rule for retroactive application of law to convictions under collateral attack to assess whether the
Supreme Court’s recent applications of Atkins ‘‘are novel.’’ Chaidez v. United States,
568 U.S. 342, 348, 133 S.Ct. 1103, 185
L.Ed.2d 149 (2013).
[20] In general, ‘‘[o]nly when we apply
a settled rule may a person avail herself of
the decision on collateral review.’’ Id. at
347, 133 S.Ct. 1103. To determine whether
a post-conviction constitutional rule applies
to a case on collateral review, the court
must first ‘‘determine when the defendant’s conviction became final.’’ Beard v.
Banks, 542 U.S. 406, 411, 124 S.Ct. 2504,
159 L.Ed.2d 494 (2004). It then must decide ‘‘whether the rule is actually ‘new.’ ’’
Id. Typically, a rule is ‘‘new’’ if it either

Resp. App. 20

1084

935 FEDERAL REPORTER, 3d SERIES

‘‘breaks new ground or imposes a new
obligation on the States or the Federal
Government,’’ or its ‘‘result was not dictated by precedent existing at the time the
defendant’s conviction became final.’’ Teague v. Lane, 489 U.S. 288, 301, 109 S.Ct.
1060, 103 L.Ed.2d 334 (1989). A result is
not dictated by precedent if ‘‘reasonable
jurists could have differed as to whether
[precedent] compelled’’ the result. Beard,
542 U.S. at 414, 124 S.Ct. 2504. If the rule
is not new, the petitioner may ‘‘avail herself of the decision on collateral review.’’
Chaidez, 568 U.S. at 347, 133 S.Ct. 1103.
But ‘‘if the rule is new,’’ it is not retroactively applicable on collateral review unless
‘‘it falls within either of the two exceptions
to nonretroactivity.’’ Beard, 542 U.S. at
414, 124 S.Ct. 2504.
[21] When
the
Supreme
Court
‘‘appl[ies] a general standard to the kind of
factual circumstances it was meant to address, [it] will rarely state a new rule.’’
Chaidez, 568 U.S. at 348, 133 S.Ct. 1103.
And the Supreme Court’s post-Atkins jurisprudence has expressly confirmed that
its reliance on the clinical standards endorsed in Atkins constitutes a mere application of that case. We thus conclude these
cases do not state a new rule. As the
Supreme Court explained in Hall:
Atkins did not give the States unfettered
discretion to define the full scope of the
constitutional protection. The Atkins
Court twice cited definitions of intellectual disability TTTT Atkins itself not only
cited clinical definitions for intellectual
disability but also noted that the States’
standards, on which the Court based its
own conclusion, conformed to those definitions TTTT The clinical definitions of
intellectual disability, which take into account that IQ scores represent a range,
not a fixed number, were a fundamental
premise of Atkins TTT If the States were
to have complete autonomy to define
intellectual disability as they wished, the

Court’s decision in Atkins could become
a nullity, and the Eighth Amendment’s
protection of human dignity would not
become a reality. This Court thus reads
Atkins to provide substantial guidance
on the definition of intellectual disability.
572 U.S. at 720-21, 134 S.Ct. 1986 (emphasis added); see also Michael Smith, 824
F.3d at 1243 (‘‘The Court in Atkins did,
however, base its analysis on clinical definitions of intellectual disability.’’); Hooks,
689 F.3d at 1166 (‘‘[T]he definition of mental retardation TTT although dependent on
state law (here, Murphy), ultimately has
Eighth Amendment underpinnings pursuant to Atkins.’’). And the Supreme Court
reiterated this reading of Atkins in Moore
v. Texas (Moore II), ––– U.S. ––––, 139 S.
Ct. 666, ––– L.Ed.2d –––– (2019), explaining that ‘‘[w]hile our decisions in Atkins
and Hall left to the States the task of
developing appropriate ways to enforce the
restriction on executing the intellectually
disabled, a court’s intellectual disability determination must be informed by the medical community’s diagnostic framework.’’
Id. at 669 (citations and quotations omitted).
As in Strickland, the Supreme Court in
Atkins declared ‘‘a rule of general application TTT designed for the specific purpose
of evaluating a myriad of factual contexts.’’
Chaidez, 568 U.S. at 348, 133 S.Ct. 1103
(quotation omitted). The application of this
general rule to Hall, Moore v. Texas
(Moore I), ––– U.S. ––––, 137 S. Ct. 1039,
197 L.Ed.2d 416 (2017), and Moore II cannot be understood to ‘‘yield[ ] a result so
novel that it forges a new rule, one not
dictated by precedent’’, Chaidez, 568 U.S.
at 348, 133 S.Ct. 1103 (quotation omitted),
in light of the Court’s proclamation in Hall
that ‘‘Atkins TTT provide[s] substantial
guidance on the definition of intellectual
disability,’’ 572 U.S. at 721, 134 S.Ct. 1986.
The Court’s application of Atkins more
closely resembles, for example, our conclu-

Resp. App. 21

SMITH v. SHARP
Cite as 935 F.3d 1064 (10th Cir. 2019)

sion that the extension of Strickland’s
guarantee of effective counsel to the pleabargaining context merely applied Strickland rather than created a new rule. In re
Graham, 714 F.3d 1181, 1183 (10th Cir.
2013) (per curiam).
Accordingly, we consider on de novo review the Supreme Court’s application of
Atkins in Hall, Moore I, and Moore II. The
Court’s decisions in Moore I and Moore II,
which directly address the adaptive functioning component of the clinical definitions that Atkins mandated, make clear
that no reasonable jury could conclude
Smith failed to establish by a preponderance of evidence that he suffered deficits
in at least two areas of adaptive functioning, with the most compelling evidence
concerning academics and communication.
And the State conceded at oral argument
that Smith demonstrated significant limitations in adaptive functioning in the academics category.
Dr. Hopewell, the only expert to conduct
a formal assessment of Smith’s adaptive
functioning capacities, concluded Smith
suffers from profound deficits in at least
five of the nine adaptive functioning areas:
communication; academics; social skills;
home living; and health and safety. Dr.
Hopewell based this assessment on the
Vineland Adaptive Behavior Scales assessment; his own interactions with Smith; and
his review of Department of Corrections
testing on Smith’s adaptive functions,
which revealed significant deficits in reading, writing, and personal finances (placing
Smith at the third and fifth grade levels).
With regard to Smith’s significant communication deficits, Dr. Hopewell noted that
12. Although Dr. Call heavily criticized Dr.
Hopewell’s administration of the Vineland
test directly to Smith, rather than a caretaker,
it remains the only formal assessment of
adaptive functioning conducted at the time of
Smith’s Atkins trial. And, as Dr. Hopewell
explained, his analysis of Smith’s deficits in
adaptive functioning was not wholly reliant

1085

Smith could not keep a cellmate because
his fellow prisoners would become bored
with his lack of engagement, and frustrated that he spent much of his time completing grade-school level coloring books.12
Dr. Hopewell also administered the
Wide Range Achievement Test III
(WRAT-III), intended to assess an individual’s ability in reading, writing, and arithmetic to substantiate the finding of significant deficits in the functional academics
category of adaptive functioning. Smith
scored at the kindergarten or first grade
level in each academic area, at or below
two standard deviations from the mean.
Dr. Hopewell characterized Smith as functionally illiterate, unable to read more than
a few words at a very basic level.
And Smith’s teachers from high school
confirmed his illiteracy, with one teacher
testifying that she never asked Smith to
read aloud because of his illiteracy, and
another stating it was ‘‘very, very likely’’
that he graduated high school without having learned to read. Smith was unable to
fill out job applications without the assistance of his teachers. Evidence of Smith’s
adult illiteracy arose out of his employment; one teacher in the school where
Smith worked as a custodian noted that he
was unable to read notes containing special
cleaning requests. And we noted the evidence that ‘‘Smith is completely illiterate’’
in resolving Smith’s first habeas petition.
Smith v. Mullin, 379 F.3d at 941.
Only Smith presented a standardized assessment of his adaptive behavior; contrary to the AAMR’s recommendations,
the State neither conducted nor presented
on the Vineland assessment, because he determined many of Smith’s deficits to be manifest
without testing, and thus ‘‘pathological.’’ Dr.
Hopewell also made efforts to independently
verify or corroborate Smith’s deficits by
speaking with his nurse, prison guards, and
his attorneys.

Resp. App. 22

1086

935 FEDERAL REPORTER, 3d SERIES

a single standardized assessment of
Smith’s adaptive behavior. AAMR, Mental
Retardation: Definition, Classification, and
Systems of Supports at 83 (10th ed. 2002)
(‘‘Regardless of the purpose of diagnosis
TTT adaptive behavior should be measured
with a standardized instrument that provides normative data on people without
mental retardation.’’). The evidence Smith
presented, including the only formal assessment of his deficits in adaptive functioning corroborated by expert testimony
and testimony from Smith’s teachers and
colleagues about his deficits, thus overwhelmingly supports Smith’s claim that he
satisfies the third Murphy prong.
The evidence the State emphasizes on
appeal to refute Smith’s adaptive functioning argument carries little weight in light
of the Supreme Court’s warnings against
undue emphasis on ‘‘perceived adaptive
strengths,’’ Moore I, 137 S. Ct. at 1050,
and ‘‘lay stereotypes of the intellectually
disabled,’’ id. at 1052. As the Supreme
Court explained in Moore I:
[T]he medical community focuses the
adaptive-functioning inquiry on adaptive
deficits. E.g., AAIDD–11, at 47 (‘‘significant limitations in conceptual, social, or
practical adaptive skills [are] not outweighed by the potential strengths in
some adaptive skills’’); DSM–5, at 33, 38
(inquiry should focus on ‘‘[d]eficits in
adaptive functioning’’; deficits in only
one of the three adaptive-skills domains
suffice to show adaptive deficits).
Id. at 1050 (alterations in original); see
also Brumfield, 135 S. Ct. at 2281 (‘‘[I]ntellectually disabled persons may have
‘strengths in social or physical capabilities,
strengths in some adaptive skill areas, or
strengths in one aspect of an adaptive skill
in which they otherwise show an overall
limitation.’ ’’ (quoting AAMR, Mental Retardation: Definition, Classification, and
Systems of Supports at 8 (10th ed. 2002))).

[22, 23] Evidence that rests on lay
stereotypes about the intellectually disabled, such as the incorrect stereotypes
that they cannot have jobs or relationships, is similarly disfavored. See Moore
II, 139 S. Ct. at 672. As the Court explained in Moore I, ‘‘the medical profession
has endeavored to counter lay stereotypes
of the intellectually disabled’’ and ‘‘[t]hose
stereotypes, much more than medical and
clinical appraisals, should spark skepticism.’’ 137 S. Ct. at 1052. In light of the
Supreme Court’s admonitions against consideration of adaptive strengths and lay
stereotypes, no rational jury could decide
that Smith failed to demonstrate by a preponderance of evidence deficits in adaptive
functioning. All the evidence emphasized
by the State falls into one or both of those
two disfavored categories.
The State first emphasizes the testimony of Smith’s former prison case manager,
Watts, who testified that Smith could communicate with her and ‘‘use manipulative
behavior to get a more desirable cell or
cellmate.’’ However, Watts has no experience with intellectual disabilities, and the
State’s own expert acknowledged at the
proceeding that the intellectually disabled
can lie. Additionally, the Supreme Court
has ‘‘caution[ed] against reliance on
adaptive strengths developed in prison.’’
Moore II, 139 S. Ct. at 671 (quotation
omitted); Moore I, 137 S. Ct. at 1050 (citing DSM-5 for the proposition that
‘‘[a]daptive functioning may be difficult to
assess in a controlled setting (e.g., prisons,
detention centers); if possible, corroborative information reflecting functioning outside those settings should be obtained’’).
Reliance on the testimony of Smith’s
insurance agent and work supervisor by
the State is similarly unavailing. As with
Smith’s prison case manager, these individuals have no experience in diagnosing
intellectual disability, and based their opin-

Resp. App. 23

SMITH v. SHARP
Cite as 935 F.3d 1064 (10th Cir. 2019)

ions exclusively on lay stereotypes. Moreover, the testimony of Smith’s insurance
agent concerned two interactions with
Smith over ten years earlier cumulatively
taking roughly an hour. The mere fact that
Smith’s insurance company wanted to hire
him, or that his work supervisor did not
have problems with Smith’s performance
of his work duties, is of limited significance. The Supreme Court has repudiated
the notion that persons with intellectual
disability ‘‘never have TTT jobs’’ when ‘‘it is
estimated that between nine and forty percent of persons with intellectual disability
have some form of paid employment.’’
Moore II, 139 S. Ct. at 672 (citations and
quotations omitted). Even if clinically informed, evidence of perceived adaptive
strengths such as the ability to hold down
a job does not constitute ‘‘evidence adequate to overcome TTT objective evidence
of [the individual’s] adaptive deficits.’’
Moore I, 137 S. Ct. at 1050. As Dr. Hopewell explained in his testimony, a workrelated deficit in adaptive functioning does
not require the individual be incapable of
work; instead, the deficit is assessed
against the population in general, the overwhelming majority of which can perform
work at a much higher level than can
Smith.

1087

moved because Smith thought the prosecutor was making faces at him, which the
prosecutor denied making at the Atkins
trial. And the Supreme Court has warned
against using papers an individual files in
court as convincing evidence of communication skills, especially where, as in this
case, evidence suggests the papers were
written by a cellmate. See Moore II, 139 S.
Ct. at 671 (noting such evidence ‘‘lacks
convincing strength without a determination about whether [the individual] wrote
the papers on his own’’). Further, Smith’s
counsel from his criminal trial refuted the
State’s suggestion that Smith played any
role in his own defense, testifying that
Smith spent most of the trial drawing and
did not have ‘‘much of a clue about what
was going on.’’

Reference to the testimony of an assistant district attorney from the team that
prosecuted Smith’s initial criminal trial
does not overcome the strong medical evidence of significant deficits in adaptive
functioning. The assistant district attorney
testified that Smith filed and presented
several motions on his behalf, and made
good arguments in support of those motions. But one of those motions was a
request that the prosecutor’s table be

The State next emphasizes Smith’s relationship with Laura Dich to refute Smith’s
evidence of deficits in adaptive functioning.
Such emphasis further evinces impermissible ‘‘reliance upon TTT lay stereotypes of
the intellectually disabled,’’ as the Court
has warned against adopting the ‘‘incorrect
stereotypes that persons with intellectual
disability never have [relationships].’’
Moore II, 139 S. Ct. at 672 (quotations
omitted). And the State makes no efforts
on appeal to provide any scientific or clinical justifications that would render meaningful evidence of Smith’s relationships.13
Even if we were to accept the lay stereotype evidence above as relevant, the
State’s failure to connect that evidence to
any areas of adaptive functioning renders
the evidence uncompelling in this context.
See Van Tran, 764 F.3d at 612 (‘‘[T]he
[state court] unreasonably determined that
Van Tran was not intellectually disabled.

13. The testimony of Dr. Call, the State’s primary expert witness, provides no such basis.
Dr. Call acknowledged that the intellectually
disabled can lie, hold a job, work hard, drive,
cook, clean, use a telephone, marry, and love.
To the extent the State would rely upon Dr.

Call’s testimony to refute Smith’s showing of
deficits in adaptive function, Dr. Call explicitly acknowledged that he did not assess Smith
using any ‘‘standardized instrument,’’ and
could therefore not definitively testify to
Smith’s deficits in adaptive functioning.

Resp. App. 24

1088

935 FEDERAL REPORTER, 3d SERIES

The [state court] emphasized too heavily in
its analysis the facts of the crime, which
are not relevant to the analysis of most of
the areas of adaptive behavior, especially
that of functional academics.’’).
In sum, Atkins and its progeny prohibit
states from ‘‘disregard[ing] established
medical practice.’’ Moore I, 137 S. Ct. at
1049 (alteration in original). ‘‘[O]ur precedent [does not] license disregard of current medical standards.’’ Id. And our review of the record indicates Smith could
only fail to establish by a preponderance of
evidence significant deficits in adaptive
functioning in at least two of the enumerated areas if the jury disregarded medical
standards in favor of lay stereotypes and
undue emphasis on adaptive strengths in
the precise manner prohibited by the Supreme Court in Moore I and Moore II.
Only speculation or conjecture based on
lay stereotype could support a jury verdict
finding Smith failed to demonstrate significant deficits in adaptive functioning. And
‘‘[w]hile the jury may draw reasonable inferences from direct or circumstantial evidence, an inference must be more than
speculation and conjecture to be reasonable.’’ Torres, 461 F.3d at 1313 (quotation
omitted).
Because Smith has demonstrated a reasonable jury would have been compelled to
conclude he satisfied all three prongs of
the Murphy test, we reverse the district
court’s denial of his habeas petition for
relief on this claim.
14. We also need not address Smith’s cumulative error argument for purported aggregated
constitutional violations. ‘‘A cumulative-error
analysis merely aggregates all the errors that
individually have found to be harmless, and
therefore not reversible, and it analyzes
whether their cumulative effect on the outcome of the trial is such that collectively they
can no longer be determined to be harmless.’’

B
Because we grant habeas relief on
Smith’s sufficiency of evidence Atkins challenge, we do not need to address Smith’s
Atkins challenge to the ‘‘present and
known’’ jury instruction or his claims of
ineffective assistance of counsel at his Atkins proceedings. See Pruitt, 788 F.3d at
270 (‘‘[Petitioner] raises three alleged errors in support of his ineffective-assistance-of-counsel claim, but we need address only one—whether trial counsel was
ineffective at the penalty phase in investigating and presenting evidence that [petitioner] suffered from paranoid schizophrenia.’’). Were we to grant Smith relief on
those claims, the appropriate remedy
would entitle Smith to relitigate intellectual disability at a new Atkins trial. But we
hold Smith is intellectually disabled as a
matter of law and therefore constitutionally ineligible for execution. Accordingly, any
relief we could grant on Smith’s remaining
claims concerning his Atkins trial would be
meaningless because the State is not permitted to conduct a new Atkins trial.14
We must nevertheless consider Smith’s
ineffective assistance of counsel claim concerning counsel’s representation at the
competency and resentencing trials. The
relief Smith seeks on that claim could require the OCCA to vacate his sentences
and order a new competency trial. Only if
Smith were found competent could the
OCCA then order resentencing, including
on Smith’s three murder convictions for
which he was not sentenced to death. AcHanson v. Sherrod, 797 F.3d 810, 852 (10th
Cir. 2015) (quotation omitted). Because we
reverse only on Smith’s claim that the Eighth
Amendment prohibits his execution, there are
no harmless errors to aggregate. Id. at 853
(‘‘Because [petitioner] has failed to prove at
least two errors, we have no occasion to apply
a cumulative error analysis.’’).

Resp. App. 25

SMITH v. SHARP
Cite as 935 F.3d 1064 (10th Cir. 2019)

cordingly, we address this claim and affirm
the district court’s denial of habeas relief.
Smith argues his counsel at the competency and resentencing trials, and attendant direct appeal, was constitutionally ineffective for failing to present to the jury a
video recording of an interview with Smith,
which he contends would have shown his
humanity and intellectual disability. Specifically, Smith argues that counsel was ineffective in these proceedings for failing to
call Anna Wright, a mental health worker
at the Oklahoma County jail, to testify and
sponsor the introduction of a video recording of Smith speaking. Wright assisted in a
video interview of Smith conducted in
preparation for one of Smith’s prior cell
mate’s clemency hearing. Smith claims this
video would have made clear his intellectual disability and demonstrated his humanity to the juries in those proceedings. Smith
also attaches an auxiliary ineffective assistance of appellate counsel claim to this
failure, arguing his appellate counsel at
resentencing was ineffective for failing to
raise the deficiency of his trial counsel on
direct appeal.
1
[24] The Sixth Amendment guarantees
a criminal defendant ‘‘the right TTT to have
Assistance of Counsel for his defense.’’
U.S. Const. amend. VI. Criminal defendants’ constitutional right to counsel encompasses post-conviction Atkins proceedings. Hooks, 689 F.3d at 1184. (‘‘We have
concluded that defendants in Atkins proceedings have the right to effective counsel
secured by the Sixth and Fourteenth
Amendments.’’).
[25] The right to counsel requires a
minimum quality of advocacy from a professional attorney. See Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80
L.Ed.2d 674 (1984). A defendant can establish a constitutional violation of the right to
counsel where ‘‘counsel’s performance was

1089

deficient,’’ and ‘‘the deficient performance
prejudiced the defense.’’ Id. at 687, 104
S.Ct. 2052. ‘‘These two prongs may be
addressed in any order, and failure to satisfy either is dispositive.’’ Hooks, 689 F.3d
at 1186.
[26–28] To establish deficient performance, ‘‘the defendant must show that counsel’s representation fell below an objective
standard of reasonableness’’ as assessed
from counsel’s perspective at the time.
Strickland, 466 U.S. at 688, 104 S.Ct. 2052.
In this way, ‘‘hindsight is discounted by
pegging adequacy to counsel’s perspective
at the time investigative decisions are
made.’’ Rompilla, 545 U.S. at 381, 125 S.Ct.
2456 (quotation omitted). In so doing, we
determine ‘‘whether an attorney’s representation amounted to incompetence under
prevailing professional norms, not whether
it deviated from best practices or most
common custom.’’ Richter, 562 U.S. at 105,
131 S.Ct. 770. And ‘‘counsel is strongly
presumed to have rendered adequate assistance and made all significant decisions
in the exercise of reasonable professional
judgment.’’ Hooks, 689 F.3d at 1168 (quotation omitted); see also Strickland, 466
U.S. at 689, 104 S.Ct. 2052 (‘‘[A] court
must indulge in a strong presumption that
counsel’s conduct falls within the wide
range of reasonable professional assistance; that is, the defendant must overcome the presumption that, under the circumstances, the challenged action might
be considered sound trial strategy.’’ (quotation omitted)). ‘‘In other words, [counsel’s performance] must have been completely unreasonable, not merely wrong.’’
Byrd, 645 F.3d at 1168 (quotation omitted).
[29–31] ‘‘[T]o establish prejudice, the
defendant must show that, but for counsel’s deficient performance, there is a
reasonable probability the result of the
proceeding would have been different.’’
Michael Smith, 824 F.3d at 1249. ‘‘[I]n

Resp. App. 26

1090

935 FEDERAL REPORTER, 3d SERIES

the capital-sentencing context, if the petitioner demonstrates that there is a reasonable probability that at least one juror
would have refused to impose the death
penalty, the petitioner has successfully
shown prejudice under Strickland.’’
Grant, 886 F.3d at 905 (quotation omitted). ‘‘The likelihood of a different result
must be substantial, not just conceivable.’’
Richter, 562 U.S. at 112, 131 S.Ct. 770.
To assess ‘‘whether an inadequate investigation prejudiced a habeas petitioner, we
reweigh the evidence on both sides, this
time accounting for the petitioner’s proposed additions,’’ and ‘‘account for how
the state would have responded to the
omitted evidence.’’ Postelle v. Carpenter,
901 F.3d 1202, 1217 (10th Cir. 2018) (quotation omitted), cert denied, ––– U.S.
––––, 139 S.Ct. 2668, 204 L.Ed.2d 1073
(2019).
In cases in which the OCCA has adjudicated a Strickland claim on the merits, our
review of the OCCA decision is ‘‘doubly
deferential’’ because ‘‘[w]e take a highly
deferential look at counsel’s performance
through the deferential lens of [AEDPA].’’
Pinholster, 563 U.S. at 190, 131 S.Ct. 1388
(citations and quotations omitted). Applying, AEDPA deference, we must ‘‘determine whether reasonable jurists could
agree with the OCCA that [Smith’s] trial
and appellate counsels acted reasonably.’’
Johnson v. Carpenter, 918 F.3d 895, 900
(10th Cir. 2019). But, as explained supra,
we do not apply this double deference to
an unadjudicated Strickland prong if the
OCCA’s decision rests entirely on a single
prong. See, e.g., Porter, 558 U.S. at 39, 130
S.Ct. 447.
2
The parties agree that the OCCA adjudicated the merits of Smith’s ineffective
assistance of counsel claims concerning
Wright’s testimony and the attendant
video. See OCCA Resentencing and Competency Op. at 9-10 n.5. The OCCA ad-

dressed deficient performance and prejudice, holding both that Smith failed to
demonstrate counsel’s purported failings
amounted to more than a strategic decision and that Smith failed to demonstrate
the omitted materials are ‘‘of a character
substantially different from the evidence
that trial counsel ultimately chose to
use,’’ rendering their omission immaterial. Id. The OCCA also explained Wright
had characterized her interactions with
Smith as limited, and that the interview’s
persuasive force on the question of
Smith’s intellectual functioning was debatable. Id.
Smith nonetheless contends we should
review these ineffective assistance claims
de novo because the OCCA ‘‘misidentified’’
the allegations by holding Smith alleged
mere strategic error rather than counsels’
failures to investigate and prepare. He relies on Chadwick v. Janecka, 312 F.3d 597
(3d Cir. 2002), in which that court stated
‘‘if an examination of the opinions of the
state courts shows that they misunderstood the nature of a properly exhausted
claim and thus failed to adjudicate that
claim on the merits, the deferential standards of review in AEDPA do not apply.’’
Id. at 606. Smith explains that he couched
his ineffective assistance claim in terms of
counsels’ failure to develop, prepare, and
investigate for trial.
But the OCCA need not accept an inaccurate characterization of a claim to adjudicate that claim on the merits. And the
OCCA did not misconstrue Smith’s claim
by concluding that he alleges only an imprecise strategic decision by counsel.
OCCA Resentencing and Competency Op.
at 9-10. Smith does not and cannot dispute
that his counsel was aware of Wright and
the video testimony because counsel provided notice that she intended to present
Wright at the competency and resentencing trials and intended to have her authen-

Resp. App. 27

SMITH v. SHARP
Cite as 935 F.3d 1064 (10th Cir. 2019)

ticate and sponsor the video recording in
question. Any failure to present the evidence thus cannot amount to a failure to
investigate; counsel merely chose not to
present the evidence after investigating.
The OCCA’s presumption that counsel
made an appropriate strategic decision not
to present the evidence thus properly understands Smith’s argument. See Burt v.
Titlow, 571 U.S. 12, 22-23, 134 S.Ct. 10, 187
L.Ed.2d 348 (2013) (noting the strong presumption that counsel ‘‘made all significant
decisions in the exercise of reasonable professional judgment’’ (quotation omitted)).
Accordingly, because the OCCA sufficiently understood Smith’s resentencing and
competency ineffective assistance claims to
have adjudicated those claims on the merits, we afford ‘‘both the state court and the
defense attorney the benefit of the doubt’’
required by AEDPA. Woods v. Donald,
––– U.S. ––––, 135 S. Ct. 1372, 1376, 191
L.Ed.2d 464 (2015) (quotation omitted).

1091

intended to present Wright and the video
at the hearings in question.
This analysis would not change even
were we to consider the affidavits submitted for the first time on habeas review.
The affidavit from Smith’s trial counsel
during the resentencing and competency
hearings states only that trial counsel
could not recall why she did not call
Wright to testify. Because, at best, the
‘‘evidence establishes that there is no discernable explanation for counsel’s failure
to call’’ the witness in question, Smith
‘‘most certainly ha[s] not overcome the
strong presumption that counsel’s conduct
fell within the wide range of reasonable
professional assistance.’’ Sallahdin v. Mullin, 380 F.3d 1242, 1248-49 (10th Cir. 2004)
(quotation omitted).

[32] Applying this standard, we reject
Smith’s claim that counsel inadequately investigated and prepared for trial by failing
to submit evidence of which counsel was
fully aware. Smith submits an affidavit
from his trial counsel, attesting that her
failure to present Wright and the video
was due to a ‘‘lack of investigation and
preparation.’’ We may not consider this
affidavit on habeas review because it was
not presented to the OCCA. Pinholster,
563 U.S. at 181, 131 S.Ct. 1388 (‘‘[R]eview
under § 2254(d)(1) is limited to the record
that was before the state court that adjudicated the claim on the merits.’’).15 Smith
conceded before the OCCA that trial counsel was aware of Wright and the video
because counsel provided notice that she

Smith contends the OCCA’s deficiency
determination is unreasonable because the
OCCA declined to identify any strategic
justification for the failure of his counsel to
present Wright’s testimony and the attendant video. But ‘‘[i]t should go without
saying that the absence of evidence cannot
overcome the strong presumption that
counsel’s conduct fell within the wide
range of reasonable professional assistance.’’ Titlow, 571 U.S. at 23, 134 S.Ct. 10
(quotation omitted). That presumption
places ‘‘the burden to show that counsel’s
performance was deficient TTT squarely
on’’ Smith, id. at 22-23, 134 S.Ct. 10, and
Smith fails to identify any support in the
record to carry that burden. Moreover,
after review of the video recording, we do
not consider the OCCA’s conclusion that
the ‘‘persuasive force’’ of the evidence was
‘‘debatable,’’ OCCA Resentencing and

15. Smith asserts on appeal that we may consider the affidavits of trial and appellate counsel because the OCCA never adjudicated
Smith’s allegations of deficient performance.
This assertion fails for the same reason as
Smith’s efforts to free this claim from the
confines of AEDPA deference: the OCCA’s re-

jection of Smith’s characterization of his
claim does not preclude it from adjudicating
that claim on the merits. And the OCCA plainly did adjudicate this claim on the merits,
holding that Smith failed to satisfy either
prong of the Strickland analysis. OCCA Resentencing and Competency Op. at 9-10.

Resp. App. 28

1092

935 FEDERAL REPORTER, 3d SERIES

Competency Op. at 10 n.5, to be an ‘‘unreasonable determination,’’ § 2254(d)(2).
Relying upon Bullock v. Carver, 297
F.3d 1036 (10th Cir. 2002), Smith also argues that an ‘‘objectively unreasonable’’
strategic decision may satisfy the deficient
performance prong of the Strickland analysis. Id. at 1051. But Smith has failed to
carry his burden to establish the objectively unreasonable nature of that decision in
light of the OCCA’s determination that the
evidence was of little utility because of
Wright’s limited interactions with Smith
and the debatable value of the video.16
Accordingly, we conclude that Smith has
failed to demonstrate ineffective assistance
of trial counsel for failure to call Wright as
a witness to sponsor the introduction of
the video interview of Smith. And because
trial counsel’s performance was neither deficient nor prejudicial for failing to introduce the evidence in question, Smith’s ineffective assistance of appellate counsel
necessarily fails. Johnson, 918 F.3d at 906
(‘‘[B]ecause we conclude that trial counsel
was not deficient TTT [Petitioner’s] auxiliary claim cannot succeed. Appellate counsel
cannot be ineffective for omitting an unsuccessful issue on appeal.’’).17
IV
For the foregoing reasons, we REVERSE in part and AFFIRM in part the
district court’s decision denying Smith’s
§ 2254 petition for a writ of habeas corpus.
16. Moreover, even if Smith’s counsel performed deficiently, Smith fails to demonstrate
the OCCA’s prejudice determination was unreasonable. Smith contends the video renders
obvious his humanity and intellectual disability, and emphasizes the uniquely persuasive
nature of video evidence. ‘‘The likelihood of a
different result must be substantial, not just
conceivable.’’ Richter, 562 U.S. at 112, 131
S.Ct. 770. And Smith fails to demonstrate that
the OCCA obviously erred in concluding the
video recording did not present substantially
different evidence of Smith’s intellectual dis-

We REMAND with instructions to grant a
conditional writ vacating Smith’s death
sentence and remanding to the State.

,
Malik M. HASAN, M.D.; Seeme
G. Hasan, Plaintiffs Appellants,
v.
AIG PROPERTY CASUALTY COMPANY, a Pennsylvania corporation, Defendant - Appellee.
No. 18-1309
United States Court of Appeals,
Tenth Circuit.
FILED August 27, 2019
Background: Insureds filed state court
action against insurer to recover under
private collections insurance policy for alleged loss of wine bottles that were not
delivered to them by retailer whom they
had paid for wine. After removal, the United States District Court for the District of
Colorado, No. 1:16-CV-02963-RM-MLC,
Raymond P. Moore, J., entered summary
judgment in insurer’s favor, and denied
insureds’ motion for leave to amend. Insureds appealed.
ability and humanity from the materials counsel did use at the resentencing and competency proceedings. See Johnson, 913 F.3d at 902
(concluding the omission of video evidence
was not prejudicial because the jury had already heard significant testimony in support
of the issue that the omitted video evidence
would have bolstered).
17. Because we reject as unmeritorious
Smith’s ineffective assistance claim, we also
reject as unnecessary Smith’s request for an
evidentiary hearing on the question.

Resp. App. 29

,111.m~

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 2 of 26
!N COURT OF CRIMINAL APPEALS

ATTACHMENT B

·STATE OF nKLAHOMA

JAN 2 9 200-1

IN THE COURT OF CRIMINAL APPEALS OF THE

STA1;Jt81AR1%.~~
CLERK

V.

)
)
)
)
)

THE STATE OF OKLAHOMA,

)
)

RODERICK L. SMITH,
Appellant,

NOT FOR PUBLICATION
No. 0-2006-683

)

Appellee.

)

ACCELERATED DOCKET ORDER

Roderick Smith was convicted by jury and sentenced to death for the 1993
murders of his wife and four step-children.

Following the denial of both his

direct appeal and his original application for post-conviction relief, 1 Smith filed a
successor application for post-conviction relief, claiming he cannot be executed
because he is mentally retarded. 2 This Court granted the successor application
in part and remanded the matter for a jury trial on the issue of whether Smith-is

mentally retarded. 3

The district court conducted a six-day jury trial in March

2004 and the jury found that Smith was not mentally retarded.

Smith appealed

the jury's verdict to this Court. While that appeal was pending here, the Tenth
Circuit Court of Appeals granted Smith a writ of habeas corpus and vacated his
death sentence because of ineffective assistance of counsel during his capital
sentencing proceeding.

Smith u. Mullin, 379 F.3d 919 (10th Cir.2004). Smith;s

Smith v. State, 1996 OK CR 50, 932 P.2d 521 (direct appeal); Smith v. State, 1998 OK CR 20, 955
P.2d 734 (post-conviction).
1

1

Resp. App. 30

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 3 of 26

capital post-conviction counsel moved to dismiss the appeal from Smith's mental
retardation trial, which was part of his capital post-conviction case, for lack of
jurisdiction because Smith was no longer under a death sentence. This Court
dismissed that appeal without prejudice and without ruling on the merits of his

claims related to his jury trial on mental retardation. 4
Smith's case is now pending before the district court for a new capital
sentencing proceeding. There, he moved to quash the Bill of Particulars, alleging
that he is mentaliy retarded and thus ineligible for the death penalty under

Atkins v. Virginia, 536 U.S. 304, 122 S.Ct. 2242, 153 L.Ed.2d 335 (2002). The
district court reluctantly granted Smith's request for a second jury trial on the
issue of mental retardation and the State appealed.

On May 26, 2006, this

Court issued an Order assuming original jurisdiction and granting a writ of
prohibition. We found that rather than being entitled to a second jury trial on an
issue already decided by a jury, that Smith should be allowed to pursue an
appeal out-of-time of the verdict from his earlier jury trial finding him not
mentally retarded to determine if that verdict should stand. State ex rel. Lane v.
Bass, Case No. PR-2006-509. Smith sought and was granted this appeal out-of-

time and his case was assigned to the Accelerated Dqcket of this Court pursuant

v. Virgi.nia, 536 U.S. 304, 122 S.Ct. 2242, 153 L.Ed.2d 335 (2002) (holding it
unconstitutional to execute mentally retarded persons).
3 Smith v. State, Case No. PCD-2002-973 (Okl.Cr. August 5, 2003).
4 Smith v. State, Case No. PCD-2002-973 (Okl.Cr. Nov. 10,2004).
2Atkins

2

1s

Resp. App. 31

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 4 of 26

to the procedure outlined in Blonner v. State, 2006 OK CR 1, 127 P.3d 1135. 5
The Court heard oral argument on Smith's claims of error on January 18, 2007,
and took the matter under advisement. We now affirm the jury's verdict finding
that Smith is not mentally retarded.
Smith argues in his first proposition that the district court erred 1n
allowing Detective Maddox to testify, over objection, that the concealing of
evidence and altering of the crime scene were thoughtful, deliberate actions
undertaken by Smith to avoid detection and which show that Smith is capable of
logical reasoning. He maintains this testimony was beyond Detective Maddox's
personal knowledge and is nothing but speculation.
A trial court's decision to admit evidence will not be disturbed on appeal
absent a showing of abuse of discretion accompanied by prejudice.

Howell v.

State, 2006 OK CR 28, ,r 33, 138 P.3d 549, 561. Detective Maddox testified that
he was the lead investigator in the crime for which Smith was convicted.

He

explained that evidence at the crime scene was hidden in closets and in the attic
and that a bed had been "remade" in such a way as to conceal evidence hidden
underneath it. He further explained that police determined that the carpet at the
scene had been cleaned based on tracks in the carpet consistent with a carpet
cleaning machine and tests confirming that evidence on the carpet had been
removed through a cleaning process. The prosecutor asked Detective Maddox

The State filed a motion to reconsider this Court's earlier decision accepting Smith's petition in
error as timely based on the unique and complex procedural circumstances of this case. We have
reviewed the motion to reconsider and find that it should be DE~D.
5

3

Resp. App. 32

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 5 of 26

what the condition of the crime scene indicated to him about the mental ability
of the perpetrator and Maddox testified that the placement of the evidence
indicated the perpetrator thoughtfully hid evidence to avoid detection.
The district court did not err in allowing this testimony. Jurors were told
that Smith had been found guilty of a crime, but neither the crime itself nor the
sentence imposed was revealed. Throughout the trial, no reference was made to
the death penalty, capital punishment, or death row. 6 No facts of the murders
Smith committed were introduced and the district court confined the evidence to
the narrow issue of mental retardation.

Smith's ability to recognize the

wrongfulness of his criminal acts and to conceal evidence of his crimes is
relevant to the issue of whether he is capable of logical reasoning and whether he
is mentally retarded.

The evidence regarding the crime scene was presented

without prejudicial details of the crime itself to comport with our prior decisions
concerning admission of evidence related to the crime and admission of this
evidence was not unfairly prejudicial. See e.g., Lambert v. State, 2003 OK CR 11,

,r

3, 71 P.3d 30, 31. Maddox's opinion that Smith deliberately hid evidence to

avoid being caught was rationally based on his perceptions of the crime scene
and his dealings with Smith and were helpful to the jury's determination of
whether Smith is mentally retarded. Such lay opinion testimony is admissible
under 12 O.S.2001, § 2701.7 This claim is denied.

The district court granted a mistrial :in an earlier trial on this issue when mention was made of
the death penalty.
7 Title 12 O.S.Supp.2002, § 2701 provides:
6

4

Resp. App. 33

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 6 of 26

Smith claims in his second proposition that the trial court erred in
instructing the jury, over his objection, that mental retardation must be "present
and known'' before age eighteen.

This is the standard uniform instruction

adopted in Murphy v. State, 2002 OK CR 32, 54 P.3d 556, 570 Appendix A. He
·,

contends that the phrase "present and known" is more restrictive than the
Murphy definition, as well as other definitions, of mental retardation.

He

maintains that, while the Murphy language requires only that someone observed
his mental disability as a child, the instruction requires him to prove that his
subaverage intellectual condition was recognized and diagnosed as mental
retardation. This same claim was rejected in Howell, 2006 OK CR 28,

,r

19, 138

P.3d at 558 and Myers v. State, 2005 OK CR 22, if 14, 130 P.3d 262, 269. Smith
has provided no new authority to convince us that our prior decisions on this
issue are wrong. This claim is denied.
Smith argues in his third proposition that the trial court erred in refusing
his request to submit non-unanimous verdict fonns to the jury. This Court has
rejected this claim repeatedly. Howell, 2006 OK CR 28, 1f 19, 138 P.3d at 558;
Hooks v. State, 2005 OK CR 23,

,r

1f 12, 126 P.3d 636, 642; Myers,

2005 OK CR 22,

16, 130 P.3d at 269. Smith offers nothing new to persuade us to revisit the

issue here. This claim is denied.

If the witness is not testifying as an expert, the witness's testimony in the form of
opinions or inferences is limited to those opinions or inferences which are:
1. .
Rationally based on the perception of the witness;
2.
Helpful to a clear understanding of his testimony or the determination of a
fact in issue; and

5

Resp. App. 34

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 7 of 26

Smith complains in his fourth proposition that the jury's verdict is
contrary to the clear weight of the evidence and that the State failed to rebut
evidence of his deficits. When a defendant challenges the sufficiency of the
evidence following a jury verdict finding him not mentally retarded, this Court
reviews the evidence in the light most favorable to the State to determine if any
rational trier of fact could have reached the same conclusion. Myers, 2005 OK
CR 22,

,r

7, 130 P.3d at 267.

Applying this standard of review to the present

case, we find the record supports the jury's verdict that Smith is not mentally
retarded.
It

is

the

defendant's

burden to

prove

mental

preponderance of the evidence. Myers, 2005 OK CR 22,
"He must show:

retardation

by a

,r 6, 130 P.3d at 265-66.

1) that he functions at a significantly sub-average intellectual

level that substantially limits his ability to understand and process information,
to communicate, to learn from experience or mistakes, to engage in logical
reasoning, to control impulses, and to understand the reactions of others; 2) that
.

I

his mental retardation manifested itself before the age of 18; and 3) that he has
significant limitations in adaptive functioning in at least nvo of the nine listed
skill areas." 8 Id.

3.
Not based on scientific, technical or other specialized knowledge within the
scope of Section 2702 of this title.
8 The adaptive functioning skill areas are: communication; self-care; social/interpersonal skills;
home living; self-direction; academics; health and safety; use of community resources; and
work.

6

Resp. App. 35

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 8 of 26

Evidence of Smith's intellectual functioning was controverted at trial by
the experts. 9

Smith's primruy expert, Dr. Clifford Hopewell, tested him in

January 2003 and scored his full scale I.Q. at 55. Dr. Hopewell concluded that
Smith is mildly mentally retarded and that he has adaptive functioning deficits
in at least five areas. Dr. Frederick Smith, another psychologist who evaluated
Smith in prison in 1997, testified that his testing showed that Smith's full scale
I.Q. was 65, some ten points higher than Dr. Hopewell's score. Dr. Smith was

left with the impression during his evaluation that Smith was actually brighter
than what his I.Q. test score showed.

He wrote in a _memo shortly after the

evaluation that he suspected that Smith's score was somewhat low in terms of
accuracy.

Dr. Smith also ad.ministered the Raven's Standard Progressive

Matrices that showed Smith's I.Q. was in the range of 69 to 78. He testified that
he now believes Smith's I.Q. is closer to 70.
The State presented the testimony of forensic psychologist Dr. John Call to
refute Smith's expert evidence of subaverage intellectual functioning.

Dr. Call

gave Smith the Wechsler Adult Intelligence Scale-III (WAIS-III) I.Q. test and
reviewed Dr. Hopewell's data and score on this same test, as well as several other
tests. He found that Smith failed two tests designed to detect malingering given
by Dr. Hopewell. 10 According to Dr. Call, Smith's performance on these two tests
provides significant doubt about his efforts on the WAIS-III I.Q. test and the

Intelligence quotients are one of the many factors that may be considered, but are not alone
determinative. Myers, 2005 OK CR 22, '1[ 8, 130 P.3d at 268.

9

7

Resp. App. 36

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 9 of 26

validity of Dr. Hopewell's overall testing.

Dr. Call also gave Smith one of the

malingering tests (Test of Memory and Malingering) during his evaluation and
found that Smith failed again. Dr. Call concluded that Smith's score suggested a
lack of effort on his part calling into doubt the reliability and validity of the I.Q.
score that both he and Dr. Hopewell obtained. 11

Dr. Call noted a previous I.Q.

test given by Dr. Murphy in 1994 in which Smith scored a full scale I.Q. of 73.
Dr. Call believed lack of effort on Smith's part was one possible explanation to
account for the discrepancy in the subsequent scores. In Dr. Cali's opinion, the
data showed that Smith did not put forth his best efforts during his and Dr.
Hopewell's testing and that Smith's I.Q. test results were unreliable and suspect.
Though evidence of Smith's I.Q. was disputed, the State presented
persuasive evidence from lay witnesses to refute Smith's evidence of subaverage
intellectual functioning and of adaptive functioning deficits.

Emma Watts,

Smith's former case manager, now unit manager in prison, testified that she had
daily contact with Smith for two years while acting as his case manager. Watts
described Smith as quiet and respectful for the most part; he appeared to be like
the other inmates in her unit.

He was able to communicate with her and she

found that he understood how to use manipulative behavior to get a more
desirable cell or cellmate.

10 The tests were the 15-Item Test and the Test of Memory and Malingering commonly referred to
as the TOMM test.
11 Dr. Cali's I.Q. testing of Smith also showed a full scale I.Q. score of 55.

8

Resp. App. 37

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 10 of 26

Ruby Badillo, a provider of financial services, testified that she met with
Smith and his wife twelve years ago about purchasing life insurance.
recalled that Smith was kind and attentive to his wife.

She

She identified their

application and Smith's signature. She said that Smith neither indicated that he
had any physical or mental challenges nor did she suspect that he had any
based on their conversation.

She described Smith as "perfectly normal" and

"very sociable." Smith appeared so personable and capable that Badillo tried to
recruit him to work for her company selling insurance policies and presenting
other financial services to would-be customers.
Mark Woodward, the facilities manager for a company providing custodial
services to local schools, testified that Smith was the head custodian at
Washington Irving Elementary School. Woodward described Smith as the "go-to"
person if something needed to be done at the school. Smith was responsible for
supervising a staff of four to five people working shifts from 7 a.m. until 11 p.m.
and insuring that their time cards were filled out.

Smith had to delegate

custodial duties and, if someone was absent from work, reassign that person's
duties. Woodward identified Smith's job application and signature; he also
identified various forms that Smith had signed or filled out for his employment.
He noted that Smith checked on his job application form that he could read,
write and speak the English language.

Woodward testified that he effectively

communicated with Smith in person and through the use of a digital pager. He
recalled an occasion when he had to reprimand Smith for not wearing his

9

Resp. App. 38

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 11 of 26

uniform and thereafter Smith followed the rules and wore his uniform. According
to Woodward, Smith effectively operated the school's multi-zone alarm system
and cleaning equipment. Woodward described Smith as a typical head janitor.
Fern Smith, one of the assistant district attorneys who prosecuted Smith's
murder case, testified that Smith filed and presented several motions on his own
behalf. She said that Smith was articulate and made "good" arguments to the
· court in support of his motions. She did not notice anything unusual or out of
the ordinary about Smith's demeanor during trial or his
appearances.

many court

She recalled him taking notes and conferring with counsel during

trial. Ms. Smith, who was once a special education teacher of mentally retarded

students, stated there was nothing in her contacts with Smith that led her to
believe that Smith was mentally retarded.
Laura Dich testified that she met Smith in April 1993 at a flea market and
they began dating shortly thereafter.

Smith did not give her his home phone

number, instead he had her use his digital pager number to contact him. Smith
lied to Dich and told her that he lived wifu a cousin instead of with his wife and
step-children and Dich claimed that she was none the wiser. 12

Dich testified

that by the end of May 1993, her relationship with Smith was progressing and
Smith told her that he wanted to many and have children with her. Dich, who
was only 19 years old and still living with her parents, testified that Smith took

12 Once when Dich paged Smith, an upset woman returned the page caus:ing Dich concern, but
Smith convinced her for the most part that he had no other girlfriends.

10

Resp. App. 39

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 12 of 26

her to a motel on several occasions and that it was Smith who rented and paid
for the motel room.
The evidence presented at trial supports a finding that Smith failed to
meet even the first prong of the Murphy definition of mental retardation. The
evidence, viewed in the light most favorable to the State, portrayed Smith as a
person who is able to understand and process information, to communicate, to
understand the reactions of others, to learn from experience or mistakes, and to
engage in logical reasoning.

He held down a job with supervisory functions,

carried on an affair, argued motions on his own behalf and manipulated those
around him. The jury's verdict finding that Smith is not mentally retarded is
justified.
Smith argues in his fifth proposition that the trial court erred in allowing
evidence that he suffers from seizures and has been diagnosed with dissociative
identity disorder, multiple personality disorder and schizophrenia. He contends
that this evidence, admitted through Dr. Hopewell, Dr. Smith and Norman
Cleary, Appellant Smith's cellmate, was irrelevant to the issue of mental
retardation and was unfairly prejudicial. We disagree.
The prosecutor on cross-examination questioned Dr. Hopewell about the
sources he used to form his opinion that Smith is mentally retarded.

He

explained that he did not conduct personal interviews with Smith's family
because it was not necessary to his task.

The prosecutor asked what Dr.

Hopewell's original task was in Smith's case in 1997 and he said that, at that

11

Resp. App. 40

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 13 of 26

time, he was asked to examine Smith for brain damage and dysfunction.

Dr.

Hopewell continued in his response, without objection, that Smith had been
given a variety of diagnoses and that with each diagnosis there was concern
about malingering.

He recounted Smith's various diagnoses,

dissociative

disorder,

identity

schizophrenia,

malingering

and

including
mental

retardation. The prosecutor further questioned Dr. Hopewell about the materials
he reviewed as part of his 1997 evaluation. Ultimately, defense counsel objected
and the trial court admonished the prosecutor to "tie" her questions to the issue
of mental retardation. The prosecutor then asked about brain damage as it
related to mental retardation and whether Dr. Hopewell used portions of his
1997 evaluation to formulate his opinion that Smith is mildly mentally retarded.
The record shows that it was not the State who first questioned Dr. Smith
about his involvement in Smith's case and his I.Q. testing in 1997, but defense
counsel.

Dr. Smith testified that he and two other doctors were investigating

whether Smith had brain damage.

Defense counsel asked Dr. Smith if mental

retardation was also one of the issues being investigated at that time. He said
that they were not looking so much for mental retardation as for other issues,
namely multiple personality disorder, and if Smith was malingering. On crossexamination, the prosecutor confirmed that Dr. Smith was investigating a claim
of multiple personality disorder, a disorder in which Dr. Smith does not believe.
Dr. Smith felt that Smith was being influenced by someone to mold his behavior
to be consistent with a diagnosis of multiple personality disorder.

12

Resp. App. 41

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 14 of 26

The trial court did not commit error, plain or otherwise, in allowing the
challenged testimony of Dr. Hopewell and Dr. Smith and finding that defense
counsel opened the door to much of the testimony. Both doctors provided
background information of their involvement in Smith's case.

Neither was

retained initially to determine if Smith was mentally retarded, but both used
information obtained during earlier evaluations for brain damage to form
opinions about whether Smith is mentally retarded and a malingerer.

Both

doctors explained the circumstances of their earlier evaluations regarding their
investigation of brain damage and other mental illnesses vis a vis their opinions
that Smith is mildly mentally retarded. Such evidence was relevant and did not
unfairly prejudice Smith.

In addition, whether Dr. Smith believed that Smith

had feigned symptoms of some type of multiple personality disorder or other
dissociative identity disorder is relevant to give the jury a full understanding of
Smith's functioning.
Nor did the trial court err in admitting the challenged testimony of Norman
Cleary, Smith's cellmate, and finding that the defense opened the door to much
· of his testimony as well. Cleary described Smith's daily routine of coloring and
watching television. He explained how he tried, without success, to teach Smith
to read. He went into detail about how he had to assist Smith with filling out
requests for medical attention, using the prison canteen and writing letters to
family and friends because Smith was incapable and slow. He also testified that
Smith had seizures after which Smith would be violent. On cross-examination,

13

Resp. App. 42

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 15 of 26

Cleary further described these seizure episodes and said that he documented the
various incidents for one of Smith's attorneys. Questioning Cleary about Smith's
seizures and violent episodes that he alone witnessed was proper to test the
credibility and perceptions of this witness, and was relevant to the issue of
whether Smith is malingering.

The trial court did not abuse its discretion in

admitting this evidence. This claim is denied.
Smith contends in his sixth proposition that his Sixth Amendment right to
confrontation was abridged when the trial court limited his cross-examination of
Dr. Call, who is also a licensed attorney, on an issue of bias, specifically if he cowrote the State's response brief defending the Blackwell Memory Test, a nonstandardized test designed by Dr. Call, himself, to detect malingering. During
cross-examination, defense counsel asked Dr. Call to identify the State's
response brief and the State objected. At the bench, defense counsel told the
court that she believed that Dr. Call prepared most of the brief and that she
wanted to expose his bias and show that Dr. Call was not only acting as a
witness in this matter, but also as an advocate against Smith. The prosecutor
denied that Dr. Call wrote the brief and told the court that the witness had only
provided information about the test to be used in writing the brief.

The trial

court held that, without any evidence to contradict the prosecutor, there was no
good faith basis for the question; defense counsel offered no further evidence to
support the question.

14

Resp. App. 43

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 16 of 26

While the Sixth Amendment guarantees a defendant the right to crossexamine witnesses, it also allows a trial judge to place reasonable limits on
cross-examination. Delaware v. Van Arsdall, 475 U.S. 673, 678-79, 106 S.Ct.
1431, 1435, 89 L.Ed.2d 674 (1986); Thrasher v. State, 2006 OK CR 15,

,r 7,

134

P.3d 846, 849. "Not all limitations on the cross-examination of a prosecution
witness run afoul of the right of confrontation." Thrasher, 2006 OK CR 15,
134 P.3d at 849.

,r

7,

That is why trial judges have wide latitude to impose

reasonable limits on such cross-examination based on concerns about
"harassment, prejudice, confusion of the issues, the witness' safety, or
interrogation that is repetitive or only marginally relevant." Van Arsdall, 475
U.S. at 679, 106 S.Ct. at 1435; Thrasher, 2006 OK CR 15,

,r

7, 134 P.3d at

849.
As we stated in Thrasher.
In determining whether the Sixth Amendment has been violated,
we look to see whether there was sufficient information presented
to the jury to allow it to evaluate the witness and whether the
excluded evidence was relevant. "[W]e 'distinguish between the
core values of the confrontation right and more peripheral
concerns which remain within the ambit of the trial judge's
discretion."' "Limiting the right to cross examine for impeachment
purposes involves a peripheral concern."
2006 OK CR 15,

,r 9,

134 P.3d at 849 (citations omitted).

Our review of the record convmces us that we are dealing with
"peripheral concerns," and we can see no abuse of discretion here. Both sides

15

Resp. App. 44

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 17 of 26

agree that no evidence was presented to the jury concerning Dr. Call's
Blackwell Memory Test. The record shows that Smith's counsel had nothing
more than a hunch that Dr. Call co-wrote the brief and no evidence to support
the inquiry. Such evidence would have been confusing to the jury and had the
potential to open up issues regarding the test not relevant here. The trial court
did not err in limiting Smith's cross-examination of Dr. Call under these
circumstances.
Smith argues 1n his seventh proposition that the trial court erred 1n
excusing a prospective juror for cause. We addressed a similar challenge m
Hooks v. State, 2005 OK CR 23,

,r

20, 126 P.3d 636, 645. The juror challenged

here, like the one in Hooks, had professional experience with mental retardation.
There, we noted that the Murphy definition of mental retardation for capital
punishment purposes is substantially similar to the accepted clinical definitions
of mental retardation, but that it differs slightly in requiring proof of significant
limitations in adaptive functioning in nine, rather than ten, areas. The
prospective juror here was asked if the legal and clinical definitions differed,
whether she could follow the law and apply the definition given by the trial court.
She replied that she could not, and was excused for cause over Smith's
objection.
The decision to excuse a juror for cause rests within the trial court's sound
discretion. Id. "A juror must agree to follow the law; any other response would
prevent or substantially impair performance of her duties in accordance with her

16

Resp. App. 45

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 18 of 26

instructions and oath.~ Id. Even though the differences between the state and
clinical definitions are so small that there is little likelihood of conflict, that is not
the issue here. In order to be qualified as a juror, the prospective juror had to
agree to follow the law, whatever it was. She could not do this. The trial court did
not abuse its discretion in excusing her for cause. This claim is denied.
Smith argues in his eighth proposition that he was denied a fair trial on
the issue of mental retardation because of prosecutorial misconduct. Allegations
of prosecutorial misconduct do not warrant reversal unless the cumulative effect
of error found deprived the defendant of a fair trial. Warner v. State, 2006 OK CR
40, '1f 197, 144 P.3d 838, 891.
Smith challenges one of the prosecutor's statements during jury selection
relating to the burden of proof, two statements in opening statement about the
experts review of the evidence and three statements made during closing
argument.

The defense's objection to the prosecutor's question during jury

selection about the burden of proof was sustained before any juror answered; the
trial court advised the prosecutor to rephrase. We find the trial court's ruling
cured any error in light of the instructions and other discussion about the
burden of proof. McElmuny v. State, 2002 OK CR 40,
(sustaining an objection generally cures any error.).

,r

126, 60 P.3d 4, 30
The trial court also

sustained the defense's objection to the first challenged remark during opening
statement because it was argumentative and the prosecutor followed the court's
ruling and outlined the evidence.

The second objection, for the same reason

17

Resp. App. 46

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 19 of 26

(argumentative), was properly overruled because the prosecutor was merely
outlining the evidence.

Howell, 2006 OK CR 28,

,r

7, 138 P.3d at 556 {The

purpose of opening statement is to tell the jury of the evidence the attorneys
expect to present during trial and its scope is determined at the discretion of the
trial court.).

Likewise, any error in the prosecutor's statement during closing

argument brought to the court's attention was cured when the trial court
sustained Smith's objection. McElmuny, 2002 OK CR 40,

,r

126, 60 P.3d at 30.

The other two statements challenged in closing argument were not met with
objection and a review of the remarks shows they were fair comments on the
evidence. This claim is denied.
Smith contends in his ninth proposition that he was denied a fair trial
because of ineffective assistance of counsel. He contends that trial counsel failed
to investigate and fully present evidence demonstrating that he, in his status as
a custodial supervisor, was working at his full potential as a person with mental
retardation.
This Court reviews claims of ineffective assistance of counsel under the
two-part Strickland test that requires an appellant to show: [1] that counsel's
performance was constitutionally deficient; and [2J that counsel's performance
prejudiced the defense, depriving the appellant of a fair trial with a reliable
result. Strickland v. Washington, 466 U.S. 668, 687, 104 S. Ct. 2052, 2064, 80
L.Ed.2d 674 (1984); Davis v. State, 2005 OK CR 21,

11 7, 123 P.3d 243, 246.

Under this test, Smith must affirmatively prove prejudice resulting from his

18

Resp. App. 47

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 20 of 26

attorney's actions. Strickland, 466 U.S. at 693, 104 S.Ct. at 2067; Head v. State,
2006 OK CR 44,

,r

23, 146 P.3d 1141, 1148. "To accomplish this, it is not

enough to show the failure had some conceivable effect on the outcome of the
proceeding." Head, 2006 OK CR 44,

,r

23, 146 P.3d at 1148. Rather, Smith

must show that there is a reasonable probability that, but for counsel's
unprofessional error, the result of the proceeding would have been different. Id.
"A reasonable probability is a probability sufficient to undermine confidence in
the outcome." Id.
On appeal, Smith contends that trial counsel should have secured an
expert in the field of training mentally retarded individuals to show that the skills
he performed as head custodian were not inconsistent with someone who is
mentally retarded.

Smith has appended to his brief, among other things, an

affidavit from Theresa Flanneiy who is the Administrator for the Dale Rogers
Training Center's Vocational Programs, a vocational training program for
mentally retarded individuals in Oklahoma City.

She attests that individuals

with an 1.Q. in the range of 55 can be trained to be custodians, to set security
alarms, to use pagers and to learn repetitive cleaning tasks.
We cannot consider Smith's extra record material to evaluate the merits of
his ineffective assistance of counsel claim under these circumstances.13
13 Smith has not requested an evidentiary hearing on bis ineffective assistance of counsel drum
under Rule 3.11, Rules of the Oklahoma Court of Criminal Appeals, Title 22, Ch. 18, App. (2007).
This Court does not consider ex pwte affidavits and extra-record material for purposes of
assessing the merits of an ineffective assistance of counsel claim. Rather, we will consider such
material to determine if an evidentiary hearing is warranted. Dewbeny v. State, 1998 OK CR 10,
,r 9, 954 P.2d 774, 776. Assuming Smith attached this information for purposes of requesting an

19

Resp. App. 48

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 21 of 26

Convincing evidence was presented that Smith did not suffer from sub-average
intellectual functioning that prevented him from being productive and able to
function adequately.

Those witnesses with first-hand knowledge of his skills

portrayed Smith as capable and normal.

This claim is denied.

Smith contends in his tenth proposition that his trial attorneys were
ineffective for failing to present an expert to confirm that I.Q. testing by experts,
Dr. Hopewell, Dr. Smith and Dr. Call, was consistent with a score clearly in the
mentally retarded range. He also argues his attorneys should have had an expert
perform the ABAS II test to confirm deficits in his adaptive functioning.
Smith submits an affidavit from Dr. Terese Hall in support of this claim
again without requesting an evidentiazy hearing.

We cannot consider this

affidavit for purposes of evaluating the merits of this claim. Thus, we must fmd
that Smith has failed to meet his burden and cannot prevail. This claim is
denied.
Smith asks this Court to review the aggregate impact of the errors
identified in his case in his final proposition. He argues the cumulative effect of
the errors committed during his trial on mental retardation necessitates relief.
Where there is no error, there can be no accumulation of error. Myers v. State,
2006 OK CR 12,

,r

103, 133 P.3d 312, 336.

We have reviewed the record along

with Smith's claims for relief and have found no error. This claim is denied.

evidentiary hearing on his ineffective assistance of counsel claim, the information is insufficient to
show by clear and convincing evidence that there is a strong possibility that counsel was
ineffective for failing to utiljze the complained-of evidence. Rule 3.11 (B)(3)((b)(i).

20

Resp. App. 49

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 22 of 26

IT IS THEREFORE THE ORDER OF THIS COURT that the Judgment

finding that Smith is not mentally retarded is AFFIRMED.

Smith's capital

sentencing proceeding may now proceed in the District Court of Oklahoma

County. Pursuant to Rule 3.15, Rules of the Oklahoma Courl of Criminal Appeals,
Title 22, Ch.18, App. (2007), the MANDATE is ORDERED issued upon the
delivery and filing of this decision.
IT IS SO ORDERED.
+f.-

WITNESS OUR HANDS AND THE SEAL OF THIS COURT this

J tJ_, nu__a_ry

of

d CJ day

, 2007.

CHARLES A. JOHNSON, Vice Presiding Ju

Co~ ,J,) J.

e

C:t'--6--.-.> ~~~R, ~ .

___
_,.,_._c:_~-_•-_~_~__::::..i_-_ _ _ __,\_ _ _ _ _ ( ~ c : : : , _ _ ~

CHARLES S. CHAPEL, Judge

fl,.I,,,._ -a;,... "--

ATTEST:

.

~·,
ttl

I

•

-~

.

--- ·;

'~~-----·

lerk

-~-

21

Resp. App. 50

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 23 of 26

LUMPKIN, PRESIDING JUDGE: CONCUR IN RESULTS

I continue to believe this Court's decision in Blonner v. State, 2006 OK
CR 1, 127 P.3d 1135, was errant as I wrote in my separate vote in that case.
However, I accede to its procedure based on stare decisis.
I also believe the breadth of Appellant's I.Q. Tests, i.e. 55 to 78, in and of
itself shows he was not mentally retarded. As I have previously written, truly
mentally retarded individuals do not record that amount of variance.
Combined with the evidence of adaptive functioning, the jury verdict is fully
supported by the evidence in this case.
I concur in the judgment of the Court.

Resp. App. 51

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 24 of 26

CHAPEL, J., DISSENTING:
I dissent. I am deeply troubled by this case. The State cannot execute a
person who is mentally retarded. 1

Smith was among those defendants who

had a jury determination of mental retardation after he had been convicted of a
capital crime. This Court has gone to great lengths to fashion a process which
focuses the jury's attention on the issue of mental retardation and protects the
rights of the defendant and the State in capital mental retardation cases.2
After reviewing Smith's case, it appears that Smith's jury trial on the mental
retardation issue was carefully conducted in accordance with the procedures
developed by this Court.

As the majority notes, the jury heard nothing

regarding the facts of this case or even the specific crimes Smith committed.
There was no mention of the death penalty, capital punishment, or death row.
However, notwithstanding these facts, I cannot concur in the majority opinion
upholding the jury's verdict.
To prove mental retardation, a defendant must have an IQ score of 70 or
below, and show (1) functioning at a significantly sub-average intellectual level
in specific ways; (2) with significant limitations in adaptive functioning in at
least two of nine skill areas; (3) and that this mental retardation manifested
itself before he was eighteen years old. 3

However, a defendant must show

these only by a preponderance of the evidence, and on review we also apply the

1 Atkins v. Virginia, 536 U.S. 304, 122 S.Ct. 2242, 153 L.Ed.2d 335 (2002); Murphy v. State,
2002 OK CR 32, 54 P.3d 556, 566.
2 Blonner v. State, 2006 OK CR 1, 127 P.3d 1135, 1139-43 ..
3 Myers v. State, 2005 OK CR 22, 130 P.3d 262; 265-66.

l

Resp. App. 52

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 25 of 26

preponderance standard. 4 Smith had IQ tests of 55, 55, 65 and 73,' with one
test in the range of 69 to 78. While some witnesses suggested he may not have
been performing at his best effort during the testing resulting in the lowest
scores, no witness testified that Smith would have had a significantly higher
result, or that he was not mentally retarded. The expert consensus appears to
be that Smith's IQ is close to 70.

Smi:th presented evidence that he was in

educably mentally handicapped classes in school, and that those classes were
used for mentally retarded children. Two former teachers testified that he was
in their EMH classes, that he was appropriately placed, and that they believed
him to be retarded.

Smith presented evidence that he was functionally

illiterate, though he could copy letters and possibly read at a second or third
grade level.

He received assistance with reading and writing.

He was slow

developmentally from birth and lived with either his wife or mother until he
was imprisoned.

While Smith could carry on simple conversations and

conduct basic business transactions, there was no evidence that he used
abstract thought or was capable of abstract conversation.
The State did present evidence contrary to Smith's claims.

The State

presented several witnesses who had brief, though regular, contact with Smith
without noticing any mental handicap.

However, all the witnesses with

experience of mental retardation agreed that one cannot tell if a person is
mildly mentally retarded by looking at them, or in casual conversation. Smith
was a head custodian, and experts did not believe that he could have assumed

4

Blonner, 127 P.2d at 1140; Myers, 130 P.2d 265.

2

Resp. App. 53

Case 5:14-cv-00579-R Document 18-1 Filed 05/22/15 Page 26 of 26

that responsibility if he were mildly mentally retarded.
evidence that Smith had help in performing those duties.

However, there was
While Smith used

his janitorial skills to aid him in cleaning the crime scene and hiding evidence,
the experts did not state that a mildly mentally retarded person cannot engage
in any form of short-term planning. There was also evidence that Smith could,
and did, lie and manipulate people to get what he wanted.

Again, experts

agreed that a mentally retarded person can do those things. Smith presented
evidence of other deficits corresponding to the definition of mental retardation
in capital cases.
Smith presented significant evidence of mental retardation, including
persons who had taught him as mentally retarded and test scores which put
him in 111e mentally retarded range.

The State certainly presented testimony

which cast doubt on some of Smith's evidence. I have the greatest respect for
our jury system. However, on reviewing the entire case, I cannot conclude that
Smith is not, more likely than not, mentally retarded. The constitutional issue
in this case, whether we may execute Smith for his crimes, is of the utmost
importance.

Given the extremely low burden of proof, I am compelled to give

Smith the benefit of any doubt I may have. I cannot concur in a decision which
finds that Smith is not mentally retarded.

3

Resp. App. 54

J'

Case 5:14-cv-00579-R Document 18-12 Filed 05/22/15 Page 2 of 13

q)offns tJ&urOJ'S[chofo11ic11/ qnstitu k
f/Jsicof opin Cllnicu t.llispnnu

Suite U6 • 3401 Altamesa • Ft. Worth, Texas 76133
Voice (817)36 1-9747 • Cellphone (817)91 9-2322
Facsimile (817) 361 - 9003
Suite 407 • 7515Gre envilleA ve •
Voice (214) 373 -8080
E-mail hopewel1@ainnail.net

Dallas~ Texas 75231

• Website www.ptan.com/dni/

~ i,~re lnejlrst: l-Jfe ure the g;illure "

t.ifF.uropsrcnofo[liCnf ConsuDinp ~port
Name:
Age:
Education:
Occupation:

Referred by:
Examiner:
· Date of Eu.m:

Smith, Roderick
32
Special Education
Not in Labor Force
Jack Fisher, Esq.
c.Aic:l ft.~'PJ .O..AB PP
20 November I 998

Referral:

This referral was received subsequent to a previous analysis of the Roderick Smith case which I
performed on 17 August 1997 at the request ofthe Ok1ahoma Indigent Defense System. That assessment
was based upon a careful and thorough review of both extensive written materials as well as the videotapes
which I was able to review. It was, and remains,·my opinion that there is no doubt that Mr. Smith suffers
from documented and measurable brain dysfunction. The most likely cause of this brain dysfunction is the
hypoxic episode experienced as a child in that (a) hypoxia is a known cause of brain damage and {b)
hypoxic episodes are known to cause injuzy In particular to temporal and hippocampal systems, the
systems which are documented to function poorly in Mr. Smith both by neuroradiologicaI as well as
neuropsychologicaI testing methods. The dysfunction may well have been exacerbated by subsequent head
Injuries., migraine attacks, and or cerebral dysrpythmia (seizure activity): The dysfunction is without a
doubt likely to affect memory, information processing, and emotional behaviors and action, especially
under periods of stress. The dysfunction either by itself or in coajunction with other factors such as
(limited) educational opportunities, results In mild mental retardation or borderline IQ levels.
As a result of these factors, it has been seriously questioned if Roderick Smith was able to
competently understand his Miranda Rights and competently, willfully, ~d intelligently waive those
rights during his initial interrogations by law enforcement personnel. The:current examination_ \VaS
;

Resp. App. 55
<

.: .J.

i
I

Case 5:14-cv-00579-R Document 18-12 Filed 05/22/15 Page 3 of 13

perfonned, therefore, to address this issue. In addition, I have perfonned some additional
neuropsychological tests both to insure the validity and reliability of previous testing as well as
to more
fully investigate neuropsychological functioning as related to the understanding of Miranda Rights.

Records Reviewed:
•

Crisis Center Intake Sheet

•

Newspaper Article Re: Sheriff Office Commitment

Tests Administered_;_
•

Clinical Interview

•

Adult NeuropsychologicaI Questionnaire

•

Wide Range Achievement Test m

•

Psychiatric Symptom Assessment Scale (Modified BPRS)

•

Neurobehavioral Rating Scale

•

Draw a Person

•

California Verbal Leaming Test

•

Complex Figure of Rey-Osterrieth

•

Controlled Word Association

•

Assessing, Understanding; and Appre~ation ofMiranda Rights

•

Sentence Completion Test (Attempted)

Background Information and Behavioral Observations:
Roderick Smith's background and history have been extensive reviewed and reported, and will
only be briefly summarized here. Roderick Smith was convicted in Oklahoma County of Murder
in the
First Degree of his wife and four stepchildren in 1994, for which he received the death penalty. He
is now
at the stage of bis appeal known as "federal appeals." Despite a long mental defect and mental
illness
history which included at least borderline mental retardation,·documented organic brain damage
with
seizure activity as a result of a drowning incident. special education. and' 'mental illness which
required
extensive family counseling, and numerous attempts to arrange more extensive neuropsychological
assessment and treatment immediately prior to the murders, the issues of Roderick's mental illness
were
addressed only bri.efly and ineffectively at his trial.
Based upon the review of the record, It is evident Dr~ John R Smith and Phillip Murphy, M.D
.•
who examined Roderick Smith at triai were unaware he had walked into the Oklahoma County
Sheriffs
office, "incoherent and mumbling," and that he at that time had state<hhat 'he hadn't eaten In
four days;''
and that Oklahoma County Sheriff deputies had subsequently transported Roderick to the Oklahom
a
County Crisis Intervention Center (OCCIC) for commitment and treatment. This information
was obtained .
from a newspaper article that appeared the morning after his Mr. Smith's arrest. The OCCIC Intake
report
reveals one of the mental health professionals made a preliminary diagnosis of"psychotic" and
"out of touch
[with reality.}" Instead ofremaining at OCCIC for treatment, Mr. Smith was arrested at OCCIC
a short ·

Resp. App. 56

Case 5:14-cv-00579-R Document 18-12 Filed 05/22/15 Page 4 of 13

ti.me later and brought back to the Oklahoma County Police Department for interrogation, and before any
stabilization of his mental condition could be achieved. After telling Mr. Smith they wanted to talk to
him about his car accident on the videotapes which I was able to review, the detectives read Mr. Smith the
Miranda warning which they claim he understood and voluntarily waived.
·
The personnel at the Oklahoma County Sheriffs o6ice detennined Mr. Smith to be mentally
impaired to the ext~t that he required mental health evaluation at OCCIC. It was observed at that time by
deputy Angel Samuel that he appeared to be grossly disoriented. Reports from these deputies included:
(2)

Report by Deputy Kimberly K. Hensley Incident #93-0796:

(12:30 p.m.) Black male approached Deputy Samuel and asked to check in. (later identified as
Roderick Smith). Hensley observed Roderick Smith to be disoriented. He also appeared to have an
abrasion on his forehead and dirt on his 'T' shirt.
-

Roderick Smith was asked ifhe had warrants apd he responded by saying "they told him to
check in.,., There were no warrants. Ho again stated he had hit his head and didn't feel good due to his
being In a car wreck and needed to check in. Lt. Samuel called Lt. Thomas to the front desk and he took
control and took Smith to his office. (Typed 1nt93).
(3)

Report by reporting Deputy M. Steadman Incident #93-0796:

(6-28-93 at 13-00) Deputies Steadman. Spencer and Hagan were at OCCIC when they were
advised of a possible mental patient at the front clerk of the Oklahoma County jail. Hagan responded to the
jail <JI1d transported the subject to OCCIC, voluntarily because subject kept stating he wanted help, a place
to stay and something to eat. Steadman and Spencer felt like something wasn't right and began trying to
locate a family member or fiiend. They say the address of 623 NW 90th and attempted to criss-cross the
address for ~a telephone number which was non-published. They asked subject further questions and he
"appeared very distraught and unable to answer questions." Steadman contacted the dispatcher to send a
unit by 623 NW' 90th. Deputy Lilly later advised Steadman that OCPD homicide stated to retain the
subject. Steadman and Hagan transported subject to the Homicide division where he was turned over to
Detective BEMO.
•
.
Note; While at OCCIC, the subject did advise Steadman and Spencer that he wanted help, a place
to stay, and something to eat. Steadman and Hagan understood the subject to be voluntary and no
evaluation had been started by the doctor because Steadman and Spencer were still assessing the situation
because we knew of the homicide in the "Highlands," but they did not know the exact address'. Steadman
and Spencer realized the suspect's address was in the Highlands and that he was acting very distraught.
Therefore, Steadman and Spencer believed there was something he was not
·
When compared to Newspaper article that ran in the Oklahoman on 6-29-93,
"Oklahoma County Sheriff J. D. Sharp said Roderick Smith showed up at the front desk of the
sheriff's office and said he hadn't eaten on four days, Sharp said. "He told us someone told him to come
here, so we took him to the Crisis Center. The Crisis Center. is for mental health care. Later Monday,
Sharp said, his deputies made the connection between Smith's address arid the scene of the homicide. They
then turned Smith over to Oklahoma City homicide detectives. "Police said the suspect complained of
being in car accident three days ago."
(4)

PMH fmm by reporting Deputy H. Hagan Incident #93-0796;

(6-28-93 al 14:00) Hagan was dispatc!ied to the County, Lt. Thomas' office to check on a possible
mental patient. Lt. Thomas said he was called to the front desk and he found the subject there. His action
had s~ed the people at the front desk. LS. Thomas brought the subject back to the patrol office area but
was unable to get any information from him. Hagan talked to the subject and he acted like he was out of
touch with reality. Subject was identified from a driver's license. Based on the subject's action, the verbal
information from Lt Thomas, the subject was transported to OCCIC for evaluation. There were no
warrants. Hagan was met by Steadman and took subject to Dr. Boa's office. Hagan handed the driver's

Resp. App. 57

Case 5:14-cv-00579-R Document 18-12 Filed 05/22/15 Page 5 of 13

license to Steadman who was going to check to see if he could get some more information on the subject.
"We felt that the subject did not meet the criteria ofan out-of-touch mental patient" #234 (?) Took custody
of the subject and Hagan went 10-98. Hagan overheard OCPD radio traffic on this subject and asked
dispatch to tell #234 to be careful with him.
(5)

Report by reporting~Deputy H. Hagan incident #93-0796;

Same as PMH #4.
In my professional opinion, such infonnation would have been invaluable to Dr. Smith and Dr.
Murphy or to any mental health practitioner in their assessment of Mr. Smith. Dr. Smith has subsequently
had adewquate opportunity to exam Roderick Smith at length, and has provided a diagnosis of multiple
personality disorder in addition to the other diagnoses of retardation and organic brain syndrome. In
addition, Ifl had been retained by any counsel to examine Roderick Smith in 1994, my expert opinion
would have been that Roderick Smith was incompetent knowingly and intelligently to understand and
voluntarily to waive his Miranda Rights; that he was n;ientally incompetent to give a voluntary confession;
and that be was mentally incompetent to understand the· nature and consequences of the proceedings or to
assist his attorney in his defense. These opinions will be further explained and supported by my
examination and testing of Roderick Smith as set out below.
My examination was carried out during the morning of20 November 1998 on Cell Block "H'' of
the Death Row Unit of the Oklahoma State Penitentiary in McAllester, Oklahoma.
Communication is impoverished but functional, and is often punctuated by obsessive
perseverations. Sensorium is intact for name. He is often difficult to understand. Eye contact was poor,
and he was adequately attentive and cooperative throughout the interview. However, he often had to be
redirected to the task at hand. Stream of speech is noted to demonstrate poverty as well as rigidity of
·thought, and is often confusing and irrelevant. The examination documented the presence of thought
disorder and obsessional ideas. Ideas of reference or influence, delusions, derogatory or grandiose ideas are
currently not noted. Cognitive functions are impoverished and deteriorated, with defective memory and
defective sensorium Judgement and insight are essentially absent, and he cannot remember key elements
of the crime. He also cannot remember elements of his trial. Mood is seen to be characterized by
depression, fear, and anxiety. Affect is blunted. Hygiene and grooming are adequate and appropriate to
the situation; he was dressed in jeans and· a denim ~hirt. Perceptual abnormalities are currently not
noted. I have consulted with Dr. John R Smith, and, based upon that consultation regarding his
diagnosis of Dissociative Identity Disorder, it is my opinion that when I examined Roderick L. Smith on
20 November 1998, I was interviewing the "host" personality - "Roger." On that date, Mr. Smith
exhibited no aggressive behavior and was in fact subdued, if not withdrawn. during the entire interview.

N europsych ologicaJ Functioning:

Sensorimotor
Right hand dominance appears well established. Sensorirnotor functioning appears to be grossly
normal and unremarkable, with slowed psychomotor speed, adequate motor programming, and an
acceptable level of motor learning. Visual perception and visuomotor integration aJso appears within
normal limits upon my examination. Testing was consistent with previous similar testing, such as the
Trailmaking Test, indicating that there is no evidence of malinger or distortion.

Speech and Language
Speech and language functions are noted for a colloquial speech pattern as well as language of
limited intellectual ability, but communication is functional for the activities of daily living. Roderick is
completely illiterate due to his brain damage.

Resp. App. 58

Case 5:14-cv-00579-R Document 18-12 Filed 05/22/15 Page 6 of 13

Memory
Defective Storage Memory Profde.
Fonnal testing of memory indicated defective stor~ge of new infonnation. to include both visual
and verbal material. In the case of Roderick, for example, learning and storage of new infonnation was so
poor as to result in an very poor memory profile, with memory functioning being below the tenth
percentile. This is consistent with a Defective Storage Memory Profile. Due to the difficulties in the
initial storage of new infonnation, attempt to consolidate new knowledge will be hampered as facts cannot
be retrieved and used if they are not first stored efficiently. Therefore, simple cueing techniques will be of
little use by themselves, and it will be better to reduce memory demands and attempt to train only
essential domain-specific information. A check of the possibility of memory malingering was performed
with the I 5 Item Malingering test, which documented th.it there was no evidence of malingering, and,
' indeed, Rod seemed to try his best on this test. A graphic example of Roderick's learning and memory
curve perfonnance is provided below, in which significantly impaired learning and overall memory
functioning is demonstrated:

Cafifornia f{)cr6af
S{garning &fest

100

90
%
R

e
C

80
70
60

a

50

I

40

I

Normal uaming Cun;e

e

30

d

20
10

0
Monday 1 Monday 2 Monday 3 Monday 4 Monday 5 Tues. List

Delay

!X_cmory 6)riaf
~ Patient's %

•

Norm % Expected

Likewise, visual memory is impaired although immediate visual perception is intact. Roderick's
inability to remember information presented earlier to him is illustrated In the reproduction of his Rey
Figure attempts below:

Resp. App. 59

Case 5:14-cv-00579-R Document 18-12 Filed 05/22/15 Page 7 of 13

---,-,

,:J"'i..,.I

•·

----

.....

~-.,:· ......... '

I

""S-

-'"':""•

-'""!\.

,.......;:--_· ... -....

·::~ -=-~. ..
,

Original Rey Figure
to be Copied

-~.$~

.

.

-

(
.
,.,.. ,-,:i.,,

_ .....!"!:

......

•c-- T..,.

.-

~

.

-"'-.•.

I;
"

.j. .. .--.
.. I

.. ,_

.
~,

'··......··-....

~~

.! .

<=

Roderick's Copy is
Adequate

Roderick's Recall of the Rey Figure
After 30 Minutes is fmpov~rished and
Defective
=:-

Literacy Functioning
The Wechsler Adult Intelligence Scale - Revised, was previously administered to help estimate
the overall intellectual ability Roderick. The Wechsler Adult Intelligence Scale - Revised thoroughly
measures verbal and school-related skills such as language development., the understanding of verbal
concepts, one's general fund of infonnation, and English word knowledge obtained both through formal
academic training as well as those obtained through life-experiences. The Wechsler Adult intelligence Scale
- Revised also measures a number of nonverbal skills relating to the ability of the client to reason what is
happening in social situations, to solve problems by being able to analyze a situation· and describe it
verbally, and to understand and to describe verbally relationships occurring in social situations along with
perceptual-motor functions.
The Wechsler Adult Intelligence Scale - Revised is administered individually and· therefore also
allows for judgements to be made about the client's motivational level, attention span, and tolerance to
·frustration. IQ Scores may range from a low of below 40 to a high score of above 160. The ltstatistically
average" person receives an IQ score between 90 and 110, and about half of all adults score within this
range. Almost all people (about 95 percent) achieve IQ-scores between 70 and 130. Scores above 130 are
considered to be unusually high and are obtained only by about 2 percent of the population. Similarly,
scores below 70 are considered to be unusually low and are obtained only by about 2 percent of all clients.
Roderick has on numerous times been determined to be within ether borderline levels of intellectual

Resp. App. 60

Case 5:14-cv-00579-R Document 18-12 Filed 05/22/15 Page 8 of 13

functioning or within the range of retardation. My impression is that he functions at even a lower level
than would normally be indicated by his IQ due to his brain damage.
Academic abilities in English are so limited as to indicate that Roderick is completely illiterate.
Roderick was able to achieve. a word recognition grade equivalent score of the kindergarten grade on the
Wide Range Achievement Test; spelling in English is at the kindergarten level. Mathematics are measured
at the second grade level.

Academic Scores
Wide Range Achievement Test m

. ISubtest

/ standard Score

IGrade Equivalent

<45
<45
46

arten

arten

Understanding ofMiranda Rights
The lnstrumems for Assessing the Understanding and Appreciation of Miranda Rights are a set of
instruments developed and validated by Thomas Grisso. Ph.D., designed to assist mental health
professionals in assessments ofjuveniles' and adults' capacities to understand and appreciate the significance
of their Miranda Rights: the rights to remain silent and to have legal counsel during police questioning.
·The instruments were originally developed for a research project that was funded by the National Institute of
Mental Health (MH-27849). The purpose of the initial project was to identify the capacities of youths t~
understand and appreciate the significance of Miranda warnings regarding the rights to silence and to legal
counsel, and to compare delinquent youths' capacities in this regard to those of adult offenders.
The instruments have subsequently been used by mental health professionals when they are asked to
examine the capacities of individual youths or adults to have waived their Miranda Righls knowingly and
intelligently at the time of their police interrogation. This question often forms part of the inquiry in
judicial detenninations of the validity of waiver of Miranda Rights, as it relates to the legal question of the
admissibility of defendants' confessions as evidence in later adjudicative proceedings.
These instruments were first described as an appendix in Juveniles' Waiver of Rights: Legal and
Psychological Competence (Grisso, 1981, Plenum Press). The test currently consists of four instruments
for evaluating understanding and appreciation of Miranda rights:

=

Comprehension of Miranda Rights (CMR)

=

Comprehension of Miranda Rights-~ecognition (CMR.-R)

::::>

Comprehension of Miranda Vocabulary (CMV)

::::>

Function ofRights in Interrogation (FRI)

The CMR assesses the examinee's understanding of the Miranda warnings as measured by the
examinee's paraphrased description of the warnings. The procedure involves presentation of each of the four
Miranda warnings, one by one. to the examinee. After each warning is presented, the examinee is invited to
tell the examiner "what that means in your own words." Administration rules indicate when the examiner

Resp. App. 61

Case 5:14-cv-00579-R Document 18-12 Filed 05/22/15 Page 9 of 13

should probe for further explanation after the ex.aminee provides an initial answer. Administration typically
requires no more than I 5 minutes.
The CMR-R assesses the examinee's understanding of the Miranda warnings as measured by the ·
examinee's ability to identify whether various interpretations provided by the examiner are the same as or
different from the warning that was presented. This measure allows examinees to demonstrate their
understanding withqut requiring that they paraphrase the warning in their own words. Thus examinees who
understand the warnings but who have verbal expressive difficulties are less likely to be "penalized," as
might occur if one relied on the CMR alone ( which requires verbal expression).
As with the CMR, the CMR-R requires that each warning be presented to the examinee. After
each warning statement, the examiner asks the examinee to listen to three other statements, some of which

are the same as the warning and some of which are not the same. The examinee simply says "same" or
"different" after each alternative statement. Among the 12 alternative statements (3 for each of the 4 Miranda
warning statements), 6 are "the same" and 6 are "different." Administration of the CMR-R requires about 5
to I O minutes.
The CMV assesses the examinee's ability to define six words that appear in the version of the
Miranda wa.rnhtgs on which the Miranda instruments are based. The examiner reads each word, uses it in a
sentence, and then asks the examinee to define the word. Administration typically requires about I 0
minutes_
The FRI assesses the examinee's grasp of the significance of the Miranda rights m the context of
interrogation. For example, some defendants may understand the warning that they have the "right to an
attorney," yet they may fail to appreciate its significance because they do not understand what an attorney
does. The FRI, therefore, goes beyond understanding_.of the Miranda warnings themselves to explore
examinees' grasp of the significance of the warnings in three areas:

=

Nature of Interrogation: jeopardy associated with interrogation

= Right to Counsel: the function oflegal counsel
= Right to Silence: protections related to the right to silence, and the role of confessions
The FRI 1.1ses four picture stimul~ which are accompanied by brief vignettes (e.g., a story about a
suspect who has been arrested, accompanied by a picture of a young man sitting at a table with two police
officers). Each picture and vignette are followed by a set of standardized questions ( 15 in all) that assess the
examinee's grasp of the significance of the three matters noted previously.
Rules for scoring the examinee's answers provide for 2-point (adequate), I-point (questionable), and
O-point (inadequate) credit for each of the responses. This produces scores on three subscales corresponding

.

~

=

=
=

Recognition of the Nature oflnterrogation (NI subscale)
Recognition of the significance of Right to Counsel (RC subscale)
Recognition of the significance of the Right to Silence (RS subscale)

FRI total scores range from 0-30. Subscale scores and total FRI scores may be compared to norms
for delinquent youths and adult offenders of various ages, as provided in the Tables section (pp. 91-94) of
the manual.

_ The use of these instruments provides several benefits to the examiner who is evaluating cases
involving questions of the waiver of Miranda rights. First, these instruments offer the examiner a
standardized method for assessing a defendant's understanding and appreciation of the Miranda warnings. In .
contrast to assessing the same abilities in unstructured interviews, using the instruments assures that all
examinees will be presented with the same stimuli, thus increasing the strength of the argument that

Resp. App. 62

Case 5:14-cv-00579-R Document 18-12 Filed 05/22/15 Page 10 of 13

differences between defendants are more likely to reflect actual differences in abilities. Second. the
-instruments offer objective methods for scoring responses. Thus, in addition to describing the content of a
defendant's responses, the quality of the responses can be expressed numerically and compared to those of
other defendants, Third, three of the instruments (CMR, CMR-R. CMV) offer the potential to detect
consistencies and inconsistencies in an examinee's responses to the Miranda wamings. AI:, described in Part
VII (Interpretation), this assists the examiner in identifying an examinee's attempts to feign deficits in
Miranda comprehension, and to avoid presuming that the examinee has deficits merely because he or she .
performed poorly mthe context of a single,· specific response mode. Fourth, the use of the instruments can
improve the examiner's ability to communicate the results· of the evaluation in written reports and
testimony. They provide a structure that the examiner can use to clearly describe the basis for the
examiner's opinions, so that the foundation for testimony is more understandable to the court.
Roderick's responses indicated essentially no understanding of these rights whatsoever, even with
repeated presentation and cueing. For example, Rodericks' response to "What is an attorney? For
example, the attorney left the building" is "{That's what I got in here. (query) He write books. (query) He
talk to me." Rodericks' response to "What does •appoint' mean? We will appoint her to be your social
worker." ''A point." You mean you point?"

Roderick frequently needed phrases repeated and was able to achieve only a single point on the
Recognition version of the Comprehension Test. His score is far below even others with similar IQs.,
thereby reflecting the additional effects of his brain damage. Indeed, his level offunctioning is seen to be
equivalent to that of a twelve year old child with an IQ of approximately 70. Rodericks' score is shown
on the graph below, in which the score of a number of youngsters and adults up to the age of32, all with
IQs of70 and below, are shown for comparison:
·

Comprehension oJ !K_iranda ~hts
!X,.eans for .Age 6y qQ_ Classification
_
7Q or l)}d9W
.
as Compare! to ~~rick Smith

8.0
7.2

s

6.4

C

5.6
4.8
4.0
3.2
2.4

0

r
e

Average Scores of Individuals with IQs of 70 or
Below
-'
~-

At Age 3 2, Roderick's Score is Z e r-0 as Compared to '-. _
the Wsual Scar~ of 6, W~ich is Still Defectiv~
~

1.6

0.8
0.0

12

E:1 Patient's%

13

14

'17-19

20-22

23-26

27-31

32+

o Norm % Expected

Resp. App. 63

Case 5:14-cv-00579-R Document 18-12 Filed 05/22/15 Page 11 of 13
Sm/Iii, tJ?!,der!d- - fPsyckofqpcnf .9(/rnn_Jq <7cq,ort - 20 QY01rmbcr 199& - /P1111e JO
;

Summary:
In summary, Roderick Smith is completely illiterate, demonstrates both brain damage and an iQ
which is within the range of rc;:tardation, lacks the intelligent and knowing capacity to understand or waive
a complex legal concept such as his Miranda Rights, and sujfers from periodic episodes of both loss of
touch with reality due to his multiple personality disorder as well as seizure activity. Such individuals
typically show varying degrees of mental ability, and, when they are performing at a higher level may be
mistakenly judged by casual or naive observers to be "faking» or malingering." There is, of course, no
evidence that Roderick is "faking" his retardation, his illiteracy, his brain damage, or his seizure episodes.
When originally spealcing to his interrogators, he repeatedly asked to see a doctor due to his head hurting.
a symptom possibly related to seizure activity, migraine activity, head injury, or a combination of the
above.

Based upon the review of the records, my testing and evaluation of Mr. Smith, I have fonnulated
the following expert opinions based upon a reasonable ~rtainty applying accepted principles of psychology:
(I)
It is my professional opinion that Roderick Smith could not knowingly and intelligently
waive his rights in response to a Miranda warning as a result of a functional level of mental retardation, his
illiteracy, and the fact that specific "Grisso" testing of Miranda Comprehension documents him to function
at the level of a retarded twelve-year old child in his ability to understand such legal concepts.

(2)
Regarding the voluntariness of Roderick Smith's confession, it is particularly important
that he was told by the interrogators they wanted to talk to him about his car accident and head injury.
Before the Miranda warning was read to him, Mr. Smith told the officers he "had blow to his head."
Detective Cook Immediately said, "that is what we wanted to talk to you about. We understand you were
involved in a serious car wreck, and we want to talk to you about that." Then Detective Bemo said, "But
first I want to read your rights to you, so you understand them."

It Is my expert opinion that a person functioning at Mr. Smith's level, again, the level of a
retarded twelve-year old child, would believe he was going to be interviewed about his head injury. He
would be unable to appreciate the consequences of discussing the murder.
(J) As the interview progressed, (before the murder was discussed), the discussion focused entirely
on the car accident and his head Injury. Mt. Smith told the detectives on page seven of the interrogation
report that "I need a doctor."
·

Del. Bemo replied,
Roderick,
Det. Cook:
Roderick,

Bemo:
Cook.

"Do you need the doctor now?"
"Yeah."
"What kind of doctor?"
"I don't know, just somebody I can ta1k to."
"We'll talk to you."
..Maybe we can help you."

Then the detectives told Mr. Smith several times they will help him if he would talk to them.

In my expert opinion it would be evident to a person functioning at Roderick's levei that ofa
retarded twelve-year old child, that if he talked to the detectives they would help him with the pain in his
head and the confusion he was experiencing.
(4) It is also my expert opinion that Roderick Smith was unable to discern the difference between
the authority figures present and to discern knowingly and intelligently that he-was waiving his rights as
ho spoke not to doctors, but to law enforcement officials.
(5) It is my expert opinion that a person functioning at the level of Roderick Smith, the level of a
retarded twelve-year old child, exposed to the misleading representations of the detectives that they only wanted to talk to him about the car accident and his head Injury, coupled with the inducement that ifhe
would talk to them they would help him with the pain and confusion in his head, that Mr. Smith's will to

Resp. App. 64

Case 5:14-cv-00579-R Document 18-12 Filed 05/22/15 Page 12 of 13

resist speaking to the detectives was overcome. It is also my expert opinion that Mr. Smith's first and
second statements to the detectives were not freely, and voluntarily made. but were the direct result of the
coercive tactics of the detectives and his impaired mental condition.
My opinion that the second confession was also involuntary is based upon these factors:
(I)
No attempt was made to dispel the original misrepresentations of the detectives that if he
would talk to them fhey would help him with the problems with his head;
(2)
In the second interview before the detectives began interrogating him about the facts of the
murder, they told him (page 4)

Det. Cook;

"You know however, ever since we talked to you yesterday you know we're interested in
your welfare. Ifwe can help you in any way we certainly will give it our best try."

Roderick:

"Well, T really thinks [sic] Tneed to see a doctor though.

Bemo:

"They've got you ... did you see a doctor this morning?"

Roderick:

"They told me yesterday that they would let me see one but uh ... ''

Bemo:

"Well, they've got you on the doctor's books so whenever the doctor comes in you will
get to see him, okay'?"

(Roderick just nods his head, "yes").
These statements by the detectives not only failed to dispel the original misrepresentations but
instead served to reinforce the earlier statements in the first interview that "if he would talk freely with them
they would obtain a doctor for him."
(3) Roderick was functioning at the same level of a retarded twelve-year old child during the
second interview. Nothing had occurred which would lead to the conclusion that his statements in the
second interview were made freely and voluntarily without the coercive influence of the misrepresentations
made by the detectives in the first interview coupled with his impaired mental status.

C.Ala.t1.ldapa,uJ/,"PI.V..ABPP
Diplomate, American Board of Clinical Neuropsychology
American Board of Professional Psychology; #3639
Registrant #24409
National Register of Health Service ·Providers in Psychology
New Hampshire License #712
North Carolina Permanent License #1951
Texas Clinical License #21833; School License #30391

Resp. App. 65

Case 5:14-cv-00579-R Document 18-12 Filed 05/22/15 Page 13 of 13
Smith, <R51d"erfcE· - fPs1-cnofoglcaf 9(/rnmfn ~q,on' - 20 .Jl~nrm.fer 1998 - ,tPnpc 12

VERIFICATIO N

STATE OF TEXAS
COUNTY OF TARRANT

I, C. ·Alan Hopewell, Ph.D., of lawful age and being duly sworn
upon oath state the contents of the this report and the expert
opinions stated therein are true and c·orrect based upon my
information and belief.

Subscribed and sworn to before me the undersigned Notary Pubilc
this day d_:.3_ of December 1998.

My Commission expires:

t !.

-1--1 -- 1-00 1

.¥ttrn & /J.a,yy,. .
Notary Public

Resp. App. 66

I
I
I
I
I
I
I
I
I
I
I

I
I
I
I
I
I
I
I

C. Alan Hopewell, Ph.D., M.S. Psy Phann, ABPP
Neuropsychological & Psychological Testing
Family, Group and Individual Therapy

3704 Mattison Avenue
Fort Worth, Texas 76107

Name:

817/732-8441
By Appointment Only

Smith, Roderick

Eumioer:
37

Testing Date

31 January 2003

Tests Administered:
•
•
•
•
•
•

Long Tenn Health Assessment (LTC)
Wechsler Adult Intelligence Test III
Wade Range Achievement Test III
Vmeland Adaptive Behavior Scales
15 Item Test
Test of Memory M.alingering

Background Information and Behavioral Observations;
Roderick Smith's background and history have been extensively reviewed by others as well as by
myself in my prior reports and my examination of this client in I997, and will not be repeated here.
Roderick was convicted in Oklahoma County of murder in the first degree of his wife and four
stepchildren, an offense for which he received the death penalty. Previous medical history as well as my
examination of this client in 1997 have documented a long history of mental defect, mental illness, special
education, hypoxic brain damage, and probable mental retardation. The current examination was
undertaken to address specifically the question of mental retardation, and constitutes the second time I have
examined Roderick on "H'' unit of the Oklahoma State Penitentiary.

Resp. App. 67

I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I

Mental Status and Behavioral Observations:
Communication is functional and Roderick is cooperative. Sensorium was intact. I was able to
get him to respond to testing probes with structure. Stream of speech is noted to demonstrate substantial
poverty as well as rigidity of thought. Cognitive functions are impoverished and within the range of
mental retardation, with defective memory. Judgement and insight are poor. Mood is seen to be
characterized by depression. Affect is restricted. Hygiene and grooming are congruent with his
incarceration, and he is dressed and groomed neatly. Rapport was judged to be good, and he was
cooperative to verbal commands. He is currently maintained on depakote and tegretol, and he complains of
headache.

Multicultural Factors
Multicultural factors are contributory for this being an African-American male living in
Oklahoma.

Psychological Findings
Overall test results are consistent with my previous findings. As before, reading, spelling, and
math levels were estimated by responses to the WRAT ID to be at the kindergarten IeveL or, in the case of
math, at the first grade level. Roderick spends much of his time in his cell doing simple colorings which
are at the level of grade school children. He complains that he cannot keep a cellmate as the cellmates
become bored with him, frustrated by his coloring, and that he cannot engage in games with them such as
card games, etc.

Wide Range Achievement Test - m

The WAIS - III was administered to help estimate the overall intellectual ability of Roderick.
The WAIS -III primarily measures verbal and school-related skills such as language development, the
understanding of verbal concepts, one's general fund of information, and English word knowledge obtained
both through academic training and life-experiences. To a similar degree, the WAIS - III measures a
number of nonverbal skills relating to the ability of Roderick to reason what is happening in social
situations, to solve problems by being able to analyze a situation and describe it verbally, to perform
motor and performance manipulations of the environment, and to understand and to describe verbally
relationships occurring in social situations.

Resp. App. 68

I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I

The WAIS - Ill is administered individually and therefore also allows for judgements to be made
about Roderick's motivational level, attention span, and tolerance to frustration. As with all intelligence
tests, the scores should be thought of as estimates of ability level only, and should be interpreted along
with other psychological, adaptive, and behavioral measures.
To provide meaningful interpretations of the WAIS - III, the number of correct responses on the
test is converted to an estimate of IQ as well as a corresponding percentile level. IQ Scores may range
from a low of 40 to a high score of 160. The "statistically average" person receives an IQ score between 90
and 110, and about half of all adults score within this range. Almost all people (about 95 percent) achieve
IQ scores between 70 and 130. Scores above 130 are considered to be unusually high and are obtained
only by about 2 percent of the population. Similarly, scores below 70 are considered to be unusually low
and are obtained only by about 2 percent of all clients.
It is important to understand that no test measures IQ with complete "accuracy." Many factors can
affect test scores, and results may be affected by a client being tired, ill, anxious, distracted, or poorly
motivated. In addition, as is the case with Roderick, clients being administered different tests over a wide
range of time and under many different circumstances will necessarily show some variance in test scores.
Because there is some error present in every test score, it is recommended that performance on the test be
thought of as within a range of scores rather than as a single, precise score. However, scores on the
WAIS - ID are considered to be among the most robust and valid ofIQ scores.
Roderick appears to be functioning within the Lower Extreme levels for general cognitive
abilities, and will undoubtedly demonstrate substantial difficulty in being able to participate in most
training and programs. Such individuals would not normally be considered to be acceptable clients for
training programs, and would without doubt experience difficulty in completing all training programs.
Roderick was able to achieve an overall IQ score of 55, a score which is achieved by only the lower I% of
the population. Individuals scoring within this range are generally feh to be diagnosed as being at least
mildly mentally retarded or defective. This score is consistent with previous scores obtained for Roderick,
and also indicates the level of brain damage which I have previously documented.
Extremely poor verbal skills are demonstrated, and very low abilities are documented in terms of
language development, the understanding of verbal concepts, and a very rudimentary general fund of
information. A restricted level of word knowledge which has been obtained both through academic
training and life-experiences is apparent. Roderick will have difficulty with even basic communication
skills. Common sense, judgement, and reasoning are very poorly developed, and Roderick is likely to
demonstrate substantial difficulties with understanding cause and effect relationships and with inferential
thinking.
Classroom learning, especially that which requires reading, communication skills, and the
understanding of manuals and training guides, will be far beyond the ability level for most clients scoring
within this range, and as is the case with Roderick, many are functionally illiterate. Such individuals may
even have a learning style in which they even have trouble with learning by practice and a "hands-on"
orientation, and reading and visualization is most likely not productive for them. Written assignments are
quite beyond Roderick. Such individuals will even have trouble being "followers" or learning by doing
due to their intellectual limitations.
Such individuals are generally unable to "think for themselves." Such clients may show an
unacceptable progression in terms of advancement and training beyond the entry levels of a program or
profession, regardless of their levels of motivation. Individuals in this range of intellectual ability function
best when they are seldom challenged mentally and when they work in routine and predictable
environments. They tend to be unimaginative, but may even be poor followers due to their limitations.

Resp. App. 69

I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I

The nonverbal skills relating to the ability of Roderick to reason what is happening in social
situations, to solve problems by being able to analyze a situation and to describe it verbally, and to
understand and verbally describe relationships in social situations is also felt to be severely restricted.
Roderick will be very concrete and will see most situations in terms of being "black or white." Substantial
difficulties in understanding complex situations or being able to see "shades of gray" are expected.
Cognitively, Roderick will have substantial difficulties in terms of fiustration tolerance as well as marked
restrictions in abilities to deal with complicated, stressful, complex, and ambiguous situations. These
difficulties are likely to be so marked that poor or impulsive judgements are likely when faced with stress.
The bell curve illustrated below demonstrates the "curve" ofIQ scores in the population.
Roderick's confidence interval ofIQ scores at the 95% are illustrated by the red bar, with this interval
estimated to be between 52 and 60. Again, this is consistent with prior estimates of intellectual ability.

Wechsler Adult Intelligence Scale -

m

Optional Tests*

Resp. App. 70

I
I
I
I
I
I
I

I
I

I
I
I
I
I
I
I
I
I
I

52-60
95% IQ Interval

Confidence

10- 79

80-89

90- 109

IIO-ll9

120-129

~130

Scores from the Vineland Adaptive behavior Scales are also consistent with mental retardation,
and range from four years and nine months to a high of eight years and nine months.

Resp. App. 71

I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I

Such deficiencies meet Murphy standards in more than two of the required areas of
communication, self - care, social skills, home living, self direction, academics, health and safety, use of
community resources, and work. Specifically, communication areas are rated as being equivalent to that of
4 years 9 months. Social skills are given an overall rating of 5 years 8 months. Self-care is rated as
low at a level of 2 years 4 months, but home living (Vineland Domestic area) is rated as being Adequate
at 12 years 3 months, the latter probably reflecting the known uneven development of adaptive skills after
an event such as anoxia. "Self direction" would be considered to also be within the "Personal' domain of
2 years 4 months. Academic areas are clearly deficient based upon repeated WRAT - ill and the current
WAIS - III testing. Defective skills are noted in terms of the use of community resources as Vineland
scores are at the 9 years 8 month level. Health and safety as well as work domains are not specifically
measured by the Vineland, but are felt to be adequate based on work and psychosocial history, this again
being consistent with the uneven skill development seen in both hypoxic encephalopathy as well as the
overall level of mild mental retardation in that individuals within the mild level of retardation often can
perform structured supportive work and show basic health care skills. All specific domain scores are
included in the attached Vineland Table.
The TOMM and 15 Item Tests were administered to detect possible malingering, and both tests
were determined to be within normal limits for a person with this IQ level.
Summary

Previous medical history as well as my examination of this client on 20 November 1998 have
documented a long history of mental defect, mental illness, special education, hypoxic brain damage, and
probable mental retardation. The current examination was undertaken to address specifically the question
of mental retardation, and constitutes the second time I have examined Roderick on "H'' unit of the
Oklahoma State Penitentiary. The current testing also documents both an IQ and adaptive behavior levels
within the range of mental retardation, and since this condition was acquired prior to the age of 17, the
condition meets Oklahoma standards for Mental Retardation. Such deficiencies meet Murphy standards in
more than two of the required adaptive function areas of communication, self- care, social skills, self
direction, academics, and use ofcommunity resources.

Axisl
296.35 Major Depressive Disorder, Recurrent In Partial Remission
Axis

n
317 Mild Mental Retardation With Hypoxic/ Anoxic Brain Damage

Axis Ill

No Diagnosis
Axis IV

Legal Problems
g Problems
related to the social environment

•

Other psychosocial and environmental problems

Resp. App. 72

I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I

Axis V

30

Serious impairment in communication or judgment

C..,~\:Jc?:62-::
C.AA.Aldt., ....«-Bi:'. ?ftg,p..,,~k

Diplomate, American Board of Professional Psychology
American Board of Clinical Neuropsychology
Master's Degree in Clinical Psychopharmacology
Affiliate, American Academy of Neurology
Nevada License PY0438
Texas Qinical License 1121833; School License #30391

Resp. App. 73

------------------Domain

Subdomain

Communication
Receptive
Expressive
Written

Daily Living Skills
Personal
Domestic
Community

Adaptive Level

Age Equivalent

Low

4

Moderately Low
Low
Low

4 years 0 months
4 years 9 months
5 years 9 months

Low

5 years

Low
Adequate
Low

Low

Socialization

9 months

years

Interpersonal
Play /Leisure
Coping

Low
Low
Low

Gross
Fine

Low

2 years
12 years
9 years

8 months
4 months
3 months*
8 months

5 years

8 months

4 years 10 months
4 years 6 months#
7 years 1 month

Motor Skills
Low

*

Possibly Reflects Uneven Adaptive Function Secondary to Hypoxic Encephalopathy
# Reflected in Inability to Keep a Cellmate Secondary to Inability to Interact

Resp. App. 74

